<html>
<title> - THE FUTURE OF FEMA: STAKEHOLDER RECOMMENDATIONS FOR THE NEXT ADMINISTRATOR</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                           THE FUTURE OF FEMA

=======================================================================

                                HEARINGS

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                FEBRUARY 14, 2017 and FEBRUARY 28, 2017

                               __________

                            Serial No. 115-3

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-397 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
                   Joan V. O'Hara,  General Counsel*
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
           Moira Bergin, Minority Subcommittee Staff Director

* Joan V. O'Hara served the committee through February 17, 2017 
  at which point Kathleen Crooks Flynn began service as Deputy 
  Chief Counsel.
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                       TUESDAY, FEBRUARY 14, 2017

                               Statements

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................    10
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    12

                               Witnesses

Captain Chris A. Kelenske, Deputy State Director/Commander, 
  Emergency Management and Homeland Security, Michigan State 
  Police, Testifying on Behalf of the National Governors 
  Association:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Chief John Sinclair, Fire Chief, Kittitas Valley Fire And Rescue 
  (WA), President and Chair of the Board, International 
  Association of Fire Chiefs (IAFC), Testifying on Behalf of the 
  International Association of Fire Chiefs:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Richard F. Bland, J.D., M.T.S., National Director, Policy, 
  Advocacy, and Development, Save The Children:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                             For the Record

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Statement of Wendy Smith-Reeve, President, National Emergency 
    Management Association and National Director, Arizona 
    Department of Emergency and Military Affairs (DEMA) Emergency 
    Management Division, On Behalf of the National Emergency 
    Management Association.......................................     3
  Statement of NAEMT.............................................     8
  Statement of Lanita Lloyd, CEM President, International 
    Association of Emergency Managers............................     9

                                Appendix

Questions From Chairman Daniel M. Donovan, Jr. for Chris A. 
  Kelenske.......................................................    41
Question From Ranking Member Donald M. Payne, Jr. for Chris A. 
  Kelenske.......................................................    42
Questions From Honorable James Langevin for Chris A. Kelenske....    42
Questions From Chairman Daniel M. Donovan, Jr. for John Sinclair.    43
Question From Ranking Member Donald M. Payne, Jr. for John 
  Sinclair.......................................................    45

                       TUESDAY, FEBRUARY 28, 2017
                               Statements

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................    47
  Prepared Statement.............................................    48
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................    49
  Prepared Statement.............................................    50
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    51

                               Witnesses

Mr. W. Craig Fugate, Former Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54
Mr. Robert David Paulison, Former Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    58
  Prepared Statement.............................................    59

                                Appendix

Questions From Ranking Member Harold M. Payne, Jr. for W. Craig 
  Fugate.........................................................    79
Questions From Honorable James R. Langevin for W. Craig Fugate...    79
Question From Ranking Member Donald M. Payne, Jr. for Robert 
  David Paulison.................................................    80
Questions From Honorable James R. Langevin for Robert David 
  Paulison.......................................................    80
 
     THE FUTURE OF FEMA: STAKEHOLDER RECOMMENDATIONS FOR THE NEXT 
                             ADMINISTRATOR

                              ----------                              


                       Tuesday, February 14, 2017

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Daniel M. Donovan, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Donovan, Rutherford, Garrett, 
Payne, Langevin, Watson Coleman, and Rice.
    Also present: Representative Jackson Lee.
    Mr. Donovan. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
the efforts necessary to ensure a strong Federal Emergency 
Management Agency.
    I now recognize myself for an opening statement. Before I 
do so, I would like to welcome a new Member, a Republican 
Member joining our committee. Congressman John Rutherford 
represents Florida's 4th Congressional District. He began his 
career in law enforcement in 1974--John, that was the year I 
graduated high school--most recently serving as sheriff of 
Duval County, a position he has held for 12 years.
    This hearing is the first in a series that the subcommittee 
will hold to consider the future of FEMA. We will use what we 
learn at these hearings along with the findings of past 
subcommittee work to make recommendations for the next FEMA 
administrator, a road map of success, of sorts.
    I think Captain Kelenske may have said it best in his 
submitted testimony that we must, ``recognize past progress at 
FEMA, but embrace innovative approaches for future policy 
development.'' That is why we are here today.
    We want to hear from you, the practitioners, about what we 
need to do to stay on the path of a strong FEMA. What are those 
innovative approaches? What is going well at FEMA and should be 
continued? What can be improved?
    At the heart of issue is leadership. As I discussed with 
Secretary Kelly last week, it is vital that the administration 
move quickly to appoint a qualified FEMA administrator. We have 
already had seven major disasters declared this year. There is 
no doubt that FEMA has disaster-tested officials in place to 
get the job done, but it is important to install permanent 
leadership as soon as possible.
    The job requires an experienced emergency manager capable 
of navigating the National Preparedness System. For more than a 
decade, billions have been invested across the United States to 
enhance capabilities and achieve the National Preparedness 
Goal. It is to FEMA's credit that such investments are making 
the United States stronger and safer in the face of 
emergencies. We have an obligation to keep this momentum going.
    Hurricane Katrina's devastation in 2005 demonstrated the 
significance of FEMA's mission and the failures that can occur 
when FEMA is unable to execute it. The Post-Katrina Emergency 
Management Reform Act of 2006, coupled with effective 
leadership at FEMA, strengthened FEMA's capability to lead the 
National emergency management efforts. These capabilities are 
tested each time the National Response Coordination Center at 
FEMA headquarters is activated.
    My district in New York City saw first-hand in 2012 the 
need for strong Federal, State, and local coordination when 
Superstorm Sandy caused wide-spread destruction. It should be 
noted that FEMA did make stark improvements from 2005 to 2012, 
but challenges still remain. This subcommittee looks forward to 
continuing its engagement with FEMA to support continued 
progress.
    According to the Committee on Homeland Security's Terror 
Threat Snapshot, the terrorist threat environment worsened in 
2016. The number of home-grown jihadist cases and lone-wolf 
attacks continues to surge with attacks ranging from Ohio State 
University to Orlando and San Bernardino. FEMA has awarded over 
$40 billion in preparedness grants to States and localities 
since 2001 to build, sustain, and enhance their capabilities to 
protect the public from acts of terrorism and other hazards.
    It is important that we ensure resources and training 
remain accessible to communities across the country. The 
critical importance of these programs and how to continue to 
improve them is not lost on this subcommittee.
    We truly are a resilient Nation. This is a testament to our 
first responders, emergency managers, and community partners at 
every level of government and their ability to continually 
adapt to ever-changing threats and vulnerabilities. Together, 
we can ensure our Nation's continued ability to prevent, 
prepare for, mitigate, respond to, and recover from the threats 
and hazards that we face.
    Before I yield to the Ranking Member, I would like to ask 
unanimous consent to include statements in the record from 
stakeholder organizations, including the National Emergency 
Management Association, the National Association of Emergency 
Medical Technicians, and the International Association of 
Emergency Managers.
    Without objection, so ordered.
    [The information referred to follows:]
     Statement of Wendy Smith-Reeve, President, National Emergency 
  Management Association and National Director, Arizona Department of 
Emergency and Military Affairs (DEMA) Emergency Management Division, On 
        Behalf of the National Emergency Management Association
                           February 14, 2017
                              introduction
    Thank you Chairman Donovan, Ranking Member Payne, and distinguished 
Members of the subcommittee for allowing me to submit this statement 
for the record to discuss the future of the Federal Emergency 
Management Agency (FEMA) and recommendations for the next FEMA 
administrator. My name is Wendy Smith-Reeve and I am the director of 
the Arizona Department of Emergency and Military Affairs (DEMA) 
Division of Emergency Management and serve as the president of the 
National Emergency Management Association (NEMA). NEMA represents the 
State emergency management directors of the 50 States, territories, and 
District of Columbia. NEMA's members, many of whom serve as Homeland 
Security Advisors, are prepared to deal with an ever-changing and 
increasingly complex set of challenges that test traditional approaches 
to natural and man-made disasters.
    As you heard former FEMA Administrator Craig Fugate say throughout 
his tenure, emergency management is a ``whole community'' endeavor. 
While preparedness, response, recovery, and mitigation capabilities are 
critical on the Federal level, it is important to emphasize that they 
are only a part of the National capability and must supplement, not 
supplant robust State and local capacity. The context and environment 
in which our system must succeed is constantly evolving and 
intersecting with other domains of public health, safety and security. 
Climate adaptation, health threats, population migration, advanced 
technologies, economic shifts, and many other trends and drivers are 
all forcing the emergency management community to adjust, if not 
reinvent, its business practices, resource requirements, and focus 
areas like never before.
    Even so, there remain some constant themes that NEMA cannot 
overemphasize as a new administration assumes stewardship of the safety 
of our Nation. The next FEMA administrator will have numerous 
opportunities to:
 build upon foundation of best practices that achieve efficient use of 
    taxpayer dollars and leverage investments made at all levels of 
                               government
    Emergency Management Performance Grants.--States and locals build 
capacity and enhance their capability to respond to disasters when they 
utilize the Emergency Management Performance Grants (EMPG). EMPG is the 
only source of Federal funding directed to State and local governments 
for planning, training, exercises, and key professional expertise for 
all-hazards emergency preparedness. Recipients of this grant continue 
demonstrating a strong commitment; for every dollar of Federal funds 
invested, at least that much is matched by both grantees and sub-
grantees. In the absence of these funds, State and local governments 
would struggle to maintain the capabilities necessary to build and 
sustain an effective emergency management system. Fiscal year 2015 
represented a range of hazards which required an unprecedented amount 
of emergency management professionalism and preparedness:
  <bullet> 30,275 events required State assets, but did not reach the 
        level of a gubernatorial declaration
  <bullet> 19,415 local and Tribal events were supported using EMPG-
        funded staff or assets without State or Federal support.
    These numbers include only those incidents in which no Federal 
assets were utilized during the response and there was not a 
Presidential or emergency declaration. Without a strong and robust 
emergency management system at the State, local, and Tribal levels, 
many of the 49,690 State and local responses would falter or require 
Federal support. Capabilities afforded through EMPG allow these events 
to be managed without additional Federal expenditures. Ensuring robust 
State and local emergency management programs is the best way to reduce 
the Federal cost of disasters.
    EMPG funding has remained level since fiscal year 2014, yet 
emergency management is being asked to respond to a growing number of 
non-traditional events such as the Ebola and Zika viruses, 
unaccompanied minors crossing borders, active-shooter incidents, Avian 
Flu (HPAI), drought, wildland fires, and water contamination 
emergencies. Even for those events in which emergency management is not 
the lead agency, their expertise is still required to coordinate the 
various response entities. There is a critical need for additional EMPG 
funding to ensure the State and local capabilities that have been built 
are not only sustained, but are able to grow and adapt to meet the 
emerging threats facing our Nation.
    EMPG stands as the beacon of Congressional commitment to ensuring 
communities and States are better equipped to prepare, mitigate, 
respond, and recover from any number of emergencies and disasters.
    Emergency Management Assistance Compact (EMAC).--EMAC has played an 
important role in facilitating collaboration among States and enabling 
them to share resources and capabilities. Established by the States and 
ratified by Congress in 1996 (Public Law 104-321), all 50 States, the 
District of Columbia, Puerto Rico, Guam, and the U.S. Virgin Islands 
have enacted EMAC legislation. Through EMAC, States are able to share 
resources with other States during Governor-declared emergencies and 
disasters. Resolved upfront are key issues such as tort liability and 
immunity, license reciprocity, workers' compensation, and 
reimbursement.
    State-to-State mutual aid often allows for more timely and cost 
effective disaster response than the use of Federal resources. Further, 
EMAC is evolving to include virtual missions that can be carried out by 
personnel working in their home States rather than deploying into the 
disaster area. Examples of virtual EMAC missions include GIS, cyber and 
social media monitoring. Virtual mutual aid reduces mission costs 
resulting in cost savings to Government. EMAC leverages Federal 
emergency management and homeland security grant dollars invested in 
State and local capabilities to conduct response and recovery 
operations across the Nation. Because of these increased capabilities, 
the vast majority of disasters are handled without Federal assistance 
and when a State does become overwhelmed, EMAC is available to provide 
supplemental support.
    Recommendations:
  <bullet> The administration should recognize and continue to enhance 
        the value of EMAC and incentivize the use of inter-State mutual 
        aid as an efficient and cost-effective approach to disaster 
        response, as well as a cost savings to the Federal Government.
 encourage investment in resiliency through mitigation and prioritize 
          risk reduction in all phases of emergency management
    Mitigation activities can take many forms and the use of mitigation 
programs often differ by region. What does not differ, however, is the 
return on investment of these programs. FEMA's mitigation programs have 
been effective in reducing the property damage, personal and commercial 
hardship, as well as long-lasting monetary burdens. There is 
opportunity to shift the business model from reactive to proactive. 
Currently 94% of funds allocated to buy down risk happen post-disaster. 
Between fiscal year 2011-2014, the Federal Government allocated roughly 
$222 million for pre-disaster mitigation as compared to $3.2 billion 
for post-disaster mitigation. Shifting away from the current spending 
model and towards a system that emphasizes proactive pre-disaster 
resilience activities is what demonstrates and promotes resiliency 
Nation-wide.
    Mitigation is the first and the last step in a jurisdiction's 
overall readiness. While many communities have the desire to harden 
their infrastructure, they lack the resources and technical ability 
necessary to do so. If we are to truly ensure that we are prepared as a 
Nation, we must increase our efforts to prepare our built environment 
for future disasters by incentivizing and facilitating mitigation. The 
best way to reduce the cost of disasters is to design and harden the 
built environment to match the threat environment and create continued, 
localized resilience. Hazard mitigation is a demonstrably cost-
effective effort with a documented return on investments. Federal 
spending, however, does not reflect this priority.
    From 2003-2013, FEMA spent $71.2 billion in Public Assistance and 
Individual Assistance to help communities recover from disasters. In 
that same time period, only $5.2 billion was spent on Hazard Mitigation 
Grants to reduce the impact of future events. While the HMGP program is 
essential as a component of recovery, mitigation efforts before the 
disaster can reduce the physical damage and economic impact of an 
event. In addition, Federal investments in mitigation through the Pre-
Disaster Mitigation Grant Program can encourage State and local 
communities to make progress in the areas of mitigation planning. These 
plans assure communities, large and small, are prepared for to address 
risk and manage the influx of grant dollars designed to help rebuild 
smarter and safer.
    Recommendations:
  <bullet> FEMA, in concert with other critical Federal stakeholders, 
        must undertake a comprehensive review of Federal statutes, 
        regulations, and policies most likely to have an impact on 
        investments (before or after disaster), to identify programs 
        and grants that could be amended to better incentivize risk 
        reduction specific to infrastructure and housing.
   streamline disaster operations to reduce costs across the federal 
  family and support efficient and sustainable response and recovery 
                                efforts
    Reducing the overall costs of disasters, at all levels of 
government, is necessary for the continued economic and social 
equilibrium of the Nation. While there continues to be concern from 
Congress, OMB, DHS OIG, and others related to the rising number and 
cost of disasters, careful study and data-driven action must focus on 
the real drivers of cost increases. Simply reducing the total number of 
disaster declarations made by the Federal Government may not 
significantly bring down the total costs associated with Federally-
declared disasters. Based on data from a House Transportation and 
Infrastructure Committee hearing in May 2016 (Controlling the Rising 
Cost of Federal Responses to Disaster): 25% of all disasters cost more 
than $41.8 million and account for 93% of Federal disaster spending, 
while 75% of all disasters cost less than $41.8 million and account for 
7% of Federal disaster spending. In other words, a quarter of disasters 
account for 93% of Federal disaster costs since 1989. This data makes 
it clear that following the money and crafting solutions that target 
actual cost drivers is paramount.
    While the future of the current Advanced Notice of Proposed 
Rulemaking related to a ``Disaster Deductible'' concept is uncertain, 
NEMA has been working actively to assess the impact of the proposal and 
identify alternatives that may achieve true cost reduction. National 
efforts to reduce the costs of disasters through legislation or 
rulemaking must:
  <bullet> Recognize that State, local, and Tribal governments already 
        handle the vast majority of disasters and emergencies on their 
        own and without Federal assistance;
  <bullet> Refrain from simply shifting costs from the Federal level to 
        State, local, and Tribal governments which does not achieve 
        meaningful disaster cost reduction;
  <bullet> Utilize the best available science and predictive analysis 
        tools to illustrate data-driven return on investment 
        calculations;
  <bullet> Provide for transparency and accountability without 
        increased complexity and administrative burden.
  <bullet> Identify and address the current challenges that exist to 
        speeding up disaster declarations and breaking down delays in 
        the request process. These delays cause increases in 
        administrative costs and can have long-term impacts on 
        strategic recovery. FEMA should incentivize the adoption of new 
        technologies, modeling techniques, and predictive analysis to 
        help get assistance to affected areas quicker.
  <bullet> Recognize and address the disjointed nature of disaster 
        recovery programs. The sequence of delivery of the numerous 
        disaster assistance programs across the Federal Government 
        (HUD, SBA, DOT, etc) can impact the efficiency and 
        effectiveness of those programs in assisting in long-term 
        recovery. When communities receive injects of funding from 
        Federal programs on different time tables, recovery can be 
        bifurcated and may actually increase costs over time due to 
        unnecessary delays.
    As a Nation, we are currently limited in our ability to take 
meaningful action to reduce costs because we lack a reliable awareness 
of the total costs borne at all levels of government and across various 
agencies in relation to disaster costs. FEMA is not the only agency 
that funds disaster response and recovery activities. In 2016, GAO 
released a report that says ``during fiscal years 2005 through 2014, 
the Federal Government obligated at least $277.6 billion across 17 
Federal departments and agencies for disaster assistance programs and 
activities.
    Recommendation:
  <bullet> The new administrator should, in concert with key Federal 
        leadership, initiate a study to determine the true costs of 
        disasters be conducted that captures not only those direct 
        financial costs borne by FEMA, but also those costs, both 
        direct and indirect that are paid by other Federal agencies, 
        State, local, and Tribal governments, and the private sector. 
        This should not only account for economic costs related to a 
        disaster, but the opportunity cost for economic activities that 
        were impacted by the disaster. Such a study will paint a much 
        clearer picture of what the true cost of natural and man-made 
        disasters is to the United States, and allow us to develop a 
        more comprehensive and ultimately successful program to reduce 
        those costs.
 support practical budgeting solutions that sustain a viable disaster 
relief fund (drf) and maintain a focus on state and local response and 
                          recovery activities
    The DRF is a no-year account that is used to fund response 
activities and pay for on-going recovery programs resulting from 
declared major disasters, emergencies, and Fire Management Assistance 
Grants (FMAGs). The majority of its funding goes to pay for response to 
and recovery from major disasters. The DRF is a critical source of 
funding for State and local governments and when funding levels are 
inadequate, community recovery can be delayed. Through the Budget 
Control Act of 2011 (BCA, Pub. L. 112-25), caps were placed on 
discretionary spending for the next 10 years, beginning with fiscal 
year 2012. Special accommodations were made in the BCA to address the 
unpredictable nature of disaster assistance while attempting to impose 
discipline on the amount spent by the Federal Government on disasters. 
The BCA created an allowable adjustment specifically to cover disaster 
relief separate from emergency appropriations.
    The limit established by the BCA on adjustments to the caps for 
disaster relief is based on the average funding provided for disaster 
relief over the previous 10 years, excluding the highest and lowest 
annual amounts, calculated by the Office of Management and Budget 
(OMB). If Congress spends less than that average on disaster relief in 
a given fiscal year, the caps can be further adjusted upward by the 
unspent amount in the following year. The existence of this ``allowable 
adjustment'' for disaster relief has influenced the way that the DRF is 
structured, allowing a larger overall funding stream to be provided in 
annual appropriations without it counting against the bill's allocation 
of discretionary spending.
    The methodology used by OMB to calculate the allowable adjustment 
may not capture the full range of disaster relief spending, and the 
structure of the formula for calculating the average provides smaller 
allowable adjustments in future years. The sizeable initial disaster 
relief expenditures for Hurricane Katrina and the other 2005 storms 
will begin to lose relevance in calculating the allowable adjustment 
for disaster assistance for fiscal year 2016, and will no longer impact 
calculations for the allowable adjustment in fiscal year 2017. Once 
fiscal year 2005 and fiscal year 2006 rotate out, there will be a 
corresponding drop in the allowable disaster assistance adjustment. 
This could put FEMA in the position it often found itself in prior to 
2011, waiting for a Congressional supplemental to fund response and 
recovery operations for major disasters that exceeded the amount in the 
DRF at that time.
    In addition to the drop in the allowable adjustment, there is 
another pending issue that impacts the DRF. Congress is considering 
legislation that would allow other Federal agencies to utilize the 
disaster allowable expense cap to pay for their response activities 
such as wildfire suppression on Federal land. This could put further 
stress on the amount of funding available before requiring a 
Congressional supplemental in the event of a major disaster which could 
ultimately delay community recovery efforts.
    Recommendations:
  <bullet> FEMA must work with Congress and arm them with key data to 
        illustrate the impacts of the Budget Control Act on the long-
        term health of DRF. Congress should consider changing the 
        formula for calculating the allowable adjustment for the DRF 
        under the BCA.
  <bullet> FEMA should continue to educate and inform Congress of the 
        impact of proposed changes to the process for funding Federal 
        agencies' disaster response efforts outside of the Stafford 
        Act. Congress should provide direct funding to Federal agencies 
        to support their emergency response activities rather than 
        allowing access to the DRF.
     continue to support the implementation and evolution of ppd-8
    Presidential Policy Directive/PPD-8: National Preparedness 
recognizes that preparedness is a shared responsibility. At its core, 
PPD-8 requires the involvement of everyone--not just the Government--in 
a systematic effort to keep the Nation safe from harm and resilient 
when struck by hazards, such as natural disasters, acts of terrorism 
and pandemics.
    The National Preparedness System (NPS) is a practical and effective 
approach to building and sustaining capabilities. State and local 
stakeholders were consulted extensively in its development and have 
fully implemented into their planning efforts. As the foundation of the 
NPS, the Threat Hazard Identification and Risk Assessment (THIRA) 
process informs emergency operations planning, mutual aid agreements, 
and hazard mitigation planning. Key stakeholders at the State and local 
level have been incorporated into the THIRA process to ensure the full 
range of threats and hazards facing communities are addressed. While 
not perfect, we believe THIRA and the larger NPS structure has provided 
a baseline against which we can now measure progress towards a common 
goal. Improvements and tweaks will always be needed to ensure the 
process represents and incorporates the best available data and 
measures key indicators that communicate the gaps that exist and 
progress made over time.
    Recommendations:
  <bullet> The administration should support and build upon the 
        existing National Preparedness Goal and its support components 
        as they become fully implemented by State and local 
        governments.
  <bullet> FEMA should engage stakeholders in future updates to ensure 
        the National Preparedness System is reflective of and supports 
        the whole community.
  heavily engage with congress and the administration in pursuit of a 
                strong national flood insurance program
    In order to address the most common disaster risk and continue to 
support community awareness and action around flood risk, FEMA must 
continue to review and reform the National Flood Insurance Program. 
FEMA must engage Congress and other critical stakeholders to protect 
and defend the intent of the NFIP while simultaneously recognizing the 
need to explore innovative and unique solutions that complement a 
broader strategy of risk reduction and incentives for individual and 
community action. We as a Nation must redouble our efforts to design a 
system that helps people evaluate their individual risk and plan 
accordingly while simultaneously reducing our collective risk.
    Without a strong insurance structure, uninsured risk could 
skyrocket and the impact will reverberate across various industries 
such as the housing market. Uninsured risk is a burden on communities 
and stresses local, State, and Federal disaster recovery budgets. 
Insurance payments are significantly higher than average Individual 
Assistance payments and can help communities recover much faster. 
Insurance is a key component of the recovery framework and the role of 
insurance in bringing down overall disaster costs cannot be overstated.
    The NFIP is in jeopardy of not being able to meet the needs of the 
country in recovering from floods. The program is over $23 billion in 
debt with no clear path towards solvency. Additionally, enrollment in 
the program has declined by nearly 10% over the last several years as 
rate changes designed to shore up the program have resulted in policy 
holders dropping their coverage. This makes debt settlement even more 
unlikely. The NFIP is up for reauthorization by Congress in 2017 and 
the program's insolvency must be addressed.
    Recommendations:
  <bullet> The administration and Congress should address affordability 
        and financial stability within the NFIP and work to subsidize 
        mitigation and risk-reduction activities, not insurance, to 
        promote safety and affordability.
  <bullet> Encourage participation of the private market without 
        limiting the success of the NFIP.
              understand what works and build off success
    A new administration and a new FEMA administrator will certainly 
identify activities, reforms, and priorities they wish to pursue that 
align with their overall strategic goals. Innovative ideas are always 
needed to assure the emergency management community is always moving 
forward and incorporating new strategies that best serve communities 
around the country. While we still have work to do, FEMA has undertaken 
efforts to improve many processes and programs and we hope the new 
administrator builds off their success.
  <bullet> The Public Assistance Reengineering is an excellent example 
        of FEMA working to improve and maximize existing programs. 
        While it is still too early to determine the effectiveness of 
        the change, we are pleased with the effort and urge that 
        similar reforms be considered by other programs that impact our 
        ability to mitigate, prepare, and recover.
  <bullet> FEMA should continue to build trust and keep open lines of 
        communication between the State emergency management and 
        homeland security community and FEMA leadership through honest 
        dialogue and meaningful interaction and review. FEMA's 
        willingness to reach out early in the process of policy and 
        rule development has created a culture of engagement that we 
        look forward to continuing under a new administrator.
  <bullet> Through their strategic plan, FEMA has made it a priority to 
        build capability for catastrophic disasters. They have moved 
        the focus away from being singularly focused on Stafford Act 
        programs and instead looked at the Nation's resources to 
        recover. Through the National Disaster Recovery Framework, we 
        hope to see continued outreach across the Federal family to 
        leverage all disaster programs to achieve our unified goal of 
        meaningful recovery that serves the long-term goals of 
        communities across the country.
                               conclusion
    It's important to acknowledge that increasing the Nation's 
preparedness and response capabilities doesn't mean increasing FEMA's 
capabilities. Going forward, FEMA should encourage and incentivize 
greater investments as States work with one another to reduce the need 
for Federal assistance, reduce Federal administrative costs, reduce 
property damages, and most importantly save lives.
    We appreciate the continued support of this subcommittee to the 
emergency management community as we work together in forming new 
policies and procedures aimed at making these disasters less impactful 
on our communities and constituents. Thank you for the opportunity to 
provide testimony for the record.
                                 ______
                                 
                           Statement of NAEMT
             the importance of ems in preparedness planning
    NAEMT believes that emergency medical services (EMS) has a vital 
role in the response to all threats to our Nation and is a critical 
element in every facet of preparedness planning. These threats include, 
but are not limited to, natural disasters, health care crises, 
accidental catastrophes, public health emergencies, and acts of 
violence. EMS practitioners also serve as an invaluable source of 
support to the public and an effective resource for building strong 
community resilience. To eliminate the current gaps in our emergency 
response network, the EMS community must be provided with:
  <bullet> Inclusion and integration as a primary partner in all 
        aspects of preparedness planning.
  <bullet> Equitable and stable funding comparable to other partners 
        within the emergency response network.
  <bullet> Resources and training opportunities to that are accessible 
        to all EMS providers and EMS organizations.
    Background.--The Institute of Medicine (now the National Academies 
of Medicine) has noted that EMS is one of five pillars of medical surge 
response that are critical elements of a disaster system. EMS must be 
well-integrated with the other four pillars, which include hospital 
care, public health, out-of-hospital care, and emergency management and 
public safety organizations, to create a unified disaster care response 
system. An independent or poorly-integrated pillar may delay, deter, or 
disrupt medical care delivery during a disaster.
    Despite the acknowledgement that EMS is critical in preparedness 
planning on all levels, the shortcomings to transform the current 
framework into the system envisioned by the Institute of Medicine 
remain glaring. The NASEMSO report of January 2015 on EMS domestic 
preparedness notes that EMS receives a mere 4 percent of Federal 
disaster preparedness funds from the U.S. Department of Homeland 
Security and the U.S. Department of Health and Human Services. In 
addition, there is no mandate of minimum funding of EMS required for 
other organizational recipients of these grant programs. The paucity of 
preparedness funding of EMS is a weak link that may result in the 
collapse of our emergency response and health care systems during 
disaster.
    The outreach of EMS within and outside of the medical community and 
beyond the confines of an ambulance has repeatedly demonstrated to be 
beneficial to the public and to other response organizations. As allied 
health care professionals, the evolving utility of the EMS community in 
mass vaccination campaigns, rescue task forces, mobile integrated 
health care, and other initiatives of prevention, mitigation, and 
response serve as undeniable evidence that the pillar of EMS can no 
longer be considered ancillary or ignored.
                                 ______
                                 
Statement of Lanita Lloyd, CEM President, International Association of 
                           Emergency Managers
                           February 14, 2017
     the future of fema: stakeholder recommendations for the next 
                             administrator
    Mr. Chairman, on behalf of the 6,000 members of the International 
Association of Emergency Managers USA, I want to thank you for the 
opportunity to submit a statement for the record to help guide the 
management and policy decisions of the next FEMA administrator.
    Let me start by thanking you and your colleagues on the Homeland 
Security Committee for working with IAEM and other stakeholder 
organizations last year to incorporate our recommended savings clause 
into the Defense Reauthorization legislation. The legislative language 
was necessary to ensure the current protections of FEMA's authority to 
manage disaster response will be applied to the joint task forces that 
the Defense Authorization bill established. Following the disastrous 
response to Hurricane Katrina, IAEM and our peer organizations worked 
hard to ensure FEMA's responsibility, authority, and capability to 
coordinate the Federal Government's response to disasters was restored 
and protected from future dismantlement. By including the savings 
clause in the Defense Authorization bill, this committee wisely 
reaffirmed Congressional commitment to safeguarding these provisions 
that have proven to be successful and have enabled FEMA to become the 
effective emergency management leader that we all depend upon when 
disaster strikes our States and communities.
    Local emergency managers are the front line in the battle to 
minimize the loss of life and the destruction of property when natural 
and man-made disasters occur. We are responsible, day in and day out, 
for the development of comprehensive, all-hazards emergency management 
programs in our communities. This involves the development of 
mitigation, preparedness, response, and recovery programs for every 
community across the country. However, even with all of the forethought 
we put into preparing for crisis, the severity and costs continue to 
escalate. We need and rely upon the support of the Federal Government 
when our local ability to handle a disaster is overwhelmed by its 
magnitude.
    At IAEM, we work hard to improve emergency management coordination 
at all levels of government, and we are proud of the improvements we 
have made, working in conjunction with our Federal partners at FEMA, to 
build and develop our emergency management capability and 
infrastructure. There is always room for improvement, but we feel 
Administrator Fugate--a professional emergency manager with 
unquestioned credentials--did a phenomenal job turning the agency 
around after Hurricane Katrina. The next administrator, as set forth in 
the Post-Katrina Emergency Management Reform Act, must also be a 
professional emergency manager with unquestioned crisis management 
credentials and should manage FEMA as a partner with State and local 
stakeholders, just as his/her predecessor did.
    From the lessons learned in the failed Hurricane Katrina response, 
the Post-Katrina Emergency Management Reform Act implemented 
legislative changes based on the following principles:
    1. Consolidate emergency management authority, coordination, and 
        decision making with emergency management professionals in 
        FEMA, giving the FEMA administrator the authority to advise the 
        President directly in times of disaster.
    2. Maintain an all-hazards focus on the complete disaster life 
        cycle--Preparedness, Response, Recovery, and Mitigation.
    3. Strengthen and protect FEMA's core response capabilities and 
        authorities.
    IAEM still strongly believes these principles are ironclad, and we 
feel all decisions about the future of FEMA should start and end with a 
commitment to maintaining the sanctity of all three of these 
principles.
    I also want to take a moment to briefly highlight a few of our key 
policy positions for you to consider as the Homeland Security Committee 
works to improve our Nation's emergency response system . . .
  <bullet> Congress should work with President Trump to reinstate the 
        administrator of FEMA as a designated member of the President's 
        Cabinet as provided for in Pub. L. 109-295.
  <bullet> The FEMA administrator must have the authority to coordinate 
        Federal Government disaster response on behalf of the 
        President, with the elevated role as principal advisor to the 
        President for emergency management. The authority is critical 
        for effective disaster management and coordination of the 
        entire Federal Government.
  <bullet> All functions of the emergency management cycle 
        (preparedness, response, recovery, and mitigation) must remain 
        intact within FEMA. Duplicate offices should not be created in 
        other parts of DHS or other Federal agencies.
  <bullet> Congress should protect the use of the Disaster Relief Fund 
        (DRF) for its intended purpose of providing disaster response 
        and recovery assistance to State and local governments by 
        opposing efforts to amend the Stafford Act to allow redirection 
        of funds to other departments and agencies for Federal 
        activities.
  <bullet> Congress should continue to build emergency management 
        capability and infrastructure at the State and local levels by 
        increasing funding for the Emergency Management Performance 
        Grant (EMPG) for fiscal year 2018. EMPG, the backbone of local 
        government emergency management, has been appropriated $350 
        million annually since fiscal year 2014 and should be increased 
        as soon as it is feasible to do so. In addition, EMPG is and 
        should continue to be a separate grant program that should not 
        be combined with any other grant allocation or application 
        process.
  <bullet> Congress should increase funding for the Emergency 
        Management Institute (EMI) to deliver high-quality emergency 
        management training through EMI's academies. The pending 
        appropriation for EMI for fiscal year 2017 is $20.5 million, 
        the same amount as fiscal year 2016.
    I thank you for the opportunity to submit this statement for the 
record about the future of FEMA. We at IAEM look forward to working 
with you throughout the 115th Congress to further build America's 
systems for emergency response.

    Mr. Donovan. I would also like to submit my formal 
statement for the record.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                           February 14, 2017
    This hearing is the first in a series the subcommittee will hold to 
consider the future of FEMA. We will use what we learn at these 
hearings, along with the findings from past subcommittee work, to make 
recommendations for the next FEMA administrator--a roadmap for success 
of sorts.
    I think Captain Kelenske may have said it best when he stated in 
his written testimony that we must ``recognize past progress [at FEMA], 
but embrace innovative approaches for future policy development.''
    That's why we're here today. We want to hear from you, the 
practitioners, about what we need to do to stay on the path of a strong 
FEMA. What are those innovative approaches? What is going well at FEMA 
and should be continued? What can be improved?
    At the heart of the issue is leadership. As I discussed with 
Secretary Kelly last week, it is vital that the administration move 
quickly to appoint a qualified FEMA administrator.
    We have already had 7 major disaster declarations this year. There 
is no doubt that FEMA has disaster-tested officials in place to get the 
job done, but it is important to install permanent leadership as soon 
as possible. The job requires an experienced emergency manager capable 
of navigating the National Preparedness System.
    For more than a decade, billions have been invested across the 
United States to enhance capabilities and achieve the National 
Preparedness Goal. It is to FEMA's credit that such investments are 
making the United States stronger and safer in the face of emergencies. 
We have an obligation to keep this momentum going.
    Hurricane Katrina's devastation in 2005 demonstrated the 
significance of FEMA's mission and the failures that can occur when 
FEMA is unable to execute it. The Post-Katrina Emergency Management 
Reform Act of 2006, coupled with effective leadership at FEMA, 
strengthened FEMA's capability to lead National emergency management 
efforts. These capabilities are tested each time the National Response 
Coordination Center at FEMA headquarters is activated.
    My district in New York City saw first-hand in 2012 the need for 
strong Federal, State, and local coordination when Superstorm Sandy 
caused wide-spread destruction. It should be noted that FEMA did make 
stark improvements from 2005 to 2012, but challenges still remain. This 
subcommittee looks forward to continuing its engagement with FEMA to 
support continued progress.
    According the Homeland Security Committee's Terror Threat Snapshot, 
the terrorist threat environment worsened in 2016. The number of home-
grown jihadist cases and lone-wolf attacks continues to surge with 
attacks ranging from Ohio State University to Orlando and San 
Bernardino.
    FEMA has awarded over $40 billion in preparedness grants to States 
and localities since 2001 to build, sustain, and enhance their 
capabilities to protect the public from acts of terrorism and other 
hazards. It is important that we ensure resources and training remain 
accessible to communities across the country. The critical importance 
of these programs and how to continue to improve them is not lost on 
this subcommittee.
    We truly are a resilient Nation. This is a testament to our first 
responders, emergency managers, and community partners at every level 
of government and their ability to continually adapt to ever-changing 
threats and vulnerabilities. Together, we can ensure our Nation's 
continued ability to prevent, prepare for, mitigate, respond to, and 
recover from the threats and hazards we face.

    Mr. Donovan. The Chair now recognizes the gentleman from 
New Jersey, Mr. Payne, for an opening statement that he may 
have.
    Mr. Payne. Thank you. Good morning. I would like to thank 
Chairman Donovan for holding today's hearing. I look forward to 
working with the Chairman to take the feedback we receive at 
today's hearing as well as the follow-up hearing later this 
month and use it to help FEMA better serve its State and local 
partners and disaster survivors.
    For the first time in 8 years, FEMA is in transition, and 
we are awaiting the nomination of a new administrator. I have 
no doubt that FEMA is in capable hands with the interim 
administrator, but I am concerned that the Trump administration 
has issued Executive Orders that affect the agency's activities 
before permanent leadership has been put in place.
    For example, Executive Order 13768 on public safety in the 
interior of the United States directs DHS to make ineligible 
for FEMA grants sanctuary jurisdictions except for law 
enforcement purposes. The Executive Order was clearly drafted 
without the advice of anyone who has to implement it.
    Certainly, a permanent FEMA administrator would have sought 
to clarify whether the President meant to block funding to 
jurisdictions in need of resources from the Emergency 
Management Performance Grant Program, the Assistance to Fire 
Fighters Grant Program, the Post-Disaster Public Assistance 
Grant Program, or the Post-Disaster Individual Assistance Grant 
Program, among others.
    In an era of evolving threats, increased weather events, 
and stretched budgets, we cannot send our State and local 
governments and our first-responder communities into a tailspin 
as they try to figure out whether or not the Federal Government 
will continue to help them build and maintain preparedness 
capabilities.
    I would be interested in understanding whether the Trump 
administration conducted any outreach to the first-responder 
community before or after issuing Executive Order 13768 and how 
the uncertainty caused by President Trump's Executive Order is 
affecting planning activities.
    To keep America safe, prepared, and resilient, the 
emergency response community must have a voice in informing the 
administration's policies and priorities. I urge the Trump 
administration to be inclusive in this regard and to continue 
Administrator Fugate's whole-community emphasis on disaster 
preparedness.
    I invited Save the Children to testify today because too 
often the special needs of children are overlooked in disaster 
planning activities. Administrator Fugate designated an 
individual at FEMA to be the National Advisor on Children and 
Disasters to tackle that challenge, but that position has not 
formally been authorized.
    I am hopeful that the future FEMA administrator will 
maintain this position. This period of transition is an 
appropriate time to take inventory of the progress FEMA has 
made over the past 8 years and to become a more capable 
organization and to gather recommendations for the best path 
forward.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                           February 14, 2017
    I look forward to working with the Chairman to take the feedback we 
receive at today's hearing, as well as the follow-up hearing later this 
month, and use it to help FEMA better serve its State and local 
partners and disaster survivors. For the first time in 8 years, FEMA is 
in transition and we are awaiting the nomination of a new 
administrator.
    I have no doubt that FEMA is in capable hands with the interim 
administrator, but I am concerned that the Trump administration has 
issued Executive Orders that affect the agency's activities before 
permanent leadership has been put in place.
    For example, Executive Order 13768 on Public Safety in the Interior 
of the United States, directs DHS to make ineligible for FEMA grants 
``sanctuary jurisdictions,'' except for ``law enforcement'' purposes. 
The Executive Order was clearly drafted without the advice of anyone 
who would have to implement it.
    Certainly, a permanent FEMA administrator would have sought to 
clarify whether the President meant to block funding to jurisdictions 
in need of resources from the Emergency Management Performance Grant 
program, the Assistance to Firefighters Grant Program, the post-
disaster Public Assistance Grant program, or the post-disaster 
Individual Assistance Grant program, among others.
    In an era of evolving threats, increased weather events, and 
stretched budgets, we cannot send our State and local governments and 
first-responder communities into a tailspin as they try to figure out 
whether or not the Federal Government will continue to help them build 
and maintain preparedness capabilities.
    I will be interested in understanding whether the Trump 
administration conducted any outreach to the first-responder community 
before or after issuing Executive Order 13768, and how the uncertainty 
caused by President Trump's Executive Order is affecting planning 
activities.
    To keep America safe, prepared, and resilient, the emergency-
response community must have a voice in informing the administration's 
policies and priorities. I urge the Trump administration to be 
inclusive in this regard, and to continue Administrator Fugate's 
``whole community'' emphasis on disaster preparedness.
    I invited Save the Children to testify today because too often the 
special needs of children are overlooked in disaster planning 
activities. Administrator Fugate designated an individual at FEMA to be 
National Advisor on Children and Disasters to tackle that challenge, 
but that position has not been formally authorized. I am hopeful that 
the future FEMA administrator will maintain that position.
    This period of transition is an appropriate time to take inventory 
of the progress FEMA has made over the past 8 years to become a more 
capable organization and to gather recommendations for the best path 
forward.

    Mr. Donovan. The gentleman yields.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Good morning. I would like to thank Chairman Donovan and Ranking 
Member Payne for holding today's hearing.
    I thank the witnesses for appearing today.
    During the Obama administration, FEMA benefited from the steady 
leadership of former Administrator Craig Fugate.
    Although there is still work to be done to make FEMA the disaster 
response agency that our country needs and our constituents deserve, I 
can tell you with confidence that FEMA is a better place than it was 11 
years ago when Hurricane Katrina pummeled the Gulf Coast.
    While I credit Administrator Fugate with much of the progress FEMA 
has made in becoming a more reliable disaster response partner to State 
and local governments, I believe that rigorous oversight from this 
committee--informed by the emergency response community--helped hold 
FEMA accountable.
    I can say with certainty that we will continue to hold FEMA's feet 
to the fire to ensure that the Trump administration builds upon the 
Obama administration's progress.
    Although President Trump has not yet nominated a FEMA 
administrator, the qualifications and criteria for the position 
established by the Post-Katrina Emergency Management Reform Act should 
provide the administration the guidance necessary to select an 
individual equal to the task.
    Nevertheless, the new administration has taken some actions whose 
implications on first responders are not fully understood.
    For example, Executive Order 13768 on Enhancing Public Safety in 
the Interior of the United States directs the Department of Homeland 
Security to ensure that ``sanctuary jurisdictions'' are ineligible for 
Federal grants, except for ``law enforcement'' purposes.
    Setting aside the fact that this Executive Order could make some of 
our largest cities that are at greatest risk of terrorist attacks 
ineligible for grant funds, the sloppy drafting of the Executive Order 
also suggests emergency response activities, such as fire suppression, 
may be ineligible.
    I was a Member of Congress when terrorists struck the Twin Towers 
and the Pentagon, and my district is in a State that was devastated by 
Hurricane Katrina, so I can tell you with a great degree of confidence 
that emergency response is too serious of an issue to be handled 
haphazardly.
    Additionally, the administration has made conflicting statements 
about its plans for the countering violent extremism program, with some 
suggesting that the word ``Islamic'' will be integrated into the title.
    The rumored title change has reverberated throughout the country 
with at least four groups that were awarded funds during the Obama 
administration under the Countering Violent Extremism Program saying 
they will not accept the grant awards because of the rumored title 
change.
    To date, the Trump administration has not provided clear answers 
about how the implementation of the President's Executive Orders will 
impact public safety grantees or its plans for how to refer to efforts 
to counter violent extremism.
    What is clear is that the Trump administration acted cavalierly and 
failed to do outreach to anyone who would be impacted by its actions.
    Moving forward, I would hope the Trump administration treats 
emergency preparedness and response with the seriousness it deserves.
    With that said, I look forward to hearing the witness' thoughts on 
the confusion caused by the Executive Orders.

    Mr. Payne. Mr. Chair? I ask unanimous consent that Sheila 
Jackson Lee be permitted to participate in today's hearing.
    Mr. Donovan. Yes, without objection.
    Welcome.
    We are pleased to have a very distinguished panel before us 
today on this important topic. Captain Chris Kelenske serves as 
the deputy state director of emergency management and homeland 
security and deputy homeland security adviser for the State of 
Michigan. As such, he is responsible for the State-wide 
management and administration of emergency management and 
homeland security programs as well as the supervision of the 
division's employees. The captain chairs the Michigan Homeland 
Security Advisory Council, the Homeland Security Preparedness 
Committee, and the Michigan Citizen Community Emergency 
Response Coordinating Council. He is testifying today on behalf 
of the National Governors Association and the Governors 
Homeland Security Advisers Council.
    Welcome, Captain. Thank you for your service.
    Chief John Sinclair serves as the fire chief of Kittitas 
Valley--and I know I said that wrong, Chief, and they 
phonetically spelled it for me--Valley Fire Rescue and 
emergency manager for the city of Ellensburg, Washington. Chief 
Sinclair represents the fire service on the National EMS 
Advisory Council. Chief Sinclair is the president and chairman 
of the board of the International Association of Fire Chiefs 
and he is testifying in that capacity today.
    Thank you for your service, and thank you for coming today, 
Chief.
    Mr. Richard Bland, who is a New Yorker, welcome, serves as 
the national director of policy, advocacy, and development at 
Save the Children. Prior to joining Save the Children, Mr. 
Bland served in positions at the YMCA and with Senator Daniel 
Patrick Moynihan.
    Welcome.
    The witnesses' full, recorded statements will appear in the 
record. The Chair now recognizes Captain Kelenske for a 5-
minute opening statement.

 STATEMENT OF CAPTAIN CHRIS A. KELENSKE, DEPUTY STATE DIRECTOR/
COMMANDER, EMERGENCY MANAGEMENT AND HOMELAND SECURITY, MICHIGAN 
 STATE POLICE, TESTIFYING ON BEHALF OF THE NATIONAL GOVERNORS 
                          ASSOCIATION

    Captain Kelenske. Good morning, Chairman Donovan, Ranking 
Member Payne, and distinguished Members of the subcommittee. It 
is my honor to appear before you today.
    My name is Captain Chris Kelenske, and I serve as the 
deputy state director of emergency management and homeland 
security and deputy homeland security adviser to Michigan 
Governor Rick Snyder.
    I appear before you today on behalf of the Nation's 
Governors and their homeland security advisers. My testimony 
today will offer recommendations for how the next administrator 
of FEMA can succeed in his or her role. Specifically, I am 
going to focus on the State/Federal partnership in disaster 
preparedness and response, the need for dedicated Federal 
investments in homeland security and emergency management, and 
issues on the horizon facing the next administrator.
    I would like to summarize my remarks and ask that my full, 
written testimony be submitted for the record.
    Emergency management is a shared responsibility between 
States, localities, and the Federal Government. Governors are 
charged with the safety and security of the residents within 
their borders, and the FEMA administrator plays a critical role 
in shaping the direction of National emergency management 
efforts.
    The new FEMA administrator should establish a strong 
relationship with Governors to honor this shared responsibility 
and recognize the role of the State. This relationship may be 
further developed through organizations, such as the National 
Governors Association, NGA, and the Governors Homeland Security 
Advisors Council.
    Another way the new FEMA administrator may demonstrate 
commitment to the State/Federal partnership is ensuring that 
Federal grant programs for States remain fully funded. The 
Homeland Security Grant Program, HSGP, and the Emergency 
Management Performance Grant, EMPG, assists States and 
localities in developing capabilities that have a shared 
Federal benefit.
    These capabilities have supported disaster response efforts 
and thwarted potential terrorist attacks. Any reduction in 
Federal funding for these programs could jeopardize the 
effectiveness of our Nation's disaster preparedness and 
response.
    Grant reform is necessary to sustaining progress and 
building capacity to address new threats. Governors continue to 
support comprehensive grant reform and have developed 
principles to help guide the new administrator and Congress in 
developing those efforts. Governors believe that any reform 
should create a program that is sustainable, flexible, and 
risk-based.
    As FEMA seeks to reduce costs for disasters, the next 
administrator will determine how to proceed with the disaster 
deductible concept. Governors share the Federal Government's 
role of reducing costs of disasters. However, it is imperative 
that the new deductible concept does not result in a cost shift 
to the States. Governors are already investing in activities to 
reduce the overall risk and costs of disasters. FEMA should 
look to the States for innovative solutions.
    Another challenge awaiting the next FEMA administrator is 
the emerging threat of cybersecurity. The next administrator 
should work with the Secretary of Homeland Security to clarify 
FEMA's role in cyber incident response. Significant time and 
effort have been made by State, local, and Federal officials to 
establish solid frameworks that can serve as a guide in the 
event of a cyber incident. The next FEMA administrator should 
utilize these existing frameworks to ensure National emergency 
management policies remain consistent.
    Separately, Governors have dedicated significant time and 
resources to combat this growing threat. For example, in 2011 
Michigan Governor Rick Snyder introduced the Michigan Cyber 
Initiative to encourage a State-wide effort among public and 
private partners to defend Michigan's critical networks. Under 
that initiative, Michigan created the Cyber Response Strategy 
in 2013 and later implemented the Michigan Cyber Disruption 
Plan in 2015.
    Nation-wide, Governors are working to address this critical 
issue. Under the leadership of Michigan Governor Rick Snyder 
and former Maryland Governor Martin O'Malley, NGA created the 
Resource Center for State Cybersecurity which has helped bring 
this issue to the forefront across the Nation.
    Governor Snyder's continued focus on cybersecurity from a 
State, National, and international perspective, along with the 
NGA chair and Resource Center co-chair, Virginia Governor Terry 
McAuliffe's initiative, ``Meet the Threat: States Confront the 
Cybersecurity Challenge,'' States have received increased 
guidance on how to tackle cybersecurity challenges in numerous 
areas to include emergency management.
    As our Nation continues to face severe weather events and 
other emerging threats, FEMA will need sound leadership at both 
the National and regional level to oversee National emergency 
management activities. Governors are vested in the success of 
the FEMA administrator and look forward to working with 
whomever assumes that role.
    On behalf of the National Governors Association and the 
Governors Homeland Security Advisers Council, thank you for the 
opportunity to testify today. I welcome any questions the 
subcommittee Members may have.
    [The prepared statement of Captain Kelenske follows:]
                Prepared Statement of Chris A. Kelenske
                           February 14, 2017
    Thank you, Chairman Donovan, Ranking Member Payne, and 
distinguished Members of the subcommittee for allowing me to appear in 
front of you today to discuss the future of the Federal Emergency 
Management Agency (FEMA). My name is Captain Chris Kelenske and I serve 
as the deputy State director of emergency management and homeland 
security and deputy homeland security advisor for Michigan Governor 
Rick Snyder. I am here today on behalf of the National Governors 
Association (NGA) and the Governors Homeland Security Advisors Council 
(GHSAC).
    The NGA is the bipartisan organization of the Nation's Governors. 
Through the NGA, Governors share best practices, speak with a 
collective voice on National policy, and develop innovative solutions 
that improve State government and support the principles of 
Federalism.\1\ The GHSAC serves as a forum for Governors' principal 
homeland security advisors from each State, commonwealth, and 
territory. The GHSAC's mission is to provide a unified voice on 
National homeland security policy, keep Governors abreast of the 
current threat environment and Federal homeland security legislation, 
and share best practices. My testimony today will focus on three goals 
the next administrator of FEMA should strive to achieve. These goals 
are maintaining strong State-Federal partnerships, supporting State and 
local grant programs fully, and embracing innovative solutions to both 
emerging and chronic emergency management challenges.
---------------------------------------------------------------------------
    \1\ ``About,'' National Governors Association, accessed February 7, 
2017, https://www.nga.org/cms/about.
---------------------------------------------------------------------------
    Emergency management has made significant improvements in the last 
decade. Since Hurricane Katrina, the all-hazards, whole-community 
approach to disasters resolved many of the devastating consequences 
realized during the Hurricane Katrina response effort. Both States and 
the Federal Government have committed vast resources to institute sound 
preparedness, response, and recovery activities to minimize the impact 
of disasters. Governors are committed to seeing these efforts continue 
for years to come and believe the next FEMA administrator is 
instrumental in achieving that goal.
    Governors have a vested interest in having a strong FEMA 
administrator who respects the role and authority of States in 
disasters and recognizes past achievements. Equally important, 
Governors want a FEMA administrator who encourages a collaborative 
approach to emergency management and not one that imposes strict, 
burdensome mandates on States.
    The next administrator will set the direction of emergency 
management for the next decade. Whomever inherits the role must sustain 
momentum built to improve emergency management activities across all 
levels of government. For the next administrator to be successful, he/
she should:
  <bullet> Embrace States as key partners in emergency management;
  <bullet> Align investments to better match current threats, hazards, 
        and capability gaps; and
  <bullet> Recognize past progress, but embrace innovative approaches 
        for future policy development.
                     embrace states as key partners
    States are the linchpin for emergency management activities. The 
Robert T. Stafford Disaster Relief and Emergency Assistance Act places 
the responsibility of requesting Federal assistance on the Governor, a 
responsibility that underscores the essential role of the State. 
Governors and their key advisors also serve as a connective node to 
local government, Federal Government, nongovernmental, and private-
sector officials. FEMA can use this knowledge base and rely on the 
State as a resource when working with communities.
    Yet, FEMA has not reached out to States consistently in the past. 
Instead FEMA has reached out to specific communities without consulting 
the Governor or State emergency manager. Direct outreach to local 
officials with limited or no State involvement can cause FEMA to miss 
larger contextual issues. Local governments have the specific and 
nuanced context for their individual communities, but Governors have an 
enterprise-wide, holistic view of the State emergency management 
operation. FEMA should consult with Governors to understand the broader 
impact of Federal investments and the investments smaller communities 
make on the overall State preparedness picture. Not engaging State 
officials alongside local representatives can undermine emergency 
response efforts and shift resources away from where they are needed 
most. The next administrator needs to recognize that the State plays a 
critically important intermediary role between the Federal and local 
governments. FEMA must ensure that State officials are present in 
disaster response and recovery activities so that they have maximum 
effect for the State. Similarly, the next administrator should 
understand the consequence of not working through the State is less 
effective emergency management.
    The partnership between FEMA and the States has improved 
dramatically in the last decade. Not only with leadership at FEMA 
headquarters but also with the regional offices. Governors want to see 
this partnership continue to thrive under the new administrator. The 
next FEMA administrator can accomplish this goal by continuing to 
engage with Governors often and early. State stakeholder groups such as 
the NGA and the GHSAC provide a platform for the administrator to use. 
These forums allow the administrator to learn about State concerns and 
provide consistent and timely responses. Additionally, this engagement 
enables States to provide direct feedback on FEMA policy and planning 
documents early in the process.
    In the past, FEMA has not meaningfully engaged with States in 
policy making and any engagement has occurred late in the process. 
Recently, FEMA has actively solicited State feedback. Governors want to 
see this outreach continue as it offers them the ability to provide 
detailed and thoughtful analysis that FEMA may incorporate into their 
policies. Ensuring that Governors' voices are reflected in FEMA's 
policymaking process will demonstrate that the new administrator values 
the State-Federal partnership and will actively work to support it.
 align investments better to current threats, hazards, and capability 
                                  gaps
    States, locals, and the Federal Government have spent billions of 
dollars through the FEMA grant programs to ensure all levels of 
government are prepared for any event. Those grants have helped States 
and localities build capabilities such as emergency communication 
networks and information-sharing networks like the National network of 
fusion centers. State and local capabilities have a Nation-wide 
benefit. They help build capacity and resources that the Federal 
Government does not have to build itself but can rely on in the event 
of a crisis. Because State and local capabilities are in place the 
Federal Government may focus efforts on more critical gaps and 
vulnerabilities.
    Over the past several years, cuts to Federal grant programs for 
States have made it difficult to sustain progress and build new 
capabilities. Moreover, these cuts have come at a time of new, emerging 
threats, such as home-grown violent extremism and cyber network 
breaches. While Federal expectations of States have increased to 
accommodate these new threats, there has been no increase in Federal 
financial support, reflecting a lack of meaningful Federal assistance. 
This dichotomy highlights foundational issues and inefficiencies within 
the current grant structure. The homeland security grant program (HSGP) 
is a prime example of this issue.
    Created in the wake of the September 11 attacks to prevent a 
similar attack from occurring, the HSGP has remained unchanged since 
its inception. At its peak, the program consisted of almost 20 
different grant programs intended to address a very narrow, specific 
threat. While some consolidation of programs has occurred over time, 
the HSGP remains an amalgamation of many different priorities. That 
structure along with decreased funds and increased responsibilities 
have stressed the program's limits and highlighted inefficiencies that 
include burdensome administrative requirements and redundancies. In its 
current form, States struggle to utilize the HSGP to sustain existing 
capabilities and build new ones simultaneously. More importantly, the 
funding restrictions on how and what grant recipients may use the funds 
toward creates significant difficulty for States to adjust activities 
to match the current threat environment.
    Reform is necessary to ensure the long-term viability of the HSGP 
and maintain the Nation's homeland security. The HSGP requires a more 
flexible framework that is adaptable to a dynamic threat environment. 
This will allow States to act more nimbly and focus on capabilities 
that match current threats. The next administrator should work with 
States and Congress to identify ways to reform the HSGP. Governors 
support comprehensive grant reform and have developed principles to 
help guide those efforts. As outlined in NGA's recommendations for the 
new administration, any ``reform should focus on creating a sustainable 
funding program that eliminates inefficiencies, provides greater 
flexibility, streamlines administrative requirements and prioritizes 
outcomes that reduce risk and improve overall preparedness, response, 
and recovery.''\2\ Federal grants for homeland security and emergency 
management activities are an efficient way to build capabilities 
Nation-wide and reduce overall expenditures, which provides a return on 
investment to the Federal Government. States and locals respond to 
numerous disasters without Federal support. In 2016, States responded 
to more than 30,000 disasters without requesting a Stafford Act 
declaration.\3\ These capabilities are possible because the Federal 
grant programs help States establish core functions to handle the less 
extreme events so the Federal Government can focus on responding to the 
catastrophic events.
---------------------------------------------------------------------------
    \2\ ``We the States: Governors' Recommendations for President 
Trump,'' National Governors Association, accessed February 7, 2017, 
https://resources.nga.org/cms/wetheStates/hsps.html.
    \3\ ``Recommendations for Strengthening National Emergency 
Management Programs,'' National Emergency Management Association, 
accessed February 7, 2017, https://www.nasemso.org/Projects/
DomesticPreparedness/documents/NEMA-Recommendations-for-Strengthening-
National-EM-Programs.pdf.
---------------------------------------------------------------------------
    Reductions in Federal grant funding will further erode State and 
local capabilities. Moreover, reductions in Federal funding jeopardize 
State investments in emergency management activities. For example, the 
Emergency Management Preparedness Grant Program requires States to 
match Federal investments dollar for dollar. Similarly, the Emergency 
Management Assistance Compact (EMAC)--the interstate agreement for 
mutual aid--allows States to share resources among each other. EMAC 
supports the notion of regional assets and capabilities, which allows 
States to lean on each other rather than on the Federal Government. 
Both these examples demonstrate State-owned resources such as 
personnel, funding, and equipment to support emergency management 
functions. Although FEMA supports these programs through yearly 
appropriations, States bear the brunt of the responsibility for 
implementation.
    On-going, dedicated Federal support is crucial to ensure States and 
localities have sufficient capacity to handle more routine disasters. 
Governors and the Federal Government share the responsibility of 
ensuring the safety and security of the citizens of the country. States 
have continued to respond efficiently to disasters even with decreased 
Federal support. However, States cannot maintain the status quo 
indefinitely. The next FEMA administrator must ensure that States and 
localities receive dedicated, on-going funding commensurate with the 
level of Federal expectations and requirements. Without it, the 
Nation's overall preparedness will suffer and progress made squandered.
 recognize past progress, but embrace innovative approaches for future 
                           policy development
    FEMA's recent history serves as an important guide for the next 
administrator. Following Hurricane Katrina, States, localities, and the 
Federal Government implemented reforms to emergency management 
activities to emphasize all-hazards planning among all levels of 
government, nongovernmental organizations, and the private sector. FEMA 
spent time, effort, and manpower to develop a new, comprehensive 
emergency management foundation. These reforms have led to the creation 
of standards for incident response that previously did not exist or 
were executed inconsistently. For example, the National Incident 
Management System (NIMS) provides the whole community with an approach 
to manage the after-effects of disasters in a collaborative and 
consistent way. Previously, no true standard existed. NIMS provides 
that standard and helps identify what progress has been made and what 
challenges remain.
    The development of the National Preparedness Goal and the National 
Preparedness System (NPS) has helped to deepen those efforts. Having a 
vision for preparedness and defined Nation-wide capabilities necessary 
to meet that goal helps to establish expectations. Improvements to the 
NPS may be necessary, however States have spent considerable time and 
effort to contribute and align policies to the NPS. States want to 
continue those efforts, improve upon them, and ensure the NPS thrives 
in the long-term. The next administrator should view items like the 
NIMS and the NPS as foundational to FEMA and ensure the Secretary of 
Homeland Security fully understands FEMA's capabilities and position 
within the U.S. Department of Homeland Security. A Federal commitment 
to honor these programs will demonstrate to Governors that the 
administrator recognizes past progress and wants to make further 
advancements.
    The existing emergency management system has made impressive 
progress. However, more opportunities for improvement exist. For 
example, the Threat Hazard Identification Risk Assessment (THIRA) and 
State Preparedness Report (SPR) created under the NPS are still 
evolving and require additional fine tuning. States need further 
clarity on how THIRA and SPR inform FEMA's threat picture and what 
effect, if any, that has on the allocation of financial resources and 
other types of support to States.
    Previous gains are at risk of regression or neglect. The next 
administrator will have a profound role in steering the future course 
of emergency management, which will require innovative approaches. 
However, that must be balanced with the need for change to improve 
outcomes versus the desire for change solely for the sake of change. 
Several areas that will require innovative solutions from FEMA include:
  <bullet> Public Assistance Changes.--Proposed changes to the public 
        assistance program, specifically, the disaster deductible, 
        represent a cultural shift in emergency management. Governors 
        appreciate the goal of trying to reduce risk and overall costs. 
        Governors, like the Federal Government, want to be good 
        stewards of Federal investments. However, this concept will 
        require time for States to fully understand the intended and 
        potentially unintended adverse consequences. In the initial 
        rollout, Governors appreciated FEMA's outreach for feedback. 
        Governors also encouraged FEMA ``to maintain the current 
        threshold requirements without imposing additional financial 
        burdens on State and local governments through a 
        deductible.''\4\ Many questions remain about the proposal and 
        it is unclear whether the deductible can achieve its primary 
        goal to improve disaster outcomes. Therefore, the next 
        administrator should take careful consideration in moving 
        forward and consider how the concept will affect States in the 
        short and long term. NGA will review the revised notice and 
        provide additional feedback on behalf of the Nation's 
        Governors.
---------------------------------------------------------------------------
    \4\ Nixon, Jay and Hutchinson, Asa, FEMA Disaster Deductible 
Concept, National Governors Association, https://www.nga.org/cms/home/
Federal-relations/nga-letters/homeland-security_public-safety/col2-
content/main-content-list/fema-disaster-deductible-concept.html (March 
21, 2016).
---------------------------------------------------------------------------
  <bullet> Cybersecurity.--The Nation's cyber networks are vulnerable 
        to attack from both State and non-State actors. States own a 
        great deal of personal identifiable information and have 
        witnessed the theft of those records in Utah and South 
        Carolina. Additionally, the increasing reliance on the internet 
        for everyday functions has created additional vulnerabilities 
        to essential industries, such as finance, health care, and 
        energy. Under the leadership of Michigan Governor Rick Snyder 
        and former Maryland Governor Martin O'Malley, NGA created the 
        Resource Center for State Cybersecurity, which has helped bring 
        this issue to the forefront across the Nation. Governor 
        Snyder's continued focus on cybersecurity from a State, 
        National, and international perspective, along with NGA Chair 
        and Resource Center co-chair Virginia Governor Terry 
        McAuliffe's initiative Meet the Threat: States Confront the 
        Cybersecurity Challenge, States have received increased 
        guidance on how to tackle cybersecurity challenges in numerous 
        areas to include emergency management. The possibility of a 
        cyber breach with significant physical and non-physical 
        consequences to States is real. What remains unclear is what 
        Federal support, if any, States would receive from FEMA if the 
        damage exceeds State capabilities. In addition to reforming the 
        HSGP to help States build the necessary capabilities to prepare 
        for cyber incidents, FEMA should clarify the use and 
        application of the Stafford Act for both disasters with 
        physical consequences and those without.\5\
---------------------------------------------------------------------------
    \5\ ``We the States: Governors' Recommendations for President 
Trump.''
---------------------------------------------------------------------------
  <bullet> Disaster Relief Fund.--The disaster relief fund (DRF) allows 
        FEMA to ``direct, coordinate, manage, and fund eligible 
        response and recovery efforts associated with domestic major 
        disasters and emergencies that overwhelm State resources'' as 
        allowed under the Stafford Act.\6\ This fund ensures FEMA can 
        provide adequate relief to States and localities affected by 
        disasters. However, recent attempts to make the fund available 
        for other purposes outside of its original scope, such as 
        wildfire suppression activities on Federal lands, threaten its 
        core mission and availability for emergencies. Any expansive 
        use of the DRF outside the scope of the Stafford Act may have 
        an adverse impact on disaster response by slowing down 
        activities and preventing States from accessing critical 
        resources. Governors believe in the importance of the DRF and 
        want to ensure it serves its intended purpose. The FEMA 
        administrator should work to preserve the fund for State and 
        local emergency management response and recovery as well as 
        encourage other agencies to work with Congress to identify 
        alternative resources to meet their needs to the fullest extent 
        possible.
---------------------------------------------------------------------------
    \6\ ``Disaster Relief Fund: Monthly Report,'' Federal Emergency 
Management Agency, last updated January 25, 2017, https://www.fema.gov/
media-library/assets/documents/31789.
---------------------------------------------------------------------------
  <bullet> Disaster Resiliency.--Disasters have increased in severity 
        and frequency in recent years, resulting in an increase in 
        disaster costs. Congress has charged FEMA with identifying ways 
        to reduce those costs. Simultaneously, States--who share in 
        disaster expenditures--are working to bolster resiliency, a 
        mission made more challenging because of the Nation's aging 
        infrastructure. Congress should include resiliency as a factor 
        in any proposals to improve the Nation's infrastructure to 
        ensure our vital structures can withstand future disasters.
    FEMA should look to the States for innovative resiliency solutions. 
For example, the Colorado Governor's Office of Recovery and Resiliency 
has developed a resiliency framework that analyzes changing risks and 
vulnerabilities and guides long-term resiliency investments. New Jersey 
established an energy resilience bank (ERB) that supports the 
development of distributed energy resources at critical facilities so 
that they remain operational in future outages. The financing provided 
in the ERB will help to incentivize the implementation of resiliency 
solutions and minimize the impact of future major power outages caused 
by severe weather or man-made events.\7\
---------------------------------------------------------------------------
    \7\ Reinert, Greg and Pellerin, Virginia, ``NJ Energy Resilience 
Bank Now Accepting Applications,'' New Jersey Board of Public 
Utilities, October 20, 2014, http://www.State.nj.us/bpu/newsroom/
announcements/pdf/20141020_erb_press.pdf.
---------------------------------------------------------------------------
    Emergency management is constantly evolving and must quickly adapt 
to new threats and hazards. The next administrator will be responsible 
for shaping our Nation's emergency management priorities. The Nation's 
Governors are committed supporting that effort and stand ready to 
assist.
    I look forward to working with the next administrator and welcome 
additional dialog with subcommittee Members concerning the importance 
of maintaining a robust National emergency management system. Thank you 
again for the opportunity to appear in front of you today. I welcome 
any questions you may have.

    Mr. Donovan. Thank you for your testimony, Captain.
    The Chair now recognizes Chief Sinclair for 5 minutes.

 STATEMENT OF CHIEF JOHN SINCLAIR, FIRE CHIEF, KITTITAS VALLEY 
    FIRE AND RESCUE (WA), PRESIDENT AND CHAIR OF THE BOARD, 
INTERNATIONAL ASSOCIATION OF FIRE CHIEFS (IAFC), TESTIFYING ON 
     BEHALF OF THE INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Chief Sinclair. Good morning, Chairman Donovan, Ranking 
Member Payne, and Members of the subcommittee. I am John 
Sinclair, fire chief of Kittitas Valley Fire and Rescue 
Department in Ellensburg, Washington. I am also the president 
and chairman of the board of the International Association of 
Fire Chiefs. I thank you for the opportunity to testify today 
about the future of FEMA. The Nation's fire and EMS departments 
are FEMA's partners during National emergencies. We provide the 
resources to help communities respond and recover. We also rely 
upon FEMA's training and grant programs to respond to all 
hazards.
    The IAFC believes that the President should appoint an 
experienced fire service leader or emergency manager as 
administrator. As experienced leaders, both Dave Paulison and 
Craig Fugate transformed FEMA into a more proactive 
organization. We urge the President to appoint an experienced 
FEMA leadership team soon. Included on this team would be a 
U.S. fire administrator who can follow in Chief Ernie 
Mitchell's exemplary recent service.
    Across the Nation, local fire and EMS departments respond 
to a multitude of threats. As a local fire chief, I must 
prepare for fires, medical emergencies, earthquakes, wildland 
fires, landslides, flooding, and the potential for a mass 
casualty event. With limited budgets, fire and EMS departments 
must prioritize training, equipment purchases, staffing, and 
exercises to meet these missions.
    The fire and emergency service needs FEMA's help in 
identifying risks, prioritizing threats, and preparing to meet 
them. FEMA must work with DHS, the FBI, and the intelligence 
community to get vital threat information to local fire chiefs. 
This information should be actionable, written with the local 
fire chief in mind as an audience, and unclassified.
    Programs like NCTC's Joint Counterterrorism Assessment Team 
and the DHS Office of Intelligence and Analysis provide 
essential information to local first responders. Also, FEMA's 
grants fund intelligence fusion centers which must provide 
critical information to local fire departments. In addition, 
the U.S. Fire Administration can provide specific training to 
help fire and EMS departments integrate intelligence into their 
preparedness programs.
    FEMA should continue to maintain the National Preparedness 
Goal and the National Preparedness System. The IAFC is pleased 
to see that fire management and suppression was added as a core 
capability in a recent National Preparedness Goal revision.
    In support of the NPG, FEMA must ensure a strong National 
mutual aid system in the face of tight National budgets. A 
robust mutual aid system is a cost-effective way to protect our 
citizens' lives and property. However, local fire departments 
bear the cost of these inter-State deployments until they are 
reimbursed. FEMA must ensure that fire departments are 
reimbursed in a timely manner.
    FEMA can take other steps to maintain the National 
Preparedness System. It should work with FirstNet and the DHS 
Office of Emergency Communications to improve our public safety 
communications capability. In addition, FEMA should support 
efforts to build State-wide mutual aid systems that can 
effectively complement the EMAC during National emergencies.
    FEMA's grant programs are critical foundations of the 
National Preparedness System. Federal grants like the UASI and 
SHSGP program bring Federal, State, and local emergency 
response organizations together to train and plan for potential 
acts of terrorism.
    FEMA grants also support a regional response framework that 
can mobilize resources quickly and effectively during a 
terrorist attack. We request that Congress reject cuts to these 
programs for fiscal year 2017.
    The IAFC is concerned about the effects of the President's 
recent Executive Order regarding sanctuary jurisdictions. The 
IAFC board has not adopted a position on this issue of 
sanctuary cities; however, we are concerned that major 
metropolitan fire and EMS departments might lose eligibility 
for FEMA grants if they are in designated sanctuary 
jurisdictions.
    We recommend that the President and Congress extend the 
current law enforcement exception to include all public safety 
organizations. The fire and SAFER grants programs also support 
National preparedness systems. These matching grant programs 
directly help fire departments develop their baseline emergency 
response capabilities. For example, I have used AFG grants to 
replace old bunker gear and SCBAs. The fire and SAFER grant 
programs face a statutory sunset next year. We urge Congress to 
reauthorize these programs for an additional 5 years.
    We would also ask Congress to reauthorize the U.S. Fire 
Administration. This agency provides important leadership and 
training for local fire departments. We request $44 million for 
USFA in fiscal year 2017.
    Finally, I would like to emphasize the IFCA's support for 
an enhanced mitigation for FEMA. We ask Congress to pass 
legislation that will bolster our Nation's pre-disaster and 
post-disaster mitigation efforts. We want to work with this 
committee, the administration to help make America safe. Thank 
you very much.
    [The prepared statement of Chief Sinclair follows:]
                  Prepared Statement of John Sinclair
                           February 14, 2017
    Good morning, Chairman Donovan, Ranking Member Payne, and Members 
of the subcommittee. I am Chief John Sinclair, fire chief of the 
Kittitas Valley Fire and Rescue department in Ellensburg, Washington 
and president and chairman of the Board of the International 
Association of Fire Chiefs (IAFC). The IAFC represents approximately 
12,000 leaders of the Nation's fire, rescue, and emergency services. 
Thank you for the opportunity to testify about the future of the 
Federal Emergency Management Agency (FEMA).
    From a stakeholder's perspective, FEMA faces a number of major 
challenges. Overall, the costs and severity of disasters continues to 
increase. Meanwhile, the variety of hazards that the Nation faces 
continues to escalate. In my State, I have to prepare for earthquakes, 
wildland fires, landslides, and flooding, and the risk of a mass 
casualty event. FEMA has to address all of these issues--and more--in a 
tight budgetary environment.
    The Nation's fire and emergency services are important partners of 
FEMA and consumers of critically important FEMA programs. The local 
fire department is an all-hazards response force that must provide fire 
suppression; Emergency medical response; hazardous materials response; 
multi-casualty/civil unrest/terrorism response; urban search and 
rescue; train derailment response; and technical, high-angle, swift 
water, building collapse, confined space and deep trench rescue. Most 
fire departments are tied closely to their communities. In some cases, 
the local fire department serves as the closest thing to government 
that provides service to them, their families, and their friends.
    When States request mutual aid assistance, local fire departments 
provide the fire apparatus, firefighters, paramedics (and an array of 
other specialized resources) that arrive on scene. In addition, when an 
incident occurs, the local fire department usually is the first agency 
on scene and the last to leave during the recovery period.
    From our perspective, FEMA must address a number of challenges in 
the future. They can be addressed along the framework of improving 
information sharing; strengthening the National Preparedness System; 
supporting Federal efforts to improve public safety communications; and 
supporting mitigation efforts.
    First of all, the IAFC would like to see experienced leaders with 
fire and emergency service leadership and emergency management 
experience appointed to leadership positions at FEMA and the U.S. Fire 
Administration. Both of the last two FEMA administrators, R. David 
Paulison and W. Craig Fugate, were able to transform the agency based 
on their experiences at the local and State levels. The Post-Katrina 
Emergency Management Reform Act (Pub. L. 109-295) set specific 
requirements for the FEMA administrator, including a ``demonstrated 
ability in and knowledge of emergency management and homeland 
security'' and at least 5 years of management experience. The IAFC 
recommends that the FEMA administrator, the deputy administrator, any 
assistant administrators, and the U.S. fire administrator all meet 
these criteria. The FEMA leadership also should understand the roles of 
State and local partners during National emergencies. It is important 
to have experienced leaders who are ready to respond to the various 
National challenges on Day 1.
                          information sharing
    Local fire chiefs need help in deciding how to focus resources to 
prepare for the most serious risks to their community. Effective 
information sharing between Federal, State, Tribal/territorial and 
local partners is a key component to this challenge. FEMA grants, such 
as the Urban Areas Security Initiative (UASI) and the State Homeland 
Security Grant program (SHSGP), support funding for intelligence fusion 
centers and planning and exercise efforts. These efforts play an 
important role in addressing this dilemma, but much work remains to be 
done.
    Fire chiefs still struggle to get actionable intelligence from 
their fusion centers. While there is a greater quantity of information 
flowing among the different intelligence partners, it can be focused 
more on quantity than quality. Information may be more law enforcement-
focused or include extraneous Classified information. Fire chiefs need 
to receive information that is written from a fire and emergency 
medical services (EMS) perspective and that only includes the tactics, 
techniques, and procedures that they may face, so that the fire and 
emergency service community can develop and implement the 
countermeasures necessary to save lives. In addition, it would help to 
have an estimated prioritization of the risk that the local 
jurisdiction might face.
    There are solutions to this dilemma. The U.S. Department of 
Homeland Security's Office of Intelligence and Analysis (I&A) is more 
focused today on working with local partners representing all of the 
law enforcement and emergency response disciplines. The National 
Counterterrorism Center's Joint Counterterrorism Assessment Team brings 
local first responders to the Washington area as fellows to help 
produce intelligence products targeted to local first responders as an 
audience.
    FEMA and the U.S. Fire Administration (USFA) can work with I&A to 
ensure that intelligence products meet the needs of local fire and EMS 
responders. In addition, USFA can provide classes at the National Fire 
Academy (NFA) to educate local fire and EMS personnel about the 
intelligence community, how to handle Classified and Sensitive 
information, and how to incorporate this information into planning, 
training, and exercises. FEMA also should ensure that grantees are 
meeting the funding requirements for fusion centers by ensuring that 
fire and EMS personnel are represented at State and local fusion 
centers.
    Fire and EMS departments have important responsibilities as 
information-sharing partners. They must take part in the ``See 
Something, Say Something'' campaign and the Nation-wide Suspicious 
Activity Reporting Initiative. They also must make sure that their 
personnel are trained to report suspicious activity appropriately. Most 
importantly, fire and EMS departments must start incorporating the 
intelligence and information-sharing disciplines into their promotion 
and career-track systems. Fire chiefs must ensure that their 
departments are engaged and actively participating with their fusion 
centers. Finally, fire and EMS departments should be using intelligence 
and threat and risk information continuously to guide their planning, 
training, and exercises.
                    the national preparedness system
    The IAFC is very supportive of the National Preparedness Goal (NPG) 
and its role in guiding the National Preparedness System. The Federal, 
State, Tribal/territorial, and local agencies all have important roles 
to play in the complex requirements to protect the American public. The 
IAFC particularly was pleased to see that Fire Management and 
Suppression was added recently as a Core Capability in the NPG.
    As FEMA continues to develop and revise the NPG, it must begin to 
explain how the NPG relates to local first responders. The Threat and 
Hazard Identification and Risk Assessment (THIRA) should help drive the 
requirements of the NPG down to the State and local levels. Across the 
Nation, fire and EMS departments are participating more in the THIRA 
process.
    Information sharing is a critical component of the THIRA process, 
because Federal, State, and local intelligence assessments should be 
driving how threats are prioritized and critical infrastructure is 
identified. As States use THIRAs to identify risks and capabilities and 
allocate resources, the THIRA's analysis should be transparent and easy 
for local fire chiefs to comprehend. A fire chief should be able to 
access his or her State's THIRA and understand how threats and risks 
are prioritized and how resources are allocated to build capabilities 
to address these threats and risks.
    In order for the National Preparedness System to remain effective, 
fire and EMS departments must be reimbursed in a timely manner for 
inter-State mutual aid deployments. When a State requests fire and 
rescue response through the Emergency Management Assistance Compact 
(EMAC), local communities send their firefighters and apparatus to 
respond. These costs are borne by the communities until they are 
reimbursed. If a community has to wait years for reimbursement through 
the complicated Federal/State process, local leaders will face fiscal 
challenges requiring them to stretch budgets; raise taxes; or take on 
debt until the community finally is reimbursed. FEMA should be directed 
to review the reimbursement process for mutual aid deployments to 
ensure that local communities are reimbursed in a timely manner.
    An effective mutual aid system is essential to the National 
Preparedness System. Every day, local communities use mutual aid 
agreements between neighboring communities to provide emergency 
response at incidents. These incidents can include large fires, 
hazardous materials spills, major traffic accidents, or any other type 
of emergency incident. Many major States, like Illinois and California, 
have proven State-wide mutual aid systems. FEMA should continue to work 
with the IAFC and the States to ensure that they have strong fire and 
EMS mutual aid systems. These State-wide systems can help to provide 
resources effectively as the States request and provide aid through 
interState compacts or the EMAC system. Having strong mutual aid 
systems in place is not only cost-effective, it is essential to the 
preservation of life and property.
    In addition, FEMA must continue to ensure that Federal, State, and 
local response agencies continue to utilize the National Incident 
Management System (NIMS). FEMA revised NIMS last year, and States are 
now expected to develop an alternate set of protocols and training 
curricula to align with the new National standards. The FEMA 
administrator should ensure that these NIMS revisions remain consistent 
with the Incident Command System, and that the State emergency 
operations centers are able to interoperate with the first responders 
in the field.
                                 grants
    In discussing the National Preparedness System, it is important to 
discuss FEMA's grant programs. The Assistance to Firefighters Grant 
(AFG) program and the Staffing for Adequate Fire and Emergency Response 
(SAFER) grant program provide matching grants to local jurisdictions 
for equipment, training, and staffing, including the recruitment and 
retention of volunteer firefighters. The Urban Areas Security 
Initiative (UASI) helps States prepare for the threat of terrorism by 
encouraging planning and exercises and funding intelligence fusion 
centers. The State Homeland Security Grant Program (SHSGP) also helps 
fund fusion centers and, in some States, funds State-wide mutual aid 
systems.
    Because local fire departments provide the response resources 
during National deployments to address terrorist incidents and other 
National emergencies, the AFG and SAFER programs are vital components 
of the National Preparedness System. These programs bolster local fire 
departments' baseline capabilities to respond to all hazards. While the 
programs have been successful, there still is a lot of work to be done. 
Please consider these examples from the National Fire Protection 
Association's (NFPA) Fourth Needs Assessment of the U.S. Fire Service:
  <bullet> Fifty percent of all departments (that answered the NFPA 
        survey) do not have enough portable radios to equip all 
        emergency responders on a shift.
  <bullet> Fifty-three percent of all departments (that answered the 
        NFPA survey) cannot equip all firefighters on a shift with 
        self-contained breathing apparatus (SCBA).
  <bullet> An estimated 60 percent of all departments (that answered 
        the NFPA survey) provide hazmat response but have not formally 
        trained all of their personnel involved in hazmat response.
  <bullet> Almost three-quarters (72 percent) of departments (that 
        answered the NFPA survey) reported that some of their personal 
        protective clothing was at least 10 years old, which exceeds 
        the life cycle of the equipment.
    As these statistics demonstrate, many fire departments still lack 
the most basic requirements for a safe and effective response. In fire 
departments around the Nation, firefighters still must share personal 
protective equipment and gear. In addition, many fire departments 
across the Nation are operating with severely outdated and sometimes 
inoperable apparatus. A neighboring jurisdiction of mine has only one 
fire engine that does not start. The AFG and SAFER programs help local 
fire departments meet their direst needs.
    In 2006 and 2007, my department received AFG funding in order to 
purchase personal protective equipment and SCBAs. We used these grants 
to replace 20-year-old turnout gear, which had far exceeded its 10-year 
service life. In addition, the purchase of new SCBAs allowed us to 
replace an old system with the current contemporary gear that 
neighboring departments had. This equipment helped us to regionalize 
our local fire and emergency service and provide more effective 
emergency response to our communities.
    The AFG and SAFER grant programs are authorized through the end of 
fiscal year 2017. The IAFC requests that Congress consider and pass 
legislation this year to reauthorize funding for these programs over 
the next 5 fiscal years. In addition, we have concerns about the sunset 
provision in each program's authorizing statute, which would eliminate 
the programs in early January. We ask that Congress remove this sunset 
date in order to ensure that the programs can continue to support the 
Nation's fire departments.
    The SHSGP and UASI grant funds play an important role in helping 
communities plan for the response to acts of terrorism. One of the 
benefits of the programs is that the Federal funds provide an incentive 
for fire, EMS, law enforcement, public health and other Federal, State, 
and local agencies to work together to plan and exercise for the 
response to mass casualty incidents, acts of terrorism or chemical and 
biological events. In addition, these grant funds are used to support 
intelligence fusion centers and information sharing between Federal, 
State, and local officials. The grant programs also support training 
and equipment for specialized response such as the response to 
chemical, biological, or radiological incidents.
    For example, the IAFC endorsed the Medical Preparedness Allowable 
Use Act (H.R. 437), which passed the House on January 30. This 
legislation would allow grantees to develop a program using SHSGP and 
UASI funds to provide home med-kits to first responders and their 
families. These med-kits are important to provide the necessary 
protection for first responders as they respond to biological or 
chemical incidents.
    We also have some concerns about the President's recent Executive 
Order regarding immigration and sanctuary jurisdictions. The order 
would authorize the Secretary of Homeland Security to designate 
sanctuary jurisdictions, which would prohibit them from eligibility for 
FEMA grants. There is an exception to this requirement for law 
enforcement, but not for other public safety disciplines. This language 
threatens to cut off funding to local fire departments and deeply 
affect their ability to plan for and respond to acts of terrorism. The 
IAFC Board has not adopted a position on the issue of sanctuary 
jurisdictions. However, my organization would recommend that the 
Secretary and Congress use discretion to recognize a broader exception 
for public safety purposes, when reviewing grant eligibility.
                      public safety communications
    Public safety communications will remain an important issue 
requiring FEMA's focus. After-action reports have determined that 
problems with public safety communications operability and 
interoperability plagued the responses at 9/11, Hurricane Katrina, and 
multiple incidents in the following years. The Middle Class Tax Relief 
and Job Creation Act (Pub. L. 112-96) authorized the creation of the 
First Responder Network Authority (FirstNet) to establish a Nation-
wide, public safety broadband network. This year, we expect FirstNet to 
announce its commercial partner, and begin to work with the States to 
build the network. As State Governors contemplate opting out of 
FirstNet, the IAFC recommends that the FEMA Administrator remind them 
of the integral role that interoperable communications play in mutual 
aid deployments during National emergencies.
    It is important to point out that FirstNet initially will provide 
mission-critical broadband data communications. Legacy mission-
critical, land-mobile radio systems will remain vital to the fire and 
emergency service and public safety in general. The IAFC thanks the 
committee for its continued support of the mission of the Office of 
Emergency Communications (OEC). The OEC continually demonstrates its 
value by training first responders through its Communications Unit 
Leader training, which integrates communications into the command 
structure during major disasters. The IAFC encourages the FEMA 
Administrator to work with OEC to ensure that its recommendations are 
included when localities use Federal funds to purchase communications 
systems, and to ensure that OEC is involved in planning for major 
disasters.
    Since land-mobile radio will remain an important component of 
public safety communications, Congress must address the requirement 
that first responders return their spectrum in the T Band (470-512 
MHz). Pub. L. 112-96 also required the Federal Communications 
Commission (FCC) to begin auctioning public safety T Band spectrum by 
February 2021 and clear all public safety operations from the band 
within 2 years. This spectrum hosts public safety communications in 11 
major urban areas of the United States. These 11 urban areas are 
Boston; Chicago; Dallas/Ft. Worth; Washington, DC. (including parts of 
Virginia and Maryland); Houston; Los Angeles; Miami; New York City/
Northeast New Jersey; Philadelphia; Pittsburgh; and San Francisco/
Oakland. For example, Boston hosts its interoperable communications 
channel on the T Band. It's estimated that it will cost $5.9 billion to 
migrate these jurisdictions to other alternative spectrum, and, in some 
cases, there is no spectrum to which to migrate. The IAFC recommends 
that the FEMA administrator work with the FCC Chairman to resolve this 
issue, and not jeopardize public safety communications operability and 
interoperability for everyday use and major emergencies.
                               mitigation
    Mitigation remains an important challenge for FEMA. Over the years, 
we have seen a steady increase in the number of disaster declarations. 
For example, the average number of disaster declarations issued from 
1960 to 1969 was approximately 19 per year. This number of declarations 
has skyrocketed to 56 per year from 2000 to 2009, with a record 99 
major disaster declarations in 2011. The IAFC expects to see the 
intensity and cost of National disasters and emergencies to continue to 
increase. For example, the average Federal wildland fire suppression 
cost from 2009 to 2012 was $1.25 million. For the following 4 years, 
the number increased to $1.84 million, a 32 percent increase.
    The IAFC encourages FEMA to promote mitigation efforts and 
community preparedness planning to reduce the cost of National 
disasters and emergencies. For example, the adoption of State-wide 
building codes can help reduce the cost of disasters. The IAFC has 
supported legislation in the last Congress, such as the Safe Building 
Code Incentive Act (H.R. 1748) and the National Mitigation Investment 
Act (H.R. 5177), which allows FEMA to incentivize the State-wide 
adoption of consensus-based building codes, like the International 
Residential Code. We also support FEMA's pre-disaster mitigation 
programs, which help communities reduce the threat of wildland fire 
with fuels reduction projects.
    In my State, we have seen the importance of post-wildland fire 
mitigation work to reduce landslides and post-wildland fire flooding. 
We support legislation that was included in both the FEMA Disaster 
Assistance Reform Act (H.R. 1471) and the Wildfire Prevention Act (H.R. 
1009) in the last Congress that would allow States that receive Fire 
Management Assistance Grants to also receive hazard mitigation funding. 
FEMA-funded projects, such as the establishment of erosion barriers and 
re-seeding burned land, will help communities recover more quickly from 
wildland fires and prevent disasters as a consequence of major wildland 
fires.
                      the u.s. fire administration
    I would like to highlight the importance of the USFA as I conclude 
my testimony. The United States still has an overall fire problem that 
must be addressed. According to the NFPA, there were more than 1.3 
million fires in our Nation in 2015. These fires resulted in more than 
3,200 deaths, more than 15,000 injuries and approximately $14.3 billion 
in property damage.
    The USFA continues to lead efforts to combat this problem. It helps 
local fire departments develop programs to educate the public about 
fire prevention. USFA also administers the NFA, which has trained more 
than 1.4 million students in emergency leadership issues and 
specialized emergency response tactics since 1975. Most importantly, 
NFA helps local fire chiefs to learn about how to integrate their 
departments into the National Preparedness System through training 
about NIMS. The USFA also hosts the National Fire Incident Reporting 
System, which is one of the world's most comprehensive National fire 
data systems. The U.S. Fire Administrator leads the USFA.
    The IAFC requests that the President move quickly to appoint an 
experienced fire and emergency service leader to the position of U.S. 
Fire Administrator. In addition, the authorization for USFA expires at 
the end of the fiscal year. The IAFC urges Congress to reauthorize the 
USFA this year, so it can continue its important mission.
                               conclusion
    I thank you for the opportunity to testify today about the future 
of FEMA. The Nation's fire and emergency service faces an operating 
environment that is changing at a rapid and alarming pace. The wide 
variety of emergencies that we respond to are increasingly more 
dangerous to our citizens and responders. The economic impacts of these 
incidents to our Nation are escalating. The quality of the service 
provided by firefighters and EMS providers influence the citizens' 
feelings of safety and security, yet the ability to train 
firefighters--from our volunteers in rural regions to all-career 
firefighters in major cities--is a major challenge. The cost of 
procuring vital firefighting apparatus, tools, and firefighter personal 
protective equipment has increased well beyond the rate of inflation 
and beyond communities' abilities to pay. The challenges require 
experienced fire and emergency management leadership.
    We urge the new administration to nominate an experienced leader in 
the fire and emergency service or emergency management disciplines to 
lead the agency. We also recommend that the other leadership of FEMA, 
including the U.S. Fire Administrator, also be experienced leaders.
    In addition, we urge the administration and the committee to work 
together to help FEMA address the numerous challenges that the Nation 
faces. It is important that Federal information sharing and public 
safety communications programs continue to be funded and supported in 
their missions. In order to ensure a strong National Preparedness 
System, FEMA must review its mutual aid and reimbursement systems. 
Also, FEMA should be given stronger authority to incentivize the State-
wide adoption of building codes and the implementation of community 
efforts to mitigate the effects of disasters. In addition, the IAFC 
recommends that Congress continue to support FEMA's grant programs, and 
reauthorize the AFG and SAFER grant programs. We also recommend that 
Congress reauthorize the USFA.
    The new administration and the new Congress present an opportunity 
to review FEMA's programs and policies. The IAFC continues to support 
FEMA's mission and the National Preparedness System. We look forward to 
working with the committee to ensure that the Nation is prepared to 
respond to any of the potential threats that we face and keep America 
safe.

    Mr. Donovan. Thank you very much, Chief.
    The Chair now recognizes Mr. Bland for 5 minutes.

STATEMENT OF RICHARD F. BLAND, J.D., M.T.S., NATIONAL DIRECTOR, 
      POLICY, ADVOCACY, AND DEVELOPMENT, SAVE THE CHILDREN

    Mr. Bland. Chairman Donovan, Ranking Member Payne, and 
esteemed Members of the Homeland Security Committee, thank you 
for the opportunity to testify on the future of FEMA.
    My name is Rich Bland, and I am the national director of 
policy, advocacy, and development at Save the Children.
    At Save the Children, we believe that every child deserves 
a healthy start, the opportunity to learn, and protection from 
harm. It is in this last vein, protection from harm, that I 
want to talk to you today.
    My hope is to cover three broad issues: First, the problem, 
how Katrina and subsequent disasters have been a wake-up call 
on children's needs. Second, the solutions, the role of the 
National Commission on Children and Disasters and Save the 
Children's 10 years later follow-up report, which you all have 
with you today. Third, one action we can take today, one 
concrete action, the importance of creating a permanent 
children's needs advisor at FEMA.
    Imagine where you were 12 years ago in the late summer of 
2005 when you first heard about Hurricane Katrina. Remember how 
shocked you were when the levees broke, when the death toll 
began to mount, and when you saw the seemingly endless images 
of people on rooftops, wading in water, struggling to survive? 
It was a watershed moment, not just for our country, but also 
for Save the Children.
    You see, Save the Children has been responding to 
emergencies around the world for nearly a century, but never 
domestically. In war-torn and developing countries, yes. In the 
United States, no. The thinking was the richest Nation in the 
world had it covered, so no need to worry. But the reports 
started coming in, the TV images, the cries for help, and no 
shortage of children in need.
    So just in case, we began to call responders along the Gulf 
Coast, Government, agencies, nonprofits. We asked the heads of 
shelters, how many children do you have and at which shelters? 
The response was we have no idea--no idea.
    Many more of our questions went unanswered in the days that 
followed. As a result, Save the Children decided to deploy to 
the Gulf Coast in its first major disaster response effort here 
within the United States.
    Since Katrina, we have deployed to every major disaster, 
serving more than 1 million children, including 6 disasters in 
2016 alone. As of yesterday, we deployed to California in the 
Oroville area regarding the evacuation there.
    Katrina was a shocking moment for all of us; yet today, 
children are still facing many of the same risks from an 
emergency as they did 12 years ago. Thus, my second issue, 
solutions.
    After Katrina, Congress and the President created the 
National Commission on Children and Disasters. Save the 
Children was honored to lead it along with an incredible group 
of expert commissioners. The commission created a detailed road 
map of needs and solutions with 11 chapters on 11 functional 
areas related to the gaps, and then came up with 81 
recommendations.
    I am here to tell you today that nearly 80 percent of those 
recommendations yet remain unfulfilled. Do we really want to 
wait for the next Katrina-type event to get back to this work? 
Now, to be fair, much progress has been made and much of it at 
FEMA. But those steps are far from complete, and there is 
nothing to guarantee any focus on children's needs in the 
future. We need accountability. Our children deserve it.
    The report you have in your hands is the first effort to 
hold Government accountable for the recommendations of the 
National commission. All levels of government have a role to 
play. You will see 11 chapters and it says, where the 
recommendations were not met, that is red, where they were met, 
that is green, and then where they are underway, that is 
yellow.
    Yet the results are startling. Nearly 80 percent of the 
recommendations have not been met. In addition, we now know 
that less than one-tenth of 1 percent of all Federal 
preparedness grants go to children's needs. Thankfully, 
Congressman Payne, you have been a stalwart champion raising 
attention to these needs. So thank you for that. Most recently, 
your ability to pass H.R. 4509 will go a long way toward 
connecting emergency management to children's needs 
representatives at the State level. So thank you for that.
    Thank you, Mr. Donovan, for cosponsoring the PREPARE Act 
with Mr. Payne last Congress. This would indeed make the 
children's needs coordinator permanent. So I look forward to 
working with you on that.
    As for what comes next, to this day when we deploy, Save 
the Children is a witness to the fact that children are still 
more an afterthought than a priority.
    I would like to leave you with two facts. Recall that 
children are 25 to 50 percent of the population, depending on 
the community. This is no fringe group. Furthermore, as the 
pediatricians remind us, children are not merely small adults. 
Consider how unique their needs are, protection needs at 
shelters, specialized supply needs and response efforts, 
tailored medical needs and treatment. The list goes on.
    So let's just take one of the recommendations that we think 
we can make permanent and concrete, the permanent children's 
needs advisor at FEMA. Of course, it is no one-size-fits-all 
solution, but we have come here today to suggest that we take 
that one big step. We believe each of these gap areas, be it 
mental health, shelter standards, or preparedness, starts with 
Government accountability and having someone at the highest 
level of FEMA with the power to remind the administrator and 
all the departments of FEMA about the unique needs of children 
is vital.
    While some administrators, including Mr. Fugate, have had a 
stellar track record at prioritizing children's needs, and in 
fact temporarily appointing a children's needs coordinator, 
that position is not required and it could fade to obscurity. 
That cannot and should not happen. So we are here today to ask 
you to join with us in addressing these gaps and taking the 
first step, which is to make the children's needs adviser at 
FEMA permanent. Thank you very much.
    [The prepared statement of Mr. Bland follows:]
                 Prepared Statement of Richard F. Bland
                           February 14, 2017
    Chairman Donovan, Ranking Member Payne, and esteemed Members of the 
Homeland Security Committee, thank you for the opportunity to testify 
on the future of FEMA.
    My name is Richard Bland and I am the national director of policy, 
advocacy, and development at Save the Children.
    At Save the Children, we believe that every child deserves a 
healthy start, the opportunity to learn, and protection from harm. It 
is in this last vein, protection from harm, that I want to talk to you 
today.
    Imagine where you were 12 years ago, in the late summer of 2005, 
when you first heard about Hurricane Katrina. Remember how shocked you 
were when the levees broke? When the death toll began to mount and when 
you saw the seemingly endless images of people on rooftops and in boats 
and wading in water struggling to survive? It was a watershed moment 
not just for our country, but also for Save the Children.
    You see, Save the Children has been responding to emergencies 
around the world for nearly a century but NEVER domestically. The 
thinking was the richest nation in the world had it covered, so no need 
to worry. But then the reports started coming in. The TV images. The 
cries for help. And no shortage of children in need. So just in case, 
we began to call responders along the Gulf Coast. Government, agencies, 
nonprofits. We asked the heads of the shelters how many children they 
had and at which shelters. The response was, ``we have no idea.'' NO 
IDEA.
    Many more of our questions went unanswered in the days that 
followed. And as a result Save the Children decided to deploy to the 
Gulf Coast in its first major disaster response effort within the 
United States.
    Since Katrina, we have deployed to every major disaster (including 
6 disasters in 2016 alone); while at the same time, we have also 
advocated strongly with Federal and State officials to ensure children 
are adequately prioritized in governmental planning, response, and 
recovery.
    Katrina was a shocking moment for all of us.
  <bullet> As many as 300,000 children were forced from their homes.
  <bullet> 5,000 children were separated from their parents.
  <bullet> Did you know it took 7 months to reunite the last child with 
        her parents?
    But the problem of reunification is not restricted to mass-scale 
emergencies like Katrina. Today, children are still facing many of the 
same risks from an emergency as they did 12 years ago.
  <bullet> Just remember: Every single day 70 million children are 
        separated from their parents. And disasters can strike anywhere 
        at any time.
    Fortunately, we know how to address many of these risks--Congress 
and the President created the National Commission on Children and 
Disasters. And Save the Children was honored to lead it, along with an 
incredible group of experts in disaster response and child protection 
who served as commissioners. The Commission created a detailed roadmap.
  <bullet> But, as of today, nearly 80 percent of the recommendations 
        remain unfulfilled! Do we really want to wait for the next 
        Katrina-type event to get back to this work?
    Now to be fair, much progress has been made. Child care and school 
preparedness have come light years. Pediatric medical health saw 
Federal legislation that included comprehensive requirements around 
medical countermeasures and a medical advisory committee. At FEMA, we 
saw Administrator Fugate make major efforts to integrate children's 
needs into every FEMA regional administrator's job and appoint a 
temporary children's needs coordinator. But those steps are far from 
complete, and there's nothing to guarantee any focus on children's 
needs in the future. We need accountability. Our children deserve it.
    The Report you have in your hands (Still At Risk: U.S. Children 10 
Years After Hurricane Katrina\1\) is the first effort to hold 
Government accountable for the recommendations of the National 
Commission. All levels of government have a role to play. Federal. 
State. local. All Federal agencies. HHS. FEMA. Justice. ED. What you 
have in front of you is that effort. And today, we are happy to focus 
on FEMA.
---------------------------------------------------------------------------
    \1\ Retained in the Committee files and available at: http://
www.savethechildren.org/atf/cf/%7B9def2ebe-10ae-432c-9bd0-
df91d2eba74a%7D/DISASTERREPORT_2015.PDF?v=5.
---------------------------------------------------------------------------
    As to the structure of the Report, you may recall that the National 
Commission's Final Report arranged their recommendations in 11 
functional areas, 11 chapters.
    81 Recommendations and sub-recommendations.
    This report is our effort, through an objective, third-party, 
outside research firm, to assess how many of those recommendations have 
been met (GREEN), how many are being addressed (YELLOW), and how many 
have not been met at all (RED).
    The results are startling.
  <bullet> Nearly 80 percent of recommendations have not been met.
  <bullet> That means 4 in 5 of the original recommendations has not 
        been met.
  <bullet> In addition, we now know less than 1/10 of 1 percent of all 
        Federal preparedness grants go to children's needs.
  <bullet> Put another way, less than 1 cent in every $10 spent on 
        preparedness goes to children's safety.
    You may hear people say well, just addressing the recommendation is 
good enough. Some agencies will say we cannot afford to single out 
children as a priority or for funding, due to all of the other 
priorities. We are here to say you must!! And we hope you will join us 
in that effort. Thankfully, Congressman Payne, you have been a stalwart 
champion in raising attention to these needs. So thank you for that! 
Most recently, your ability to pass H.R. 4509 will go a long way to 
connecting Emergency Management to Children's needs representatives at 
the State level.
    As for what comes next, let's think back to Katrina, or to Sandy, 
or the Oklahoma tornadoes for that matter, time and time again when we 
deploy, Save the Children is a witness to the fact that children are 
still more an afterthought than a priority. And not just in response--
in planning too!
  <bullet> Let's not forget that Children are 25-50 percent of the 
        population depending on the community. This is no fringe group.
  <bullet> And furthermore, the experts remind us Children are NOT 
        merely small adults--consider how unique their needs are. 
        Safety needs in shelters. Specialized supply needs in response 
        efforts. Tailored medical needs in treatment. The list goes on!
    Thankfully the commission took a comprehensive look at all of those 
needs, 11 functional areas, and made detailed recommendations in each.
    Let's get to work to see that more of them are met!
    Fortunately, we are also not alone. Your interest in heartening, 
and more importantly we are joined by organizations like the American 
Academy of Pediatrics (AAP), Child Care Aware (CCA), and the National 
Center of Missing and Exploited Children (NCMEC) that spend each and 
every day trying to address these gaps!
    In addition the National Advisory Committee at FEMA, the ``NAC'' 
made three key recommendations to FEMA, and the administrator agreed! 
He agreed to try to get all three done. But now we have a new 
administration and you will be meeting with a new administrator. So we 
are asking for you to have him or her follow-through on those promises.
  <bullet> Let's take just one: The need for a permanent Children's 
        Needs Technical Expert at FEMA.
    Of course it is no one-size-fits-all solution, to all 11 chapters 
of recommendations to address the gaps in children's needs. But we have 
come here to today to suggest that we take that one big step.
    We believe each of these gap areas, be it mental health, shelter 
standards, or preparedness, starts with Governmental Accountability. 
And having someone at the highest level of FEMA with the power to 
remind the administrator and all departments of FEMA about the unique 
needs of children is vital.
    While some administrators including Mr. Fugate have had a stellar 
track-record at prioritizing Children's Needs, and in fact temporarily 
appointing a children's needs coordinator, that position is NOT 
required and could fade to obscurity.
    That CANNOT and SHOULD NOT happen, so we are here today to ask you 
to join with us in addressing these gaps, and taking the first step, 
which is to make the Children's Needs Technical Expert at FEMA 
permanent.
    Thank you.

    Mr. Donovan. Thank you, Mr. Bland. I thank you all for your 
testimony.
    I recognize myself now for 5 minutes of questioning.
    As I told all of you before we began, this committee, one 
of the things I am proud of my good friend, Don Payne, and I 
don't waste people's time. We don't hold committee hearings 
every week just to have committee hearings. We hold them for a 
purpose and then we take the information that is derived from 
the hearing and put it to work. So your testimony today, your 
suggestions, your answers to our questions will go into some 
form of evaluation that we will give to the new administrator 
as recommendations of what she or he should do.
    With that in mind, and all of you have brought out various 
concerns that you all have, the new administrator is going to 
come in and have a lot of things before her or before him. In 
each of your specific areas, what do you think is the first 
thing the new FEMA administrator ought to address, something 
that cannot wait, something that time is of the essence, for 
each of you?
    Captain Kelenske. Well, first and foremost, I believe the 
interaction and engagement with the State's Governors and their 
key officials, that is key right off the bat. Then to look to 
the States to see what specific needs that they collectively 
have that need to be addressed. Working through organizations, 
such as the NGA and the Governors Homeland Security Adviser 
Council, is also a good way to get that information. But I 
think it is necessary to reach out to the States and find out 
what those issues are.
    Some of the ones that are out there are, what innovative 
solutions, whether they are innovative solutions to grants or 
technology or the intelligence and information sharing that is 
going on, those are some key issues that need to be looked 
into, as well as the grant reform concept that we talked about 
earlier, sir.
    Mr. Donovan. Thank you, Captain.
    Chief.
    Chief Sinclair. Yes. Chairman Donovan, thank you very much 
for the question. It is incumbent that whoever comes into this 
position knows and understands that it is a partnership, that 
it is vital that they know that the first responders that are 
out there, the law enforcement community, police, fire, EMS, 
public health, the first receivers, the hospital systems are 
all folks that are going to be on-scene long before the Federal 
Government can begin to ramp up and begin to take action. So 
everything that we can do to help that response community be 
ready for an all-hazards environment is vital.
    Some of that includes simple things like information 
sharing through the fusion centers. I will give you one very 
specific example. In Nice, France on Bastille Day, we had a 
significant event where somebody took a big truck and ran it 
through a bunch of people. We should have had somebody in the 
fusion centers taking a look at that and providing information 
out to every law enforcement and fire and EMS jurisdiction 
across this Nation saying here is a new tactic, here are some 
ideas on how to prepare for that.
    But the big issue is recognizing that there is a 
partnership and that it is a partnership all the way down to 
the local level.
    Mr. Donovan. Thank you, Chief.
    Mr. Bland.
    Mr. Bland. Thanks for the question. I think it is really 
the children's needs advisor. The former administrator, Mr. 
Fugate, just did a remarkable job, and he really personally 
felt the priority of children's needs as a vulnerable 
community. But as he himself would admit, that is not required. 
It is not required by statute, and so it can't be personality-
driven by the administrator.
    In addition, that role has this kind-of internal auditing 
function where whatever they are going to roll out or whatever 
new proposal they come across, to have this technical expert to 
say, but how is it going to affect kids, have you thought about 
that? They are not just small adults. In addition, we have got 
a lot of momentum. So your bill, the PREPARE Act, endorsed this 
idea and the National advisory committee, which is required by 
PK-EMRA, actually this was their No. 1 recommendation on 
children's needs.
    So we have got some momentum. Mr. Fugate agreed with the 
National advisory committee in his official response and said I 
agree, but I am leaving. So I think for all of those reasons 
and just on top of that, I guess I would say let us keep up the 
momentum.
    I don't mean to paint too stark a picture because we have 
come a long way since Katrina. But there were 11 chapters and 
there were 11 big gaps. This concrete step would be a good 
first step. So I hope that is helpful.
    Mr. Donovan. Wonderful. I thank all of you. I had 6 more 
questions, but we will submit those in writing. My time is up.
    The Chair now recognizes my friend from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman. I appreciate working 
with you once again. I think your statement is absolutely 
correct. We try not to waste people's time. The information 
that we do receive at these hearings eventually turns into 
legislation. So I want to thank you for your leadership.
    Let me just ask--first of all, thank you for all being here 
and your testimony.
    You know, with FEMA being in transition, you know, a new 
administrator, as I stated, has not been named, and the Trump 
administration's priorities in the emergency management space 
are unclear, has the Trump administration engaged you or your 
organizations during this transition process?
    Captain Kelenske. I know that there have been discussions 
with other associations involved in this area, but I don't know 
specifically. We would have to follow up later with that 
answer, sir, from individual organizations.
    Mr. Payne. OK. Chief.
    Chief Sinclair. We met with both campaigns prior to the 
election to give them our opinion about certain issues, certain 
issues as it related to key positions within the Federal 
Government. Subsequent to that, we have not had, I have not had 
a meeting with them.
    Mr. Payne. Mr. Bland.
    Mr. Bland. Our organization, as you know, has kind-of 
health priorities, education priorities, and protection 
priorities. We met with both campaigns and went really and 
focused on early childhood education priorities. We haven't 
spoken to them about protection in emergencies yet.
    Mr. Payne. OK, thank you. We will definitely make sure that 
we encourage the administration to reach out to make sure that 
you do have input in that area.
    Let's see. Chief Sinclair, President Trump's sanctuary 
cities Executive Order requires the Secretary of Homeland 
Security to ensure that sanctuary jurisdictions are ineligible 
for Federal grants except for law enforcement purposes. The 
Executive Order makes no clear exception for public safety or 
fire management.
    Did the Trump administration contact the International 
Association of Fire Chiefs to learn how losing access to these 
Federal dollars would affect their ability to carry out their 
mission?
    Chief Sinclair. Ranking Member Payne, no, we have not been 
contacted directly from the administration relative to that. We 
would, as I stated in my testimony, request that the law 
enforcement exception be extended to the entire public safety 
community.
    We do believe that because that the SHSGP and UASI grants 
go to fund fusion centers, it is going to be very difficult to 
isolate just the law enforcement component to that because they 
are going to work with key pieces that affect all of public 
safety. So we believe that a public safety exception is 
certainly appropriate to do.
    Mr. Payne. Sure. Especially in this new environment, you 
know, the public safety community has come together in such a 
great way that it would absolutely be difficult to separate 
them. Thank you.
    Chief Sinclair. Yes, sir.
    Mr. Payne. Mr. Bland, in your testimony you talked about 
the need for a permanent child's need technical expert at FEMA. 
Can you talk about how Save the Children works with the current 
children's needs technical expert?
    Mr. Bland. Sure. The technical expert, as I mentioned, 
serves as this kind of internal auditing function. So when 
there is something, whether it be a response, like in 
California right now, that expert actually can go and respond 
and be the expert to people in the field.
    So they come to us and we work with American Red Cross in 
that deployment, but they come to us and we coordinate all the 
resources. I mean, it is a nice, fluid function that says, 
well, what does HHS, what does ACF, what does OCFR have to 
offer?
    So that without that kind of hub reaching out to us, 
American Academy of Pediatrics, NCMEC, National Center for 
Missing and Exploited Children, that would be a gap, that kind 
of hub. Then also that then back when they are rolling out an 
idea or an initiative, to come to us and other stakeholders and 
say, but remember, how does this affect kids, what is your 
input on that? So those are two critical functions that they 
engage with us on.
    Mr. Payne. OK. Thank you.
    Mr. Bland. Thank you.
    Mr. Payne. Mr. Chairman, I yield back.
    Mr. Donovan. The gentleman yields back. The Chair will now 
recognize other Members of the subcommittee for questions that 
they may wish to ask of our witnesses. In accordance with 
committee rules and practice, I plan to recognize Members who 
were present at the start of the hearing by seniority on the 
subcommittee. Those coming in later will be recognized in the 
order of arrival.
    The Chair now recognizes the gentleman from Florida, Mr. 
Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Thank you, panel, for being here today really to help us 
address this very important National issue.
    One of the things that I would like to ask very quickly, 
and I don't know the answer to this, but I would like to find 
out. The National preparedness report that identifies the 32 
core capabilities, those are not designated by law, correct? It 
came out of policy. So I would like to ask you, Director Bland, 
if we were to put child needs into a 33d preparedness goal, 
wouldn't that be possible through the policy that already 
exists?
    Mr. Bland. As I understand it, that would be a great idea. 
We would look to work with you on that. One idea that came up 
is to have the children's needs coordinator report back to the 
National advisory committee.
    So instead of reporting to external groups, but also not 
necessarily reporting in statute to the administrator, to have 
this kind of accountability on, and say, on a 33d standard I 
think is a great idea. But what has happened is you don't 
really have a built-in accountability structure to say to each 
administrator or each department, how are we doing on this gap? 
So if that person could report to the NAC, which PK-EMRA--sorry 
about the acronyms----
    Mr. Rutherford. That is OK.
    Mr. Bland [continuing]. I think that would be a great idea 
and in addition, on the preparedness framework to work on that, 
too. So thank you.
    Mr. Rutherford. OK. Also, I would like to ask, Chief, has 
IACP had any conversations with the leadership in sanctuary 
cities to make clear to them the dangers that they have put 
their constituents in by potential loss of Federal funding?
    Chief Sinclair. Representative Rutherford, the IACP or the 
IAFC?
    Mr. Rutherford. I am sorry, IAFC.
    Chief Sinclair. No, sir, we have not.
    Mr. Rutherford. OK. You know, I think those would be 
conversations worth having as well. Sanctuary cities, that is a 
choice that those cities are making. There are consequences 
that flow from all decisions, so I think it would be wise to 
highlight for them exactly what that impact would be.
    If I could ask the panel as a whole, one of the things we 
continue to hear about, and, Chief, you actually touched on 
this, is the inability to really get good, actionable 
intelligence out of the fusion centers. We have the same issue 
on the law enforcement side sometimes. That actually scores 
low, cybersecurity and recovery capabilities of those systems 
scores low almost every year Nationally.
    Do you have any specific ideas on how we can better make 
that happen?
    Chief Sinclair. Thank you for the question. I think that 
there are a couple of different things, having had the 
opportunity to work with the DHS Office of Health Affairs as it 
related to fusion centers, with the EMS issue and fire 
department involvement.
    I think one of the things is that the local community needs 
to make sure that they have got that expertise in the fusion 
center. That is going to then help make sure that when the raw 
data comes in that they can take a look at it and make sure 
that that application is there. So making sure that there are 
people in the fusion center that come out of the disciplines of 
the fire service, emergency medical services, public health, 
and the impacts, I think, is going to be very helpful.
    Some of the fusion centers have that capability, some 
don't. But sort-of putting that into the culture of it is 
something that is going to be very helpful.
    Mr. Rutherford. I agree. Thank you, Mr. Chairman. I yield 
back.
    Mr. Donovan. The gentleman yields. The Chair now recognizes 
the gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony here 
today.
    In 2006, Congress created the position of disability 
coordinator at FEMA to provide guidance to both FEMA staff and 
State and local partners on how to incorporate people with 
disabilities into disaster planning.
    So, Captain Kelenske and Chief Sinclair, how do you account 
for people with disabilities in your disaster planning? Do you 
find guidance from FEMA in this regard to be helpful at all?
    Captain Kelenske. Thank you for the question, sir. 
Absolutely, one of the great things about FEMA is that they 
know how to work across multidisciplines. So when we have an 
emergency or disaster, regardless of what the cause is, FEMA is 
there to provide that technical assistance as well as the 
overall management for these events.
    Specifically in the disasters that I have handled, they 
have provided an enormous amount of information and assistance 
with access and functional needs and any disabilities, steps we 
have to take, whether it is ensuring that things printed are 
done with American Sign Language, and just every aspect that 
typically we may not see at a State level as much.
    But during these events it is critical to have them there 
and to bring them on early with liaison officers before even a 
declaration by the President has been received.
    Mr. Langevin. Thank you.
    Chief.
    Chief Sinclair. Thank you very much for the question. The 
State of Washington over the last 5 years has had a lot of 
wildland events. We have also had flooding events. We work very 
closely with FEMA Region 10 on these particular issues to make 
sure that those communities that are going to be affected are 
well-informed.
    What we try to do is make sure that we have got information 
out there. They work with us. They do a lot of work in getting 
information out through the major media markets and information 
all the way down to the local emergency manager at the city and 
county level.
    We also update our plan once every 5 years, and they give 
overview, between FEMA Region 10 and our State emergency 
management organization, on how to make sure that we are 
dealing with the needs of that particular community. So it has 
been very helpful.
    Mr. Langevin. Thank you.
    Mr. Bland. Congressman, and if I could just add that Save 
the Children ran, since 2008, we have run a report card that 
assesses the States on how they are doing on preparedness. One 
of the factors, there are 4 criteria, and 1 is, how are you 
doing on preparing for children with special needs, with access 
and functional needs?
    In 2008, only 4 States met our standards. Thanks to work 
with Congressman Payne and others, by the end of 2017, all 50 
States will meet all 4 of our standards. But it was a long way 
coming.
    One other small point is there is a fantastic disability 
needs coordinator at FEMA. And Mr. Fugate, when we first 
started talking to him about this, Marcie Roth, he said you all 
should pattern yourself after the disability community because 
that is what he did. He learned from them in more-inclusive 
planning.
    He will tell you, if you have an annex for the disabled, if 
you have an annex for the children, if you have an annex for 
pets, you are doing it wrong. You need to be more inclusive. So 
we are trying to learn and Marcie Roth has been a great asset. 
Unfortunately, because of personnel reasons and a snafu with 
OPM, she is not there right now.
    Mr. Langevin. Well, thank you for adding those comments in. 
You know, I want to make sure that people with disabilities are 
a forethought, not an afterthought. There is special planning 
that needs to take place and better to do it ahead of time than 
in the middle of a disaster. So thank you for the work you are 
doing on that.
    Captain Kelenske. for the last better part of a decade, I 
have spent a great deal of time focusing on cybersecurity. It 
has been one of my chief concerns here in Congress. In my 
capacity as co-chair of the congressional Cybersecurity Caucus, 
I have been impressed by your State's commitment to innovation 
in combating cyber threat.
    In your capacity testifying on behalf of the National 
Governors Association, I also want to commend Chairman 
McAuliffe for his dedication on this issue as well.
    So in your experience, what is the maturity level with 
respect to incorporating cybersecurity incident response into 
all-hazards planning?
    Captain Kelenske. I think it is different in every State. 
Some States are further ahead than others. The nice thing is, 
with organizations such as NGA, we are able to share that 
information. In my testimony, I spoke to some of the things 
that have been put in place and we are helping other States 
along.
    For our State, we are co-located. We have our cyber command 
center, our computer crimes section, our fusion center, State 
emergency operations center as well as emergency management and 
homeland security division all co-located. That is just the way 
one system operates.
    Every State is a little bit different, but the cyber 
disruption plans and the different items that have been put 
through the resource center, that is what is going to help us 
get to that point we all need to be individually as States, 
because every State is going to probably look a little bit 
different.
    But those frameworks are in place and it is critical that 
we just build on those existing frameworks, sir.
    Mr. Langevin. Very good. Thank you, Captain. You know, this 
is an issue that is not going to go away anytime soon, 
especially the fact that now with, you know, in the past would 
have been achieved through use of kinetic weapons, for example, 
could be done with a few keystrokes. We need to do what we can 
to be prepared for those incidents and then also have a 
resiliency plan. So thank you for what you are doing in that 
space.
    I know my time expired. I have a few more questions on 
cyber. I will submit those for the record and hope you can get 
back to us on those.
    Thank you, Mr. Chairman. I yield back.
    Mr. Donovan. The gentleman yields back.
    Before I recognize him, I would like to welcome Congressman 
Tom Garrett to the committee. He represents Virginia's 5th 
Congressional District. Prior to joining Congress, he served in 
the Army as the Commonwealth's attorney and State senator of 
Virginia's 22d District.
    Welcome, Congressman, and I recognize you for 5 minutes for 
questioning.
    Mr. Garrett. I am curious, Chief Sinclair, you are 
obviously a member of IFCA, also I presume IAFF. I want to 
piggyback for a moment on Mr. Rutherford's questions. 
Essentially, what you have testified to here this morning is 
that you have not gone to the cities with sanctuary policies 
and warned them of the potential of a loss of Federal funding.
    Chief Sinclair. That is correct, sir. We have not.
    Mr. Garrett. But you have come here and asked us not to act 
to enforce Federal law.
    Chief Sinclair. Sir, what we are asking for is that there 
is an exclusion for law enforcement. What we are asking is that 
that exclusion be broadened to the entire public safety 
community because of the fact that the fusion centers that are 
being funded are going to be giving information to not just law 
enforcement, but we work very collaboratively at the local 
level.
    Mr. Garrett. Right. So among other things not included on 
the brief resume that the Chairman shared was my membership on 
the Commonwealth preparedness board and work with the Virginia 
fusion center and my work as a Federal prosecutor as well as a 
State prosecutor.
    So these are some things that I am familiar with.
    It just strikes me, and I make this by way of a suggestion, 
that perhaps if you are going to suggest to us that we broaden 
the exemption as it relates to groups that would continue to 
receive Federal funding should localities intentionally choose 
not to enforce Federal law, that you might also go back to 
those localities and warn them of the potential impact on them, 
the loss of resources, et cetera.
    I would target this next question, and probably my choice 
of words is poor, to Captain Kelenske.
    Captain Kelenske. Kelenske, sir.
    Mr. Garrett. Kelenske. Work with me.
    Captain Kelenske. I will, sir.
    Mr. Garrett. So I know you are not an attorney. I presume 
you are not, but your work career is presumably with the State 
police?
    Captain Kelenske. Yes, sir.
    Mr. Garrett. So you are familiar with the equal protection 
clause of the Constitution?
    Captain Kelenske. Yes, sir.
    Mr. Garrett. OK. So help me here, because I have been 
trying to wrap my brain around this for a long time. If an 
individual is picked up on a Federal detainer, let's say for 
identity theft, and they are a U.S. citizen, and a locality, 
let's say San Francisco, holds them for Federal pick-up so that 
that detainer can be executed and they can be tried for 
identity theft, that is the execution of justice, right?
    Captain Kelenske. Yes, sir.
    Mr. Garrett. Now, if that same individual happens to be 
here illegally and, therefore, that locality, San Francisco, 
refuses to hold them, have we not violated the equal protection 
clause under the 14th Amendment by virtue of creating a 
different standard by which we apply justice to those who are 
here legally versus illegally?
    Captain Kelenske. Well, what I would say, sir, is that 
States recognize that immigration is a Federal responsibility. 
The Governors ask that the Federal Government continue to work 
with States and localities as partners to address all the 
different components of this very important issue.
    Mr. Garrett. Right. But the equal protection clause 
provides that no State shall deny any person within its 
jurisdiction the equal protection of the law. So if a locality 
chooses to hold someone, a U.S. citizen charged with a 
particular offense, but release someone who is not a citizen 
charged with the exact same offense, does that not violate the 
equal protection right of American-born criminal defendants?
    Captain Kelenske. I don't know if I am prepared to answer 
that question here, sir. I am more than willing to discuss and 
follow up after the fact. Not being engaged with it on a day-
to-day basis, I would be very hesitant to opine.
    Mr. Garrett. Well, you know what, and I will give you 
something of an apology because you kind-of are the guy closest 
to the guy I am looking for, who is not sitting on the dais 
there. But thank you for what you do, all of you.
    The final question, I think I have time, is to Mr. Bland. 
You outlined your 4 standards or you mentioned your 4 
standards. I was wondering if you could articulate what the 4 
standards are that you are hoping that States and localities 
will meet.
    Mr. Bland. Sure. So if you will recall, the National 
commission had those 11 chapters. They were kind-of functional 
areas. Then our follow-up report tackled those 11 chapters. We 
had to walk before we could run, so we took one chapter, which 
was child care and school preparedness, and we said, OK, what 
are the 4 standards that at a baseline States should uphold in 
their regulations for schools and child care?
    It was evacuation and relocation, a reunification plan, a 
relocation site, those are all for child care, and then the 
special needs, as I mentioned before, in child care, and then 
the fourth is for schools, a multi-hazard plan to make sure 
they are not just doing fire, they are doing lockdown drills 
and also preparing for a natural emergency, like a tornado, so 
a multi-hazard plan for schools.
    Mr. Garrett. Thank you. I found it in your publication up 
here thanks to my colleague, Mr. Rutherford.
    Mr. Bland. Yes.
    Mr. Garrett. Very briefly, Mr. Chairman, I would comment 
that the thing that bothered me most from my time on the 
Commonwealth preparedness board in Virginia was that we had 
pretty good plans that none of the citizenry knew about. It is 
hard to implement and execute a plan when there is no 
information disseminated to the end-user, the citizens.
    I yield back my negative 13 seconds.
    Mr. Donovan. The gentleman's time has expired.
    I want to thank the witnesses for their valuable testimony. 
My goal was to get you out of here in an hour and we achieved 
that. I would like to thank my fellow Members of the committee 
for their questions. The Members of the subcommittee may have 
additional questions, as many of us do, for the witnesses. We 
will ask that you respond to those in writing.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:01 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Daniel M. Donovan, Jr. for Chris A. Kelenske
    Question 1. What role do you envision for FEMA's law enforcement 
advisor?
    Answer. Law enforcement plays a critically important role in 
homeland security and emergency management operations. The FEMA law 
enforcement advisor must create clear channels of communication to make 
certain that State and local law enforcement officials are meaningfully 
engaged in the Federal policy-making process. It is imperative that the 
information received from State and local law enforcement officials be 
communicated by the FEMA law enforcement advisor to FEMA leadership to 
ensure there is a clear understanding of how Federal policies will 
impact the law enforcement community Nation-wide.
    Question 2. In order to buy down risk, we need to identify risk. As 
the Threat and Hazard Identification and Risk Assessment (THIRA) 
process matures, are you seeing States better incorporate the input of 
local emergency response providers in their THIRAs?
    Answer. The THIRA is a valuable tool that bolsters State 
preparedness by increasing understanding of risks and ensuring 
necessary investments are prioritized. In Michigan, State officials 
engage with regional urban area coordinators each year to prepare the 
State THIRA and Urban Area Security Initiative THIRA submissions. 
Appropriate subject-matter experts account for known regional and local 
capabilities during assessment meetings. Additionally, Michigan 
officials have implemented a regional THIRA and ``Regional Preparedness 
Report (RPR)'' process for local emergency response providers through 
the creation of Regional Homeland Security Planning Boards. This 
process was initiated in 2016 with formal rollouts in each of the 
State's 7 regions held in early 2017.
    In January 2017, the Michigan State Police Emergency Management and 
Homeland Security Division (MSP/EMHSD) hosted the Texas A&M Engineering 
Extension Service (TEEX) course ``Jurisdictional Threat and Hazard 
Identification and Risk Assessment,'' MGT310, for stakeholders in 
Michigan. The MSP/EMHSD hosted the course free of charge and paid 
lodging expenses for local participants in an effort to attract as many 
participants as possible to ensure an effective THIRA process in each 
region. Following the course, the MSP/EMHSD staff traveled to each 
region to explain the THIRA process to Regional Homeland Security 
Planning Board members. At present, each region has completed or is in 
the process of completing a regional-level THIRA that will be included 
in the State's THIRA submission for 2017. The Regional THIRA and RPR 
have allowed State officials to go a step further in incorporating 
regional and local gaps in the State assessment.
    Question 3. This month marks the fifth anniversary of the enactment 
of the Middle Class Tax Relief and Job Creation Act, which established 
the First Responder Network Authority (FirstNet) with the 
responsibility to develop and implement the Nation-wide public safety 
broadband network. Are you satisfied with FirstNet's outreach to State 
and local first responders to get a true sense of user needs for the 
system?
    Answer. Governors endeavor to partner with the Federal Government 
to ensure the successful build-out and deployment of the public safety 
broadband network. Governors share concerns, however, regarding the 
mandated FirstNet State consultation process. NGA Center for Best 
Practices Homeland Security and Public Safety Division Director Jeff 
McLeod highlighted these concerns while appearing before the Senate 
Committee on Commerce, Science, and Transportation on June 21, 2016, at 
a hearing entitled ``FirstNet Oversight: An Update on the Status of the 
Public Safety Broadband Network.''\1\ During his testimony, Director 
McLeod explained that State officials have described FirstNet State 
engagement as largely focused on satisfying the statutory consultation 
requirement, rather than developing genuine partnerships. Further, 
State officials remain concerned that they are viewed as mere customers 
of an eventual National broadband network.
---------------------------------------------------------------------------
    \1\ Jeffrey S. McLeod, ``Testimony on FirstNet Oversight: An Update 
on the Status of the Public Safety Broadband Network,'' (June 21, 
2016), available at: https://www.nga.org/cms/home/federal-relations/
nga-testimony/hsps-testimony/col2-content/main-content-list/testimony--
firstnet.html.
---------------------------------------------------------------------------
    Meaningful collaboration between FirstNet and States is paramount 
to ensuring the successful build-out of a Nation-wide network. NGA 
representatives delivered a list of recommendations to FirstNet 
officials last fall regarding ways to improve State engagement 
efforts.\2\ NGA officials will continue to encourage FirstNet officials 
to follow through on those recommendations.
---------------------------------------------------------------------------
    \2\ National Governors Association, ``Recommendations for Engaging 
States as Full Partners,'' (November 7, 2016), available at: https://
www.nga.org/ems/home/federal-relations/nga-letters/homeland-security--
public-safety/col2-content/main-content-list/firstnet-
recommendations.html.
---------------------------------------------------------------------------
    In Michigan, over the past year, State officials have been pleased 
to see a more concerted effort by FirstNet representatives to keep 
States informed and engaged in the build-out process through 
invitations to participate in State and association conferences, open 
dialogue between key FirstNet personnel at SPOC meetings, assistance 
with Tribal outreach and face-to-face consultation meetings with State 
public safety leadership. Michigan officials look forward to prompt 
action by FirstNet personnel following the recent court ruling to 
finalize the FirstNet contract award and deliver the plan for 
deployment of the Nation-wide Public Safety Broadband Network (NPSBN) 
in Michigan.
    Michigan officials are confident that the NPSBN for Michigan will 
meet identified objectives; however, it is concerning that 5 years 
following the enactment of the Middle Class Tax Relief and Job Creation 
Act, the Federal Communications Commission and the National 
Telecommunications and Information Administration have not formally 
published the qualifications, procedure, and time line for review of 
the minimum technical interoperability requirements, and demonstrations 
of comparable security, coverage, quality of service, and cost-
effectiveness of the State-owned Radio Access Network in accordance 
with the Act in an opt-out scenario.
Question From Ranking Member Donald M. Payne, Jr. for Chris A. Kelenske
    Question. Captain Kelenske, helping State and local governments 
build and maintain interoperable communications capabilities has been 
one of my biggest priorities since joining this subcommittee. The grant 
program that used to support that capability no longer exists and, as 
you noted, grant funding is not what it used to be. What can FEMA--
working with the Office of Emergency Communications at DHS--do to help 
State and local first responders preserve and build upon the emergency 
communications capabilities they have built?
    Answer. Federal, State, and local governments have invested 
billions of dollars in improving emergency communication networks for 
first responders since the September 11, 2001, terrorist attacks. It is 
imperative for FEMA to continue to provide State and local governments 
the flexibility to allocate limited Federal grant funding to emergency 
communications based on each States' unique needs. Moreover, as the 
FirstNet Nation-wide Public Safety Broadband Network is implemented, 
FEMA officials should remember that legacy land mobile radio systems 
will remain the primary tool for mission-critical voice for the next 
several years. The FirstNet Nation-wide build-out will not immediately 
meet the needs of first responders. State officials must be given 
flexibility to utilize Federal grant funding to maintain and update 
existing radio systems, even as the public safety broadband network 
build-out is finalized. Supporting State and local decisions to apply 
Federal grant funding to existing radio systems will continue to ensure 
seamless communications in the event of a disaster or emergency.
     Questions From Honorable James Langevin for Chris A. Kelenske
    Question 1. When incorporating cybersecurity incident response into 
all-hazards planning, how do you currently work with FEMA?
    What Federal partners beyond FEMA do you work with in these 
efforts?
    Answer. Cybersecurity incidents are integrated into Michigan's 
Disaster-Specific Procedures within the Michigan Emergency Management 
Plan (MEMP). This MEMP provides an organizational and operational 
framework for Michigan officials to mitigate, prepare for, respond to, 
and recover from emergencies, threats, or incidents that could 
adversely impact the State. The MEMP is consistent and compliant with 
the National Incident Management System (NIMS) and generally supports 
recommendations by FEMA. While a cyber incident may be the cause of an 
emergency or disaster, State officials work with FEMA personnel 
regularly to plan for consequences from any event regardless of the 
cause. FEMA personnel provide technical assistance and courses to 
assist with these planning efforts to include development of continuity 
planning for cyber incidents. The State also benefits from assistance 
by FEMA personnel with the development of cyber incident exercises in 
Michigan. These exercises allow State officials to practice Michigan's 
cyber disruption plan with all stakeholders including interaction and 
integration with Federal partners. Federal partners include, but are 
not limited to, the Department of Homeland Security, Federal Bureau of 
Investigation, Department of Energy, Computer Emergency Readiness Team 
(US-CERT), Multi-State Information Sharing and Analysis Center (MS-
ISAC), Department of Defense and FEMA Region V.
    Question 2. How has the National Cyber Incident Response Plan 
changed your cybersecurity planning approach, if at all?
    Answer. In drafting the next revision of Michigan's Cyber Emergency 
Response Plan, State officials will craft it to align with the National 
Cyber Incident Response Plan. State officials will also inform Security 
Operations Center activities based on best practices in the National 
Plan.
    Questions From Chairman Daniel M. Donovan, Jr. for John Sinclair
    Question 1. What expectations do you have for the U.S. Fire 
Administration (USFA) over the next 10 years?
    Answer. The USFA will face a number of challenges over the next 10 
years, especially if it must contend with a declining budget, as is 
expected. In addition, the environment facing the Nation's fire and 
emergency service continues to change.
    For the next 10 years, I would recommend the following goals:
  <bullet> Improve and Sustain the National Fire Incident Reporting 
        System (NFIRS).--The NFIRS plays an important role as a 
        National warehouse of fire data. However, it is an old system 
        and has trouble dealing with the DHS/FEMA IT architecture. In 
        addition, it can be hard to compare the data in my department 
        with data from a similarly-sized fire department. Also, 
        concerns have been raised about its ease-of-use.
    As a 10-year goal, we would like to see NFIRS technology component 
modernized, so it operates better within the DHS/FEMA IT system. We 
also would like to see NFIRS develop a more intuitive system for 
entering data and a better ability for comparative fire data to be 
accessed from the system.
  <bullet> Develop New Courses at the National Fire Academy (NFA) to 
        Address Emerging Issues.--The NFA is the Nation's premier fire 
        service educational institution and its training is developing 
        a new generation of fire service leaders. As new issues emerge, 
        the NFA should teach courses to address these issues. For 
        example, my testimony highlighted the need for NFA to teach 
        courses about information sharing and how to integrate this new 
        discipline into a fire department's mission. In addition, NFA 
        could develop training to address other emerging issues, 
        including how to address firefighter mental health issues; how 
        to mitigate the threat of cancer; and how to foster a diverse 
        workforce to address the changing demographics within the 
        United States.
  <bullet> Address Emerging Fire and EMS Issues.--Over the next 10 
        years, the Nation's fire and emergency service will have to 
        address a number of important issues, where the USFA can 
        provide leadership and guidance. As fire departments link to 
        FirstNet, USFA can help fire chiefs and incident commanders 
        integrate the large flow of new data and information into their 
        standard operating procedures. As the population ages, USFA can 
        help fire departments plan to serve older communities through 
        new concepts in EMS, like community paramedicine. USFA also can 
        help fire departments address personnel issues, like an aging 
        population of volunteers, a more diverse workforce and group of 
        constituents, and the need to recruit new volunteers. In 
        addition, USFA will have to work with DHS and FEMA to develop 
        training and policy guidance to help fire departments respond 
        to emerging terror threats, much like it has developed guidance 
        on responding to active-shooter incidents.
    Question 2. With respect to interoperable communications, your 
testimony highlighted the importance of FEMA's engagement with the 
Office of Emergency Communications (OEC). At this committee's urging 
FEMA signed a memorandum of understanding with the Office of Emergency 
Communications delineating roles and responsibilities for 
communications and grant expenditures. To your knowledge, has this MOU 
led to greater engagement of OEC by FEMA?
    Answer. The MOU has led to greater coordination between OEC and 
FEMA. However, there is currently no existing grant to specifically 
fund emergency communications interoperability, which has led to 
decreased investments in public safety communications. Communications 
is now one of hundreds of eligible investments for a diminished number 
of grants.
    The Interoperable Emergency Communications Program was a stand-
alone grant that was authorized for $400 million a year and 
appropriated at $50 million. It focused on only interoperable 
communications. Having a dedicated grant for emergency communications 
will allow public safety to continue to support communications 
requirements. As you know, FirstNet, while providing public safety with 
much needed mission-critical broadband data, will not provide mission-
critical voice communications. Land mobile radios will continue to be 
used daily by the fire and EMS departments as well as law enforcement 
for years to come. Section 6103 of the Middle Class Tax Relief and Job 
Creation Act (Pub. L. 112-96) requires the FCC to reallocate public 
safety's T-Band spectrum for commercial use, begin auctioning it by 
February 2021, and clear public safety from the band within 2 years 
after the auction closes. This will potentially create a homeland 
security risk and negatively impact interoperable communications in 
those metropolitan areas.
    Question 3. This month marks the fifth anniversary of the enactment 
of the Middle-Class Tax Relief and Job Creation Act, which established 
the First Responder Network Authority (FirstNet) with the 
responsibility to develop and implement the Nation-wide public safety 
broadband network. Are you satisfied with FirstNet's outreach to State 
and local first responders to get a true sense of user needs for the 
system?
    Answer. As a veteran fire chief, and as a firefighter who has 
responded to numerous large-scale events including natural disasters 
and wildland fires, I know first-hand the benefits that the FirstNet 
network stands to offer in terms of improving communications, 
coordination, and situational awareness during public safety 
operations. Just as smartphones have changed our personal lives, 
FirstNet devices and applications ultimately will change the way public 
safety operates. The ability for a single communications network to be 
used to dispatch EMS personnel, a medical helicopter, fire personnel, 
and other emergency responders from different jurisdictions all at the 
same time, while enabling video, text, and data communications at 
broadband speeds will save critical minutes when it matters most.
    As circumstances and technology continue to make our world smaller, 
situational awareness, real-time information, and data are critical to 
the safety of America's fire and emergency service and the public we 
are sworn to protect. In terms of daily operations, America's 
firefighters deal with an increasingly complex environment that 
requires ever-increasing amounts of information and data to keep 
citizens and themselves safe. The FirstNet network will make it 
possible to gain quick access to new tools and applications that 
provide location data and other vital information for firefighting. It 
will enable the exchange of real-time data and audio/video feeds on the 
fireground to assist incident commanders with operational decision 
making and maximize search-and-rescue and fire suppression 
effectiveness.
    FirstNet had an ambitious agenda in 2016 which included expanding 
outreach to involve more local-level first responders; collecting 
actionable information and feedback from Federal, State, and Tribal 
agencies; and preparing decision makers for State plan delivery in 
2017. In 2016, FirstNet connected with more than 40,000 stakeholders 
through outreach activities, including meetings at the IAFC's annual 
conference, Fire-Rescue International, and many IAFC division 
conferences.
    One of the results of FirstNet's efforts has been an increase in 
public safety's awareness, understanding, and preparation for FirstNet. 
FirstNet has seen the types of questions and topics evolve from the 
basics--``What is FirstNet?''--to network operations and availability, 
such as ``When will FirstNet be in my town?'' ``How will FirstNet 
provide coverage in the rural parts of my State?'' ``How much will it 
cost?'' and ``What types of devices and apps will I be able to use?'' 
It is reassuring to see so many State and local public safety officials 
engaged in the process. Their input is invaluable as FirstNet moves 
from planning to implementation and further defining the answers to 
these questions. The Public Safety Advisory Committee (PSAC)--composed 
of representatives from public safety and State, territorial, local, 
and Tribal organizations--continues to provide FirstNet with expert 
advice on key network issues.
    This year will be critical for FirstNet. We are encouraged by the 
progress and partnerships we have seen at all levels of Government to 
prepare for full network deployment, which we expect to begin as soon 
as 2018. The IAFC Board of Directors issued a position statement in 
September, 2016, publicly endorsing and recognizing the importance of 
FirstNet.
  Questions From Ranking Member Donald M. Payne, Jr. for John Sinclair
    Question 1. Chief Sinclair, helping State and local governments 
build and maintain interoperable communications capabilities has been 
one of my biggest priorities since joining this subcommittee. The grant 
program that used to support that capability no longer exists and, as 
you noted, grant funding is not what it used to be. What can FEMA--
working with the Office of Emergency Communications at DHS--do to help 
State and local first responders preserve and build upon the emergency 
communications capabilities they have built?
    Answer. As I have stated, and as your question recognizes, there is 
currently no existing grant to specifically fund emergency 
communications interoperability. This has led to decreased investments 
into public safety communications. Communications is now one of 
hundreds of eligible investments for a diminished number of grants.
    As you know, the Interoperable Emergency Communications Program was 
a stand-alone grant that was authorized for $400 million a year and 
appropriated at $50 million. Having a dedicated grant for emergency 
communications will allow public safety to continue to support 
communications requirements. A key point of which I believe many 
Members in Congress may not be aware is that FirstNet--while providing 
public safety much-needed mission-critical broadband data--will not 
provide mission-critical voice communications. Land mobile radios will 
continue to be used daily by the fire and emergency medical service as 
well as law enforcement for years to come.
    Both FEMA and OEC's budgets are stretched and not having a grant 
program focused on interoperable communications makes the job that much 
harder. Over the last 5 fiscal years, OEC's budget, for example, has 
been cut from approximately $44 million a year to approximately $32 
million a year. The Assuring a Safer America Through Effective Public 
Safety Communications (SAFECOM) program, a bottom-up program between 
public safety and OEC, has had its in-person meetings cut from 4 to 2 
meetings per year. Also, a proposed reorganization last year of the 
National Protection and Programs Directorate would have diminished OEC 
in visibility and importance. Public safety opposed this proposed 
diminution of the office. Everyone understands that there are other 
highly important issues, but being able to have an effective OEC is 
more critical than many recognize. As you know, while not perfect, 
mission-critical interoperable voice communications worked well during 
Hurricane Sandy as compared to wireless carriers' networks. The gains 
that have been made over the years can easily be lost if a focus with 
resources and funding is not maintained.
    The OEC and FEMA can continue with their limited resources to be 
sure the message gets out to emergency responders. Many local 
responders are dealing with diminished budgets at the State, county, 
and local levels. SAFECOM has worked the National Association of State-
wide Interoperability Coordinators, and coordinated with FEMA, to 
provide local responders with information and key documents on 
interoperability. Recently, for example, a SAFECOM presentation was 
provided to help State and local responders educate local officials 
about the budgeting needs for interoperable communications.
    To assist States in improving emergency communications 
capabilities, OEC, in partnership with the National Governors 
Association (NGA) Center for Best Practices, awarded 5 States the 
opportunity to participate in an NGA Policy Academy on Enhancing 
Emergency Communications Interoperability. The 5 States invited to 
participate were Alaska, Hawaii, Illinois, Utah, and West Virginia. The 
NGA believed that interoperable emergency communications are essential 
to effective public safety, response, and recovery operations in the 
wake of disasters. As the emergency communications landscape continues 
to evolve, first responders and public safety agencies are forced to 
rely on systems and equipment that are often incompatible with each 
other. With the continued use of Land Mobile Radio networks for the 
foreseeable future, as well as the build-out of the FirstNet network 
and development of Next Generation 9-1-1 (NG 9-1-1) systems, the need 
for enhanced interoperability is more critical than ever.
    Question 2. Chief Sinclair, FEMA administers both the Assistance to 
Firefighters Grants and the SAFER Grants. Funding for these important 
grant programs has been delayed repeatedly in past years because we 
have not adhered to a regular budget and appropriations schedule. 
Indeed, fiscal year 2017 money is on hold because we have not enacted 
full year appropriations yet. Can you talk about how these funding 
delays affect fire departments across the country?
    Answer. Representative Payne, you raise an important issue. In the 
mid-late 2000s, the AFG application period would start in the spring, 
the SAFER application period would take place in the summer, and the 
Fire Prevention and Safety (FP&S) grant application period would take 
place in the fall. Now that the DHS appropriations bills seem to be 
passing later in the fiscal year, it can be tough for FEMA to hold a 
criteria development meeting; draft and get approval for the grant 
guidance; hold the application process; hold the peer review and award 
the grants within that fiscal year. For example, FEMA has yet to start 
the application process for the fiscal year 2016 FP&S grants.
    This delay in the grant application processes can be a problem for 
local fire departments. They still have to meet their local budget 
deadlines. If the application process is not predictable, it can be 
tough for a fire department to budget for the local match required by 
the AFG, SAFER, and FP&S grants. It would be better if Congress were 
able to pass the DHS appropriations bills by October 1. Then FEMA could 
go back to starting the AFG application process in the spring, the 
SAFER application process in the summer, and the FP&S application 
process in the fall.



      THE FUTURE OF FEMA: RECOMMENDATIONS OF FORMER ADMINISTRATORS

                              ----------                              


                       Tuesday, February 28, 2017

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Daniel M. Donovan, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Donovan, Rutherford, Garrett, 
Payne, Thompson, and Watson Coleman.
    Mr. Donovan. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony on the 
efforts necessary to ensure a strong and effective Federal 
Emergency Management Agency. I now recognize myself for an 
opening statement.
    Today's hearing is the second in a series of hearings on 
the future of FEMA and an effort to help set the next 
administrator up for success. Earlier this month, the 
subcommittee received testimony from FEMA's stakeholders to 
hear first-hand about the critical relationship between FEMA 
and first responders at the State and local level.
    FEMA's success is directly related to the relationships the 
agency has with State and local partners to promote a culture 
of preparedness within communities. Part one of this series of 
hearings reinforced the need for an experienced emergency 
manager to lead FEMA.
    Today's distinguished and weather-tested witnesses know 
better than anyone the significant transformation FEMA has made 
in achieving and maintaining National preparedness and response 
capabilities over the past 12 years. Both administrators were 
responsible for implementing about 350 individual requirements 
enacted by Congress in the Post-Katrina Emergency Management 
Reform Act.
    With the tools Congress gave them, they took steps to 
ensure FEMA developed and implemented the complex National 
preparedness system made up of Federal, State, local, private, 
and non-profit emergency management partners. Significant 
resources have been invested at all levels of Government to 
reach the current level of National preparedness.
    As we move forward, those in positions of authority have an 
obligation to build on the critical progress that has been 
made. This subcommittee has consistently followed FEMA's 
progress.
    Without strong leadership in place, FEMA would not have 
achieved the level of transformation currently in place. The 
FEMA of 2005 is not the FEMA of 2017, and that is a very good 
thing.
    Looking to the future in working with FEMA, its 
stakeholders, and our colleagues in Congress, it is this 
subcommittee's intention to ensure the FEMA of 2017 is 
continuing to make the United States safer and stronger.
    Those watching this hearing know that the threats to the 
United States continue to grow and evolve. Since our last 
meeting the number of major disasters declarations that were 
made this year have nearly doubled.
    We must ensure that the investments we make today will work 
to better address the threats and hazards we face tomorrow. 
Whether it is ensuring first responders have the necessary 
training to prevent a terrorist attack with mass casualties 
like we saw in San Bernardino, or notifying communities to 
prepare for the next Superstorm Sandy, FEMA must remain at the 
top of its game.
    We are fortunate to have Administrator Fugate and 
Administrator Paulison here with us this afternoon. We look 
forward to hearing their insights and lessons learned that can 
be shared with the next leader of FEMA.
    [The statement of Chairman Donovan follows:]
                Statement of Chairman Daniel M. Donovan
                           February 28, 2017
    Today's hearing is the second in a series of hearings on the future 
of FEMA and an effort to help set the next administrator up for 
success. Earlier this month, the subcommittee received testimony from 
FEMA's stakeholders to hear first-hand about the critical relationship 
between FEMA and first responders at the State and local level.
    FEMA's success is directly related to the relationships the agency 
has with State and local partners to promote a culture of preparedness 
within communities. Part one of this series of hearings reinforced the 
need for an experienced emergency manager to lead FEMA.
    Today's distinguished and weather-tested witnesses know better than 
anyone the significant transformation FEMA has made in achieving and 
maintaining National preparedness and response capabilities over the 
past 12 years. Both administrators were responsible for implementing 
about 350 individual requirements enacted by Congress in the Post-
Katrina Emergency Management Reform Act. With the tools Congress gave 
them, they took steps to ensure FEMA developed and implemented the 
complex National Preparedness System made up of Federal, State, local, 
private, and non-profit emergency management partners. Significant 
resources have been invested at all levels of government to reach the 
current level of National preparedness. As we move forward, those in 
positions of authority have an obligation to build on the critical 
progress that has been made.
    This subcommittee has consistently followed FEMA's progress. 
Without strong leadership in place, FEMA would not have achieved the 
level of transformation currently in place. The FEMA of 2005 is not the 
FEMA of 2017, and that is a very good thing.
    Looking to the future, and working with FEMA, its stakeholders, and 
our colleagues in Congress, it is this subcommittee's intention to 
ensure the FEMA of 2027 is continuing to make the United States safer 
and stronger.
    Those watching this hearing know that the threats to the United 
States continue to grow and evolve. Since our last hearing, the number 
of major disaster declarations this year has nearly doubled. We must 
ensure that the investments we make today will work to better address 
the threats and hazards we face tomorrow. Whether it is ensuring first 
responders have the necessary training to prevent a terrorist attack 
with mass casualties, like we saw in San Bernardino, or notifying 
communities to prepare for the next Superstorm Sandy, FEMA must remain 
at the top of its game.
    We are fortunate to have Administrator Fugate and Administrator 
Paulison here with us this afternoon. We look forward to hearing their 
insights and lessons learned that can be shared with the next leader of 
FEMA.

    Mr. Donovan. The Chair now recognizes the gentleman from 
New Jersey, my friend, Mr. Payne, for an opening statement that 
he may have.
    Mr. Payne. Good afternoon. I would first like to thank 
Chairman Donovan for holding today's hearing. I would also like 
to thank former Administrator Paulison and former Administrator 
Fugate for being here today, and I don't ever remember such 
bigger smiles in our last few times in front of each other than 
now. I wonder why. You know. Also for being here today and 
subjecting themselves to a Congressional hearing even though 
after leaving Government.
    Earlier this month, the subcommittee asked various 
stakeholders to provide their insights on what FEMA is doing 
well and what issues the next FEMA administrator must address.
    I was pleased that in general the stakeholder community had 
positive things to say about how FEMA is carrying out its 
emergency preparedness mission and the manner in which it 
engages with its State, local, and non-Governmental partners 
before, during and after disaster strikes. Every witness that 
testified before the panel earlier this month identified FEMA's 
continued engagement with the stakeholder community as its top 
priority.
    Although it is unclear to what degree, if at all, the new 
administration has engaged with State, local, and non-
Governmental partners on issues related to disaster 
preparedness and response, I am hopeful FEMA's outreach and 
coordination will continue once the administration has named a 
permanent FEMA administrator. I hope that the administration 
will name a permanent administrator soon.
    The witnesses also testified regarding the progress FEMA 
has made encouraging State and local governments to ensure that 
the unique needs of children and individuals with disabilities 
are integrated into emergency planning, training, and 
exercises.
    Save the Children in particular lauded FEMA's efforts to 
tackle the challenges involved in ensuring that emergency plans 
are designed to accommodate children and express support for 
making Children's Technical Expert a permanent position at 
FEMA.
    On the day of September 11 attacks, I was responsible for 
student transportation, essentially ensuring that 10,000 
children made it home from school safely each day. On that day, 
my last student did not get home until 11:30 at night because 
of the attack. Now, we have made a lot of progress integrating 
children into disaster planning activities since then, but we 
must do better.
    As Save the Children pointed out earlier this month, 80 
percent of the recommendations made by the National Commission 
on Children and Disasters in 2010 remain open. I commend 
Administrator Fugate for accepting the FEMA National Advisory 
Council's recommendations to designate a children's technical 
expert to ensure that children remain a priority in disaster 
preparedness, response, and recovery planning.
    I hope to work with members of this panel to formally 
authorize FEMA's children's technical expert this Congress. 
Once again, I want to thank both of you for being here today 
and I look forward to your testimony.
    With that, I yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                           February 28, 2017
    Good morning. I would like to thank Chairman Donovan for holding 
today's hearing.
    I would also like to thank former Administrator Paulison and former 
Administrator Fugate for being here today--and subjecting themselves to 
a Congressional hearing even after leaving Government.
    Earlier this month, this subcommittee asked various stakeholders to 
provide their insights on what FEMA is doing well and what issues the 
next FEMA administrator must address.
    I was pleased that, in general, the stakeholder community had 
positive things to say about how FEMA, under the Obama administration, 
carried out its emergency preparedness mission and engaged with its 
State, local, and non-Government partners before, during, and after 
disaster strikes.
    Each witness that testified before the panel earlier this month 
identified stakeholder engagement as a top priority for the incoming 
administration.
    I am hopeful that FEMA's outreach and coordination will continue 
once a new administrator takes the helm at FEMA and that President 
Trump will act swiftly to nominate a new person with the wealth of 
experience that the past two administrators before us today had.
    Over the past month, we have seen infrastructure failure compound 
the impact of heavy rain at the Oroville Dam spillway and a spike in 
vandalism Jewish Cemeteries and harassment at Jewish Community Centers.
    At the same time, Federal support for emergency responders has 
become uncertain in light of President Trump's politically-charged 
Executive Order that could render communities ineligible for certain 
DHS grants.
    First responders and their community partners need a steady hand at 
the helm of FEMA to provide guidance and clarity on how the 
administration's policies will affect them.
    And the administration needs the expertise of a FEMA administrator 
who can ensure that any future infrastructure development proposals 
include adequate resiliency measures.
    I look forward to a new administrator carrying the torch on many of 
the important issues the previous administrators made progress in 
addressing.
    In particular, earlier this month, Save the Children lauded FEMA's 
efforts to tackle the challenges involved in ensuring that emergency 
plans are designed to accommodate children and expressed support for 
making the ``Children's Technical Expert'' a permanent position at 
FEMA.
    On the day of the September 11 attacks, I was responsible for 
student transportation, essentially ensuring that 10,000 children made 
it to and from school safely each day.
    On that day, my last student did not get home until 11:30 at night 
because of the attack.
    We have made a lot of progress integrating children into disaster 
planning activities since then, but we must do better.
    As Save the Children pointed out earlier this month, 80 percent of 
the recommendations made by the National Commission on Children and 
Disasters in 2010 remain open.
    I commend Administrator Fugate for designating a ``Children's 
Technical Expert'' to ensure that children remain a priority in 
disaster preparedness, response, and recovery planning.
    I hope to work with Members of this panel to formally authorize 
FEMA's Children's Technical Expert this Congress.
    I thank both of you for being here today, and yield back the 
balance of my time.

    Mr. Donovan. The gentleman yields the remainder of his 
time.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from Mississippi, Mr. Thompson for any 
statement that he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman. In the 
interests of waiting to hear our two former FEMA directors' 
comments, I will put my statement in the record and just let me 
thank both of them for their years of service. I can tell from 
their looks they are in a better place.
    I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 28, 2017
    Good morning. I appreciate Chairman Donovan and Ranking Member 
Payne for holding today's hearing so the committee can continue to 
examine FEMA.
    I would also like to thank Former Administrator Paulison and Former 
Administrator Fugate for being here today.
    At the outset, I would like to acknowledge the important 
contributions both Former Administrator Paulison and Former 
Administrator Fugate made toward restoring FEMA's competence and 
reputation.
    I served as Ranking Member of the full committee when Hurricanes 
Katrina and Rita devastated the Gulf Coast, and as Chairman as the 
long, protracted recovery process began.
    A little over a decade has passed, and I am proud to say that FEMA 
is not the same agency it was in late summer 2005.
    You both are to thank for that.
    Since Hurricane Katrina, we have seen improvements in how we 
integrate vulnerable populations into emergency plans, first responder 
interoperable communications capabilities, and proactive disaster 
response activities--from pre-positioning supplies to expedite disaster 
response, to establishing recovery doctrine to ensure that roles and 
responsibilities among Federal, State, local, and private-sector 
partners are clear.
    We reaped the benefit of the authorities set forth in the Post-
Katrina Emergency Management Reform Act following Hurricane Sandy in 
2012, but the aftermath of this devastating storm illustrated that 
challenges still remained.
    Congress--working with FEMA--passed the Sandy Recovery Improvement 
Act, which gave FEMA flexibility to expedite aide and hazard mitigation 
to disaster survivors, among other things.
    The important progress FEMA has made in carrying out its mission 
since Hurricane Katrina demonstrates the good that can come of a 
positive relationship between Congress and FEMA.
    Despite the well-documented progress FEMA has made since 2006, 
there are still challenges that undermine FEMA's ability to carry out 
its mission.
    FEMA's workforce morale problems are well-documented.
    In the past, I have expressed concern regarding the state of FEMA's 
disaster workforce with respect to both its training and size.
    The last time Administrator Fugate testified before this 
subcommittee in October 2015, I asked whether our reserve workforce was 
as robust as it would need to be to respond to a disaster the scale of 
Hurricane Katrina.
    At the time, Administrator Fugate candidly told the subcommittee 
that ``We're not there,'' because of changes to the disaster workforce 
program, limited deployment and training opportunities, and limited 
retention mechanisms.
    I am interested in understanding what progress FEMA has made in 
bolstering its disaster workforce since 2015 and how Congress can help 
FEMA continue that progress.
    I also share concerns Administrator Fugate has expressed in his 
written testimony regarding the politicization of disasters and the 
impact of the irregular budget and appropriations cycle.
    As we speak, it is unclear who will be able to receive grant funds 
under the President's ``sanctuary cities'' Executive Order, and the 
Federal Government is operating under a continuing resolution until at 
least April 28.
    This kind of uncertainty and unpredictability undermine progress, 
and I will be interested in hearing our witness' thoughts on how to 
address these troubling issues.
    Once again, I thank the witnesses for being here today, and I yield 
back the balance of my time.

    Mr. Donovan. Sure. The gentleman yields back. Other Members 
of the committee are reminded that opening statements may be 
submitted for the record.
    We are pleased to have very distinguished members of the 
panel today before us on this very important topic. Craig 
Fugate served as the administrator of FEMA from May 2009 to 
January 2017.
    Prior to leading FEMA he served as director of the Florida 
Division of Emergency Management. During this time, he served 
as the Florida State coordinating officer for 11 
Presidentially-declared disasters, including the management of 
$4.5 billion in Federal disaster assistance.
    Administrator Fugate began his emergency management career 
as a volunteer firefighter, paramedic, and a lieutenant with 
the Alachua County Fire Rescue. Craig, they put it in phonetic 
spelling for me.
    David Paulison served as the administrator of FEMA from 
September 2005 to January 2009. He served as administrator of 
the United States Fire Administration from 2001 to 2005. During 
this time he also served as the director of preparedness at 
FEMA from 2003 to 2004.
    Additionally, he spent 30 years in the fire service and 9 
years as fire chief of Miami Dade County, Florida where his 
responsibilities included the Office of Emergency Management 
and the Urban Search and Rescue team.
    The witnesses' full written statements will appear in the 
record. I thank you both for attending today and for the input 
you will have to further this agency to better protect our 
country.
    The Chair now recognizes Administrator Fugate for 5 
minutes.

  STATEMENT OF W. CRAIG FUGATE, FORMER ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and Ranking Members. I 
always thought I was smiling at our hearings. I always thought 
we had good conversations, even when I was in a bit of a hot 
seat, but I always enjoyed it.
    Mr. Chairman, you said I think something that is important. 
What are the things that we are currently doing or not doing 
that we need to codify in legislation? So I want to start off 
with where we began with the Post-Katrina Emergency Management 
Reform Act.
    A lot of people define FEMA by the Stafford Act, and I 
think that is short-sighted. The real authorization of FEMA 
came out of the Homeland Security Act as amended, and first of 
all, required that that FEMA administrator be a professional, 
have that background. This is not a good job to do on-the-job-
training. It is too brutal and the citizens deserve better.
    The second thing was it is all-hazards. Most people think 
of FEMA when you get a declared disaster from the Stafford Act. 
Yet in my time at FEMA, we supported the USAID's response to 
Haiti. We supported border and custom protection with 
unaccompanied children across the Southwest Border. We 
supported the Center for Disease Control during the Ebola 
outbreak.
    These were all capabilities that were enabled and 
authorized by that act that FEMA can serve as the crisis 
manager for the Federal Government, not just in support to 
States and local governments during disasters.
    So that is one of the things we have learned is you have 
invested a lot of money in the organization. We don't always 
make utilization of it because we define it by natural hazards 
instead of disasters and crisis management require certain 
skill sets that unless you are doing it frequently, you are not 
always proficient at it.
    So in looking at some of the ways that FEMA was used to 
support other agencies, this is not about putting FEMA in 
charge. It is about FEMA and its support role to either a State 
or a Tribal executive or to a lead Federal agency. Has a lot of 
capabilities, and I think we, in times of cutting budgets and 
looking at how to get better efficiencies, we should not 
overlook the fact that FEMA should not be defined by the 
Stafford Act.
    It should be defined by the all-hazards mission as a 
support agency to either the Governors or Tribal executives 
when they request assistance, or Federal agencies who may have 
a lead in a disaster, but may not always have the immediate 
staffing required to manage that in the onset.
    The second thing I wanted to--other than Post-Katrina 
Reform Act--is what we were doing at FEMA, and I think you 
kind-of mentioned it in looking at various constituency groups 
was really emphasizing something we called the whole of 
community, but it is short-hand for this.
    We need to plan for the communities we live in, not what 
fits our plan. If you have to write in the index because you 
have elderly folks that you can't meet through your plan, if 
you have children and you got to write in the index for the 
children because you don't plan for children in your shelters, 
if you have to write in the index for people with disabilities 
because they cannot get your emergency communication because 
you are not anticipating that there may be deaf or hard-of-
hearing or visually-impaired people, if you are assuming 
everybody has got a car and can drive, then who did you really 
plan for?
    So we tried to change our doctrine, move to this idea that 
we should be planning for the communities we live in, not what 
fits our plan.
    So Ranking Member Payne, I very strongly support and I have 
talked to the, you know, the Save the Children. By practice we 
have a child advocate because sometimes I think in FEMA you got 
to shine a light on problems to keep visibility on it because 
it is not something that is in the DNA yet. I would strongly 
support moving that from something we were doing to something 
that Congress agrees with and would direct.
    But it really comes back to this idea that there are some 
basic principles that get us in trouble. If you go back to 
Hurricane Andrew, you go back to Katrina, you know, we always 
like to talk about individuals. I don't think it was 
individuals. Here is what really happened.
    We as a Nation, State and local governments made a decision 
to plan for what we were capable of doing or what we were 
willing to spend money on, and then hope it was never any worse 
and that our systems would scale up. And they don't.
    You have to plan what can happen. That is not always going 
to be based upon your history or your experiences. So we at 
FEMA began changing the discussion to not what we are used to 
doing or what we are capable of doing, but planning against 
things that can happen.
    Planning for the communities we live in, not what fits our 
plan, and moving us out of our comfort zone. At that whole time 
at FEMA, we didn't come to you and say we need new money. It 
was about utilizing our resources against problems and 
recognizing that Government-centric solutions may not always be 
the answer.
    You have to give a seat to the table for your NGO's and 
volunteers, but also the private sector who too oftentimes are 
kept at arm's length in our planning. In many cases we have 
greater issues with bringing the private sector in than we do 
with separation of church and State.
    So basically we have to plan for what can happen, not what 
we can afford. It doesn't always mean more Federal dollars. It 
means more inclusion of all of our community resources. The 
most important thing is we should never make our community fit 
our plans. Our plans should be inclusive, not exclusive to the 
citizens who we serve.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fugate follows:]
                 Prepared Statement of W. Craig Fugate
                           February 28, 2017
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the subcommittee, thank you for the invitation to appear before you 
today as you continue your work to provide recommendations to the next 
administrator of the Federal Emergency Management Agency (FEMA).
    I had the honor of being selected by President Obama to lead FEMA 
and served as the Agency's administrator from May 19, 2009, until 
January 20, 2017. Immediately before my time at FEMA, I served as 
director of the State of Florida's division of emergency management for 
former Governors Jeb Bush and Charlie Crist, from 2001 until 2009. 
Prior to that, I served in various emergency management and first-
responder roles at the local and county government level in Florida.
    Having watched your February 14 hearing with State, local, and non-
profit stakeholders providing their recommendations to the next 
administrator, I generally agree with what the witnesses had to say.
    My testimony today is going to focus on some larger issues that I 
believe the incoming administrator must be aware of in order to 
succeed: Protecting the Agency's authorities; ensuring adequate funding 
for Federal disaster relief; preserving the commitment of the Federal 
Government in the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act to States and Tribes; and ensuring that the Federal 
Government is properly investing in resilience and not subsidizing 
risky behavior.
    First and foremost, emergency management should never be partisan, 
but disasters will always get politicized. As we have seen time and 
again, disaster strikes regardless of political affiliation. It is the 
job of emergency managers at all levels of government--State, local, 
Tribal, territorial, and Federal--to work with the whole community to 
successfully manage the consequences of any disaster or hazard event.
    It's vitally important that the new leadership team at FEMA 
understands the unique relationship of FEMA during times of crisis in 
support of States and Tribes, at the direction of the President and per 
the Stafford Act. Additionally, the FEMA administrator has a unique 
operational relationsip among Department of Homeland Security (DHS) 
components to report directly to the President during times of crisis, 
as Congress mandated in the Homeland Security Act as amended by the 
Post-Katrina Emergency Management Reform Act (PK-EMRA, Pub. L. 109-
295).
    Despite its primary responsibility to Governors and Tribal leaders 
who can request Federal assistance from the President, the agency is 
wholly reliant on the Congress for its authorities and appropriations. 
I cannot speak for my predecessors, but FEMA was relatively effective 
during my term as administrator when it came to Congressional 
engagement and successful when there was a need for legislative action. 
I'd encourage my successor and his or her leadership team to continue 
that relationship with the Congress in good faith.
    In my time at FEMA, there was not a single year when FEMA operated 
under an on-time appropriation. That year-to-year instability--while 
consistent--makes running the organization more challenging.
    When Chief Paulison was tapped to lead the agency in 2005, it was 
in the days immediately following Katrina's impact along the Gulf Coast 
and there were clear failures at all levels of Government in the 
response to that event. In the aftermath of Katrina, Congress conducted 
vigorous oversight of the Federal Government's response to Katrina.
    The outcome of this oversight was PKEMRA. It was landmark 
legislation drafted, debated, and ultimately enacted, out of 
frustration with FEMA's performance in response to Hurricane Katrina.
    Congress designed PKEMRA to support and strengthen FEMA, and its 
sweeping restructuring requirements benefited the agency greatly. 
Today, FEMA has the authority and the autonomy it needs to assist 
communities as they prepare for, protect against, respond to, recover 
from, and mitigate against all potential hazards.
    In 2005 when Katrina struck, FEMA was no longer an autonomous 
agency. As a part of the 2-year-old Department of Homeland Security, 
FEMA's programs were split apart. Most of its disaster assistance 
activities were inside DHS' Emergency Preparedness and Response 
Directorate (EP&R) while FEMA's other programs were siloed elsewhere 
throughout the Department.
    Congress used PKEMRA to permanently restructure FEMA's functions 
back under a single operating component to improve the Federal function 
of emergency management.
    PKEMRA required FEMA to be a distinct entity and prohibited--by 
statute--any future changes to FEMA's mission by the Department. The 
law also returned the Preparedness Directorate to FEMA, including the 
Fire Administration, and the programs under the Office of Grants and 
Training.
    Congress also made permanent changes to FEMA leadership. PKEMRA 
mandates that to hold the position of FEMA Administrator, certain 
qualifications and experience are necessary (6 U.S.C.  313(c)2). In 
addition, PKEMRA ensures that the FEMA administrator is the principal 
advisor to the President on all matters relating to emergency 
management that the administrator is assured a seat in the Cabinet, as 
required (6 U.S.C.  313(c)4 and 6 U.S.C.  313(c)5).
    PKEMRA was enacted just 13 months after Katrina made landfall. It 
was under Chief Paulison's leadership that the agency began the tasks 
necessary to rebuild the agency.
    Unfortunately, as recently as last year, there were attempts to 
undermine the protections Congress provided FEMA in PKEMRA when the 
full House Homeland Security Committee advanced ``Unity of Effort'' 
legislation with the intent of giving the Secretary of Homeland 
Security more control over the various operating components of the 
Department.
    While some language was ultimately added to preserve the PKEMRA 
protections in the language that was added to the National Defense 
Authorization Act, future agency leadership should be aware that there 
are still efforts in Congress and at the Department that would hinder 
FEMA's abilities to effectively respond, especially to a catastrophic 
event such as a Cascadia Subduction Zone or New Madrid earthquake.
    The other great challenge that the agency faces in the coming years 
is budgetary.
    Following the enactment of the Budget Control Act (BCA), FEMA 
became an extremely lean operation; outside of the Disaster Relief Fund 
(DRF), there's not much fat left to trim. We took sequestration 
seriously and looked at ways to maximize organizational efficiencies 
without sacrificing the agency's mission essential functions.
    As for the DRF, the BCA was actually a short-term boon. Prior to 
BCA, the DRF had been inadequately funded through the regular 
appropriations process. Instead, the agency relied on supplemental 
appropriations bills to be quickly enacted in the wake of significant 
events to replenish the DRF and fund recovery from emergencies and 
disasters.
    In 2011, as the agency was responding to Hurricanes Irene and Lee, 
the balance in the DRF got so low that the agency implemented 
``immediate needs funding'' (INF), meaning States and locals that were 
expecting FEMA funds to pay for recovery work stopped receiving Federal 
dollars. The agency had barely enough money to pay for on-going 
response activities and had to stop funding recovery in communities all 
across the Nation.
    Appropriators knew that INF was a potential problem and the 
situation led to a formula being included in the Budget Control Act 
that would provide more stable and significant funding to the Agency 
based on a rolling 10-year average of disaster response and recovery 
costs.
    This worked well for several years, but once the years that 
included Katrina, Rita, and Wilma dropped off the formula's average, 
the annual appropriation for the DRF ratcheted down.
    At the end of fiscal year 2016, the agency successfully managed 
response and recovery spending to the point that--even with Hurricane 
Matthew bearing down on the southeastern United States--FEMA still had 
adequate funds to get through the fiscal year appropriation under which 
the Federal Government was operating without the need for a 
supplemental appropriation expressly for the DRF.
    At the close of fiscal year 2016, there was less than $100 million 
in the portion of the DRF set aside for major disasters. To put that in 
perspective, FEMA spent $1 billion in the first month following Sandy's 
landfall, so $100 million would not have lasted long had there been 
another significant disaster in addition to Matthew prior to the 
expiration of the fiscal year.
    In the Budget Control Act framework, Congress designed a fail-safe 
for supplemental disaster spending that would count toward the DRF's 
formula and then another fail-safe for ``emergency'' spending beyond 
the disaster space that would not count toward the DRF formula, but the 
subcommittee is likely very aware of the difficulty to pass any 
appropriations measure in regular order.
    Following Sandy, the 112th Congress adjourned after its disaster 
supplemental attempt was blocked. It took the newly-installed 113th 
Congress 3 weeks to pass a supplemental to replenish the DRF. While 
FEMA had the resources needed to continue with response and recovery 
operations, there were many Federal departments an agencies with 
disaster-related recovery needs that were left unfinished while needed 
funds were debated and ultimately appropriated by the Congress.
    Congress must re-evaluate the formula that drives the DRF's annual 
appropriation as well as the potential budgetary space beyond the 
appropriation for disaster supplementals, and then the space for 
``emergency'' supplementals beyond the disaster supplemental space.
    This disaster supplemental space also became an area of contention 
during the last few years as the House Natural Resources Committee 
looked for ways to fund wildfire suppression on Federal lands for the 
Department of Agriculture (USDA) and the Department of the Interior 
(DOI).
    Congress must not amend the Stafford Act to provide a Presidential 
declaration for an event that would give a Federal department or agency 
access to the Disaster Relief Fund or the disaster budget space to meet 
their own mission. Congress established the Stafford Act framework of 
Federal assistance expressly to support State, local, Tribal, and 
territorial governments, not to serve as a backstop for legislative 
gridlock preventing an appropriations and budgeting solution to 
challenges that other Federal entities may face.
    In November 2016, the Obama administration proposed a legislative 
fix that would have solved the issues that USDA, DOI, and DHS/FEMA all 
faced, but Congress did not act on the proposal given the reluctance to 
amend the Budget Control Act.
    It is imperative that this issue is dealt with soon, otherwise you 
and your colleagues will again be forced to debate supplemental 
disaster appropriations bills on a recurring basis, all while FEMA's 
ability to respond and recover is hindered.
    This leads to the issue of the Federal Government subsidizing risky 
behavior that ultimately drives the need for increased spending for 
disaster relief. It does so with significant Federal investment in 
infrastructure that is not built with resilience in mind--the ability 
for it to quickly recover from known and predictable hazards--and the 
Congress enables it via the statutorily-mandated National Flood 
Insurance Program (NFIP).
    Whether this administration and Congress want to chalk it up to 
climate change or not, the Federal Government is spending billions of 
dollars annually to deal with the effects of extreme weather and not 
nearly enough to combat future risk. I've included for the record an 
op-ed published in The Hill on January 30, 2017 which highlights a few 
of the many significant examples.
    The solution is easy: Factor in building for resilience on the 
front-end of these Federal investments. There's a four-to-one benefit 
cost to the taxpayer and the outcome is that disaster relief spending 
should ultimately be reduced in the out years because it costs 
significantly less to fund recovery for resilient construction 
following a disaster.
    As for the NFIP, the Congress tried to charge all policy holders 
rates that reflect their true risk of flooding with the passage of 
Biggert-Waters Flood Insurance Reform Act of 2012. It then repealed 
those changes less than 2 years later when interest groups waged a 
campaign alleging wide-spread premium increases of tens of thousands of 
dollars.
    While there were a handful of policy holders who may have 
legitimately seen very high premiums, it was because their properties 
were in extremely high-risk areas. The Federal Government has been 
subsidizing that risk and incentivizing future risk in areas we know 
will be impacted by extreme weather and sea-level rise.
    Another difficult conversation that the Congress must have about 
risk subsidization regards the affordability of the NFIP for its 
policyholders. When the Congress established the NFIP, it did so to 
create a risk backstop for the mortgage industry; it was not looking at 
future development or the fact that the Federal Government was going to 
be running an insurance company for a pool of high-risk policy holders.
    While the NFIP has many policy holders who can afford to live in 
high-risk areas in desirable coastal communities, there are many other 
policy holders who live in or near floodplains because they are lower 
income and that is where affordable housing is located inland.
    The NFIP must be reauthorized by the end of fiscal year and I hope 
that the committees with jurisdiction over the program will take into 
consideration the findings of the National Academies of Sciences, 
Engineering, and Medicine--which Congress commissioned to study the 
matter to better inform the Congress on premium affordability--ahead of 
the next major reauthorization.
    The FEMA team today is fully aware of past shortcomings, current 
challenges, and is continually assessing itself and making 
improvements.
    The agency's mission is to support our citizens and first 
responders to ensure that as a Nation we work together to build, 
sustain, and improve our capability to prepare for, protect against, 
respond to, recover from, and mitigate all hazards. That serves as a 
guide to the entire staff on any given day and should also provide 
focus to the next administrator.
    Further, it's important that the incoming administrator not get 
bogged down in bureaucracy. My parting advice for the FEMA team was to 
continue going big, going early, going fast, and being smart about it. 
The agency currently has the authorities and resources needed for 
success, but they are both in jeopardy. It is vitally important for the 
next administrator to continue building upon the strides the agency has 
made since Katrina and working with Congress to ensure authority and 
funding are not diminished.
    Challenges in emergency management are a constant. Also, failure is 
not an option and is not well-received by the American public; we've 
seen time and again how failures related to Federal emergency 
management contribute to or even establish a narrative of ineffective 
leadership of a President. The next FEMA leadership team must continue 
leaning forward, pushing the agency to improve outcomes for disaster 
survivors, planning and training for the unimaginable, and enhancing 
the capabilities of the whole community that is essential to 
successfully accomplishing the emergency management mission.

    Mr. Donovan. Thank you, Mr. Fugate.
    Before I ask Mr. Paulison for his opening statement to let 
you know this committee is not about wasting people's time. All 
of the testimony that we gather here and what we gathered in 
the first hearing will be compiled in some type of report that 
we will give to the new administrator so that they are aware, 
she or he are aware of your recommendations and give them a 
starting point. So I thank you for your input.
    The Chair now recognizes Administrator Paulison for 5 
minutes.

   STATEMENT OF ROBERT DAVID PAULISON, FORMER ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Paulison. Chairman Donovan, Ranking Member Payne and 
the distinguished Members of the panel, I want to thank you for 
holding this hearing. It is very important for us for the 
future of FEMA, and so I thank you for the opportunity to allow 
me just to share some of my ideas and hopefully assist in the 
goals of this committee.
    Some of my ideas may be controversial, but I wish this 
panel would hear them out and consider those, because I have 
over 40 years of experience dealing with natural disasters at 
the Federal, State, and local levels. I have a very deep 
appreciation of our tremendous service of our Nation's first 
responders and our emergency management officials.
    This has really given me a unique understanding of the 
inherent problems of our Nation's disaster preparedness and 
response system, how we can better positon FEMA to respond when 
disaster strikes. This understanding is largely influenced by 
my experience first-hand in the aftermath of multiple 
catastrophic disasters. I clearly remember the devastation of 
both Hurricane Andrew in 1992 and Hurricane Katrina in 2005.
    It is through this lens that I sit here today to tell you 
that the United States must reform its disaster spending model 
to save lives and property, and I think the first step we must 
take is consolidating disaster spending under FEMA.
    Following the Presidential disaster declaration, FEMA and a 
vast array of other agencies are engaged to distribute Federal 
relief funds. In the case of Hurricane Sandy, there were over 
19 different agencies involved, and not only was this response 
fragmented and confusing for the disaster-stricken communities 
I work with, but it was also highly ineffective.
    To fix this, my recommendation is to give the FEMA 
administrator control over disaster response spending. FEMA now 
uses the cost/benefit analysis, which is a strict numerical 
assessment, to determine where the benefits of a project are 
sufficient to justify the cost in implementing it.
    If we consolidate the disaster spending through FEMA that 
will significantly reduce our post-disaster waste. But I think 
more importantly than that is stopping the damage and loss of 
life in the first place.
    Natural disasters are rapidly increasing in frequency and 
severity. Between 1996 and 2005 there were on average only 39 
disaster declarations a year. That number has more than tripled 
now in the last two decades, and now we average over 121 
declared disasters a year.
    These disasters come at an enormous price tag. Since 1980, 
the United States has been struck by over 200 natural disasters 
that cost more than $1 billion a year each. The cost of these 
events has now been over $1 trillion we have spent just since 
1980. The taxpayers are on the hook for these expenses that we 
repeatedly put more and more exorbitant disaster recovery 
stuff.
    As American lives continue to be put on the line and 
Federal disaster spending skyrockets, United States needs to 
assess what we can do before the disaster strikes. Adoption and 
enforcement of model State-wide building codes is an essential 
step in this process.
    In fact, a study conducted by the LSU Hurricane Center 
estimated that model codes would have reduced wind damage by 
Hurricane Katrina by over 80 percent, as well as saved over $8 
billion just by having model building codes in place.
    So instead of spending money on the front end to improve 
resiliency of structures, preventing the monumental damage I 
witnessed during my career, the United States continues to 
build insufficient codes that leave our communities vulnerable 
to future disasters. This result is an unnecessary loss of life 
and an incredible destruction. That is why I strongly believe 
that the United States must balance its broken disaster 
spending model.
    I also believe that when you can begin leveraging our cost-
saving power or pre-disaster mitigation by shifting significant 
Federal resources from post-disaster reactive and wasteful 
spending to preventive mitigation that will bend the runaway 
Federal cost curve for disasters.
    The Federal level shift toward pre-disaster mitigation must 
be supported by a corresponding shift at the State level. This 
can be accomplished by creating a couple programs to 
incentivize the States to do a better a job at their level.
    We need to create a post-disaster hazard mitigation grant, 
and I recommend that we give those States 4 extra percentage 
points on the post-disaster side to put the model building 
codes in place to better fortify their facilities.
    I also believe that the 75 percent minimum cost share that 
we use right now should be broken down into two parts. One to 
giving 80 percent to those departments or those States to put 
into model building codes and do the pre-disaster mitigation 
efforts that FEMA recommends. The States that don't do that, 
the States that don't put those model building codes in place 
and don't prepare their States like they should, we reduce 
their cost by 15 percent.
    Now make it clear, I am not advocating we stop assisting 
communities in following a disaster. That is a vital act of our 
community and what we should be doing. However, we need to be 
smarter about allocation of existing finite resources, and 
these policy proposals will mitigate overall damage which will 
lead to a decrease in loss of life and save the taxpayer 
dollars at the same time.
    As you work together with the Trump administration with our 
new infrastructure package coming out, I urge you to look at 
these recommendations very carefully. If we are going to 
rebuild our country, we need to make sure we put these 
proposals in place. Thank you for this opportunity and I will 
be glad to answer any questions you might have.
    [The prepared statement of Mr. Paulison follows:]
              Prepared Statement of Robert David Paulison
                           February 28, 2017
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the committee, I would like to thank you for holding this important 
hearing today regarding the future of the Federal Emergency Management 
Agency (FEMA). I am grateful for the leadership of the Chairman and the 
Ranking Member for the opportunity to share my expertise and assist 
with the goals of this committee.
    I have over 40 years of experience dealing with natural disasters 
at the Federal, State, and local levels. During my career, I served as 
administrator of FEMA from 2005 to 2009, administrator of the U.S. Fire 
Administration from 2001 to 2005, director of preparedness at FEMA from 
2003 to 2004, and fire chief of the Miami-Dade Fire and Rescue 
Department from 1992 to 2001. I spent the 21 years prior to that rising 
through the ranks of the Miami-Dade Fire Department, beginning my 
career as a rescue firefighter in 1971. I have a deep appreciation for 
the tremendous service of our Nation's first responders and emergency 
management officials. I also have a unique understanding of the 
inherent problems with our Nation's disaster preparedness and response 
system and how we can better position FEMA to respond when a disaster 
strikes.
    This understanding was largely influenced by experiencing first-
hand the aftermath of multiple category 5 hurricanes. I remember the 
devastation of both Hurricane Andrew in 1992 and Hurricane Katrina in 
2005. One of the many things that stands out in my mind following these 
experiences was walking down the street and finding that where once 
stood a home was now only a concrete slab. This continued down the 
street--slab after slab, on and on. It was only every now and then that 
we would come across a home still standing.
    It is through this lens that I sit here today to tell you that the 
United States must reform its disaster spending model to save lives and 
property. The first step we must take is:
      1. consolidating disaster spending administration under fema
    Following a Presidential Disaster Declaration, FEMA and a vast 
array of other agencies are engaged to distribute Federal relief funds. 
In the case of Hurricane Sandy, there were 19 different agencies 
involved. Not only was this response fragmented and confusing for the 
disaster-stricken communities I've worked with, it is also wasteful and 
ineffective. To fix this, the United States should give FEMA 
administrative control over all disaster response. FEMA uses a Cost-
Benefit Analysis (CBA), a strict numerical assessment to determine 
whether the benefits of a project are sufficient to justify the cost of 
implementing it. Consolidating disaster spending administration under 
FEMA (thus requiring a BCA for all disaster spending) would 
significantly reduce post-disaster waste.
    Even more important is preventing the damage and loss of life in 
the first place.
    Natural disasters are rapidly increasing in frequency and severity. 
Between 1976 and 1995, there were, on average, 39 major disaster 
declarations annually. This number more than tripled over the next two 
decades, rising to a startling annual average of 121 disasters.
    And these disasters come with an enormous price tag. Since 1980, 
the United States has been struck by 203 natural disasters costing more 
than 1 billion dollars each. The total cost of these events is over 
$1.1 trillion.
    And taxpayers have been put on the hook to repeatedly foot more and 
more of this exorbitant disaster recovery bill. The percentage of post-
disaster recovery paid by taxpayer dollars has increased from 5 percent 
in 1955 to 50 percent in 2005 all the way to 80 percent in 2012.
    As American lives continue to be put on the line and Federal 
disaster spending skyrockets, the United States needs to assess what 
the we can do before disasters strike.
    Research has repeatedly demonstrated the life and cost-saving power 
of pre-disaster mitigation. Studies have shown that every $1 invested 
proactively pre-disaster saves $4 or more on post-disaster recovery.
    Adoption and enforcement of model State-wide building codes is an 
essential step in this process. In fact, a study conducted by the LSU 
Hurricane Center estimated that model codes would have reduced wind 
damage from Hurricane Katrina by 80 percent, saving countless lives as 
well as $8 billion. Having witnessed the devastation from Hurricane 
Katrina first-hand, this research hits home for me.
    Today, FEMA has a program in place that leverages the power of pre-
disaster mitigation. FEMA's Pre-Disaster Mitigation (PDM) Grant Program 
helps States and communities fortify homes and structures before the 
next disaster. However, the PDM is vastly underutilized. In fact, in 
recent years, the United States has spent over $14 on post-disaster 
mitigation for every dollar it invested in pre-disaster preparation.
    Instead of spending money on the front end to improve resiliency in 
structures, preventing the monumental damaged I witnessed during my 
time as FEMA administrator, the United States continues to build to 
insufficient codes that leave our communities vulnerable to future 
natural disasters. This results in the unnecessary loss of life and 
incredible destruction I witnessed during my time working in emergency 
management. This is why I strongly believe that the United States must 
balance its broken disaster spending model. Our Nation can accomplish 
this via:
              2. enhanced pre-disaster mitigation funding
    Leveraging the cost-saving power of pre-disaster mitigation 
(remember: $1 dollar in prevention saves $4 in losses) by shifting 
significant Federal resources from post-disaster, reactive, and 
wasteful spending to preventative mitigation spending that will bend 
the runaway Federal cost curve on disasters. The FEMA PDM program would 
receive a new, automatic funding formula enhancement via an automatic 
mitigation surcharge from the Disaster Relief Fund to the Pre-Disaster 
Mitigation grant program. There should also be explicit statutory 
clarification in the PDM program of eligibility for building code 
development and enforcement.
    This Federal-level shift toward pre-disaster mitigation must be 
supported by a corresponding shift at the State level. This can be 
accomplished by:
 3. creating two programs to incentivize states to invest pre-disaster
a. Establishing a Post-Disaster Mitigation Incentive.--Creating a Post-
        Disaster Hazard Mitigation Grant Program Federal incentive of 4 
        percent extra funding for States who have FEMA-qualified State-
        wide building codes in place. There should also be explicit 
        statutory clarification in the HMGP program of eligibility for 
        building code development and enforcement.
b. Reforming the Federal Disaster Minimum Cost Share.--Instead of the 
        flat 75 percent minimum Federal cost share post-disaster, the 
        Federal Government should break post-disaster relief funding 
        into two tiers. In tier one should be States that implemented 
        FEMA-approved pre-disaster mitigation actions, including State-
        wide model building code adoption and enforcement. These States 
        should be provided with an additional 5 percent in post-
        disaster relief funding. In tier 2 should be States that left 
        their residents and structures vulnerable and failed to engage 
        in proactive activities. These States should receive 15 percent 
        less Federal funding post-disaster.
    To be clear, I am not advocating that we stop assisting communities 
in need following a disaster. It is a vital act of public service in 
our country. However, we need to be smarter about the allocation of our 
existing, finite resources. These policy proposals would mitigate 
overall damage, which would lead to a decrease in loss of life and save 
taxpayer dollars.
    As the Trump administration and Congress embark on the critical 
task of rebuilding America's infrastructure, taking steps to fix our 
broken disaster spending model is more important than ever. While the 
appropriate representatives work to create that plan, Congress should 
insist on reforms to Federal disaster spending that put pre-disaster 
mitigation at the forefront and position FEMA on the edge of the effort 
to rebuild our infrastructure in a way that is fortified against 
natural disasters.
    Thank you for the opportunity to be here and testify before you 
today.

    Mr. Donovan. Thank you, Mr. Paulison. I am going to 
recognize myself now for questions. Through the rules of the 
committee, we will go back and forth according to seniority for 
those who were in attendance at the start of the hearing, and 
then continue with those who have come afterward.
    We are a law-making body, and many times Congress will tell 
the folks who have to implement what we pass what they need. I 
was always a believer in asking you what it is that you need so 
that we then can pass the legislation that makes your job 
easier, more efficient, allows you to protect our citizens and 
our lands better.
    So what I would like to ask each of you, aside from your 
testimony, is what would you have liked to have seen when you 
were in office, when you were the administrator of FEMA? What 
would you have liked Congress to have passed so that you could 
accomplish the goals that you set out as your responsibility of 
protecting our Nation from either terrorist attacks or natural 
disasters?
    Mr. Fugate. Well, Mr. Chairman, to be honest with you, much 
of what, even what Dave proposed, is actually within the 
administration's authority. The only thing that is not in the 
authority would be to reduce the cost share below 75 percent in 
the Stafford Act because the law says not less than 75 percent.
    But in many ways the Post-Katrina Reform Act and then the 
Sandy Recovery Improvement Act gives the administration broad 
authorities to execute the mission. But I did have technical 
issues. Again, this committee, the House was very supportive of 
fixing some technical glitches with our USAR teams to get them 
some authorities they needed.
    One of the things I am still wrestling with was as I was 
walking out the door was in our reserve work force. We run 
about 5,000, usually less than that, permanent work force. The 
majority of people that you see out in disasters are temporary 
hires.
    They are people that--no, it is not temporary hires. They 
are called itinerant. But what they are is they are a reserve 
to FEMA. They work when we have disasters. We bring them in, we 
train them, we equip them. Then there is really no cycle other 
than disaster work to get called up and deployed.
    It turns out those people are oftentimes the most 
experienced, best trained people we have. Yet when we go to 
post a position, because they are not considered career, they 
have no status. As we post these positions for permanent 
positions, you would think this would be a very diverse, well-
educated, well-trained group to recruit from. In many cases 
they don't even make the certification list when we hire.
    So as one of the tools we were looking to enhance and 
maintain recruitment of reservists in our core positions, the 
non-permanent work force that is paid for out of the Stafford 
Act. We had asked for similar provisions that Congress had 
granted to the Department of Agriculture, U.S. Forest Service 
for their part-time and seasonal firefighters, that when you 
had a positon posted, they would have status so that you could 
post a position internally that they could apply for.
    This isn't about being exclusionary, but it is about taking 
advantage of the dollars that were already spent to train them. 
They have already deployed on disasters. We know the caliber 
and quality of their work. I think it would save money.
    I understand there are concerns about screening out 
veterans and others, but we try to apply veteran's preference 
when we do our reservist hiring in the first place. I think 
that if we put those on the reservists, our requirements on the 
front end, that would further strengthen and diversify our work 
force.
    But it would be an additional enhancement and tool at very 
low cost from what is already being spent as an incentive to 
retain highly-qualified people knowing that when we did post 
permanent positions, they would have an opportunity to apply 
for that versus having to compete against the general 
population for the same job.
    Mr. Donovan. These are people that we have trained?
    Mr. Fugate. Yes, sir.
    Mr. Donovan. Correct?
    Mr. Fugate. You have spent money----
    Mr. Donovan. We have already invested in them?
    Mr. Fugate. Yes, sir. They have their qualifications. Many 
of them have deployed numerous times. Congressman Thompson 
probably knows some of them on a first-name basis from the 
floods and tornados in his State. A lot of times they are 
people that start out locally and grow through the system.
    The current acting administrator for FEMA, Bob Fenton, 
started out in one of these part-time jobs. So we know there 
are great people out there. This would make sure that we 
maintain that relationship, but I think strengthened our 
relationship with reservists by giving them status when we post 
positions for internal hires.
    Mr. Donovan. Thank you.
    Mr. Paulison.
    Mr. Paulison. Well, one, I would like to echo what 
Administrator Fugate commented on because it is extremely 
important. The disaster work force, particularly our temporary 
employees, is a huge issue. It became a huge issue during 
Katrina getting the right people in the right places, and the 
amount of time they put in and oftentimes we can't get the same 
people back again.
    The other issue I want to, and I am not sure it is a 
legislative issue, but I think still important, that, like I 
mentioned earlier in my opening comments, we only have 16 
States with State-wide building codes and that are enforceable. 
We have to deal with that because I see the damage that we have 
in a storm.
    We build the houses back exactly the same way they were and 
then they blow down exactly the same way they did before, and 
we continue to do it over and over again. It is almost like 
Groundhog Day. We have got to stop that because we are just 
wasting our dollars by not putting in strong building codes and 
build our homes and our businesses back like they should.
    The third piece I think that is extremely important is the 
fact that we have got to make sure that whatever we have to do 
that we have the right people managing FEMA. We don't want to 
go back to the way it was before I came in and Administrator 
Fugate came in. The people that are managing FEMA have to have 
the qualifications. Like Craig said, this is not an on-the-job-
training type of position.
    We need to make sure we are bringing in qualified, 
experienced people with years and years of dealing with 
disasters. So I think those are the three issues that I would 
point out that we need to really stop and look at as the next 
administrator comes in.
    Mr. Donovan. Thank you very much. My time has expired.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chair. Let us see here.
    So Mr. Fugate, now in your testimony you note that budget 
constraints have caused FEMA to become an extremely lean 
operation. Given its limited budget, is FEMA sufficiently 
resourced to nimbly respond to, you know, a major disaster or 
terrorist attack?
    Mr. Fugate. It is getting better. Some of the things we did 
was we got rid of a lot of rental space. We went from 9 
buildings that we were leasing here in the National Capital 
region to everything is now at 500 and 400 C Street. We made a 
decision it was more important to have people than to have 
doors. So we went to an open floor plan and focused on that.
    The second thing is we did something that I thought was 
rather important. Turned out a lot of people at FEMA did not 
have to deploy to a disaster. Did you know that, sir?
    Mr. Payne. No.
    Mr. Fugate. You would think that working at FEMA you were 
deployable. But it turned out if it wasn't in their position 
description, it wasn't enforceable. So we changed that. Every 
employee now has to go through a 2-week orientation and begin 
their emergency management training, and sign a statement 
saying they understand that 24 hours a day, 7 days a week they 
have to have an emergency function.
    We did all that and reduced our cost, better utilizing our 
resources. So I think we are close to where we need to be as 
far as our day-to-day. I think there are still efficiencies 
within the systems that we have to focus on.
    But I would be concerned that, particularly as we start 
talking about how to pay for FEMA's disaster response costs, a 
lot of debate should that come out of the DRF or should that be 
in the base cost? That is Congress' preference.
    But it costs money to have deployable capabilities. It 
costs money to have generators ready to go. It costs money to 
have reservists to go. It is not cheap. So hold FEMA 
accountable to make the maximum utilization of those resources, 
but understand the days of us getting easy saves by cutting 10 
percent to 15 percent without impacts on capabilities is over.
    We are now having to make decisions about what capabilities 
do we not need to maintain and to what quantity and time frames 
we expect those resources to arrive in a disaster, because that 
dictates what the costs are.
    Mr. Payne. Yes. Now, and from your vantage point, could 
FEMA absorb, you know, new wide-scale cuts as President Trump 
has indicated may be proposed?
    Mr. Fugate. Well, you know, in general, what I have found 
the best way for FEMA to operate is for Congress to do a 
budget, appropriate funds, and describe those activities that 
we should be doing with those funds and hold us accountable.
    When you say across-the-board cuts and other things, I 
think the appropriations process has been to me the most 
effective way. As an administrator I always liked to know what 
Congress expected me to do and how much money they are 
expecting me to do it with. Then I had a duty to tell you 
whether that was possible or not, and you were there to hold me 
accountable if I wasn't getting the job done because I wasn't 
efficiently utilizing the resources.
    Mr. Payne. Do you believe that FEMA was sufficiently 
financially equipped while you were there as administrator?
    Mr. Fugate. Yes. We dealt with a lot of challenges on the 
financial side. We had one shut-down, but FEMA never furloughed 
employees except at that shut-down. We cut a lot of travel, a 
lot of other expenses to focus on our people. That was our 
commitment. I think that is the greatest asset FEMA has is its 
people. So that is where we made our decisions.
    You know, it would be nice to be in a world where everybody 
got everything they always wanted. I don't know where that 
exists. I have never found it. So I think it is the job of the 
administrator to make sure that they inform the appropriators 
what cuts mean, make sure we all agree to what that results in. 
But also take advantage of some of the flexibility that FEMA 
had in how we did our mission to fit the budget.
    But it is past the point where the largeness that was built 
up after Katrina can continue to be whittled away. You are at 
the point now where you are going to have to make decisions and 
trade-offs.
    If you want to reduce this funding, how much more time will 
you allow for urban search-and-rescue teams to deploy? How much 
longer will you wait for the first incident management team to 
arrive on scene? How much longer will recovery take place 
because we won't have adequate staff or the financial 
management systems to manage that?
    Those are things that you have to make informed decisions 
about. I think it is the, you know, responsibility of the 
administrator to give you that information to make those 
choices.
    Mr. Payne. Thank you.
    Mr. Paulison, with, you know, the major natural disasters 
increasing in frequency and severity, Federal Government has 
spent more and more time on disaster relief. You mentioned the 
importance of pre-hazardous mitigation in your testimony. Which 
activities should the Federal Government invest in and promote 
resiliency on State and local level? You have got 5 seconds.
    [Laughter.]
    Mr. Paulison. I think that, like I said in my written 
testimony, that FEMA does have a pre-disaster mitigation 
program in place. I think it needs to be enhanced. I think 
there needs to be more money provided to the States to do that, 
and if we do that, we will spend less money on the post-
disaster response side.
    I think providing an incentive for the States to put State-
wide building codes in place to do pre-disaster mitigation 
functions to make sure their States are ready to deal with a 
disaster. We know what disasters we are going to have. Every 
State knows what they are going to have. Yet time and time 
again we fail to prepare for that, but we wait for the disaster 
to happen and then we respond.
    Now, we are going to have to do that anyway, but if our 
buildings--we did it in south Florida, after Hurricane Andrew. 
We saw the type of damage we had to our new housing stock. This 
shouldn't have happened because we had the wrong building codes 
in place. We are using a southern standard building code 
instead of a building code designed for south Florida.
    We changed our building codes. We changed how we put our 
roofs on. We have changed how we tie them down. We changed the 
type of materials. Now we don't have that type of damage. Every 
new home has to have storm shutters. The roofs have to be 
plywood, not pressboard. We don't allow that anymore. We don't 
allow gable ends. It all has to be a hip roof.
    All the things we learned, and we took that and it was 
hard. It wasn't easy, believe me. We had a lot of people didn't 
want to support this. A lot of the homebuilders fought it tooth 
and nail, but we pushed it through.
    But if we can do that across this country, when we do have 
catastrophic events we are going to have less and less damage. 
You are going to have less numbers of people have to be 
sheltered somewhere else where they can stay in their own home.
    So I think that is what I think this committee can help us 
support to do, and to do that type of a look at our building 
codes, our pre-disaster mitigation, giving the States an 
incentive to do these type of things, I think that will make a 
huge difference on our response side.
    Mr. Payne. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. Donovan. It was amazing you did all that in 5 seconds, 
Mr. Paulison. The Chair now recognizes the Ranking Minority 
Member of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for questions.
    Mr. Thompson. Thank you very much, Mr. Chairman. You know, 
both these gentleman really demonstrate the quality of people 
we have had running FEMA over the last few years, and I 
compliment both of them. But I want to move into an area that 
would help us.
    I have been involved in a number of disasters, but one that 
comes to mind is dealing with the Federal Flood Insurance 
Program, and how I see insurance companies shifting the burden 
and liability onto the backs of that program. Ultimately we end 
up having to replenish that fund before the disaster is for the 
most part resolved. Have you all looked at that and would you 
care to offer your unbiased opinion?
    Mr. Fugate. Congressman Thompson, thanks for that question. 
We got to quit subsidizing risk below which behavior will 
change, and the Flood Insurance Program is basically designed 
at too low a point. I think, you know, former Administrator 
Paulison is right on the money.
    The question is: How do we drive better building codes and 
better standards? What we have done with the Flood Insurance 
Program is we are underwriting risk and we are growing the 
risk, and we can't afford to grow that risk. At the same time 
we have not provided the incentives for the private sector to 
better manage risk.
    I believe what Dave is talking about can be done if we went 
back to really looking at what is insurable risk for the 
private sector so that we don't continue to grow the Flood 
Insurance Program, understanding we have got a built 
environment that is not going to change. The private sector is 
not going to be able to write those homes.
    But why do we keep growing the risk? Why do we keep 
insuring new construction? Why do we keep allowing risk to get 
transferred to the taxpayer? Think about it. FEMA only pays for 
uninsured losses.
    Those billions and billions of dollars that you see going 
out the door is because jurisdictions don't insure schools, 
fire stations, community centers. People didn't have flood 
insurance or didn't have enough insurance on their home. Some 
people can't afford it, and I think that is where our programs 
should be kicking in.
    But we as a Nation have transferred so much of the risk of 
disasters and the frequency of disasters to the taxpayers, 
there has been very little incentive for State and local 
governments to do what they should be doing, which is reducing 
risk through the adoption of codes appropriate for the risk and 
land use planning.
    I think it is just time we stop subsidizing risk and really 
look at and ask a very basic question. If the private sector 
won't insure it, why are you building it the way you are 
building it where you are building it? Why is the taxpayer 
picking up the bill? Because the thresholds for disaster 
declaration is so low.
    That is why, Mr. Chairman, you know, as I was leaving we 
were proposing a deductible similar to what Dave is, what are 
the incentives to get State and local governments to take 
greater ownership? My reaction was quit going back to the first 
dollar. I mean how many people have car insurance with no 
deductible?
    Mr. Thompson. Not many.
    Mr. Fugate. But the Disaster Relief Fund, you get a 
disaster declaration, we go back to that first dollar. What if 
we stopped going back to the first dollar and saying your 
threshold is your deductible, and unless you have codes or 
other things to buy down the risk, you know that State of 
Florida is going to own that first $23 million to $24 million. 
But if they have got a State-wide building code, which they do, 
they ought to get credit for that, buy their deductible down.
    But I agree with you, Congressman Thompson, we have got to 
quit growing risk and quit providing more and more going back 
on the taxpayers without looking at how do we quit transferring 
risk when we are not seeing the benefit from it?
    Mr. Thompson. I assume there is no disagreement?
    Mr. Paulison. No, none whatsoever. Administrator Fugate is 
right on target. Again, we keep building it back to the same 
place in the same way, and we are going to flood again and 
flood again, and just like our wind damage. We have to stop and 
think what are we doing up front that we are not doing now? I 
think that is the way to deal with it.
    Mr. Thompson. You know, one of the comments is it doesn't 
matter what area the disaster in, FEMA has created a reputation 
that they will always be there for help. So State and locals 
have kind-of passed that burden on to FEMA to deal with, and I 
think at some point we are going to have to figure out a way at 
least to share that burden in some equitable manner.
    Apart from that, we will, Mr. Chairman, continue to 
subsidize the disaster vehicle that we put in place to address. 
But it is not a bottomless pit, and so I think we have to take 
some of the advice of gentlemen like we have here that it is a 
problem and one that this committee could choose to tackle in 
some form of legislation or another.
    One simple thing would be a uniform set of codes that if 
you want to participate in the disaster offerings that we have, 
you must have these on the books and enforced which would go a 
long ways toward addressing that. So thank you, Mr. Chairman, 
you have been very kind. I yield back.
    Mr. Donovan. The gentleman yields back.
    The Chair will now recognize the other Members of the 
subcommittee for questions they may wish to ask the witnesses. 
In accordance with the committee rules and practice, I plan to 
recognize Members who were present at the start of the hearing 
by seniority on the subcommittee. Those coming in late will be 
recognized in the order of arrival.
    The Chair now recognizes the gentleman from Florida, Mr. 
Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman. I want to thank 
both of the panelists here. I know both of you started at local 
and State levels and worked your way through this when the 
country was really first dealing with this issue. You know, 
first we were looking at sea-borne events and then it grew into 
all-hazards. So I appreciate your service through all of that.
    Let me ask this question. As you both know, recipients of 
our Homeland Security grant programs, they are required to 
complete that annual Threat and Hazard Identification of Risk 
Assessment, the THIRA, and that is a way for them to identify 
certain gaps in their capabilities that may exist.
    But I hear a lot that localities are not really 
sufficiently engaged in the State THIRA planning. I mean could 
you respond to that and how you might make the THIRA program 
more successful?
    Mr. Fugate. Yes, sir. I will use Florida as an example 
because we have some unique tools there. It is a common concern 
from local governments that the States when they do the THIRAs 
which, you know, and the contracts, the way it works is the 
State is the recipient, then the local governments are the sub-
grantees.
    So we see some variability how well that is done, and you 
probably saw that, too, when you were sheriff with the Regional 
Domestic Security Taskforces.
    Mr. Rutherford. Right.
    Mr. Fugate. Some seem to be more successful at getting 
grant dollars than others, not always based upon who had the 
best threats, but who told the best story.
    So the THIRAs were really trying to get around people 
saying it is bad, we need something, to what are, looking at a 
series of threats, capabilities, and where the gaps occurred. 
The tendency is for States to do that because it is aggregated 
up at the State, and then we fund the State. The State really 
works where it is going to go locally outside the urban 
security area initiatives.
    So that is something, again, for the next administration. 
You got to do more than just talk to your State counterparts. 
You got to engage. What we found is--and it is they are not 
always happy, but at least we are willing to talk--National 
Sheriff Association, Police Chiefs, International Association 
of Fire Fighters, International Association of Fire Chiefs, 
because a lot of times their members will have concerns.
    That helps us go, well, maybe we didn't get what we wanted 
to when talking to that State. But the overall fire is what is 
setting the stage based upon State-wide gaps and capabilities.
    So it tends to be State-centric because we are funding the 
State to then make the decisions on where it is going locally, 
unlike the urban security areas which are set-aside 
specifically for those areas. But I hear it. I heard it when I 
was at the State level. Again, it is part of it. You got to 
keep the dialog and communication, and some days you agree to 
disagree.
    Mr. Rutherford. Yes.
    Mr. Paulison.
    Mr. Paulison. One thing we tend to forget sometimes is all 
disasters are local. That is where----
    Mr. Rutherford. Yes.
    Mr. Paulison [continuing]. The first responder is. 
Oftentimes we try to second-guess what the needs are at the 
local level. Sometimes they will say we need this, and they 
say, nah, you don't need that. I think that is an issue.
    So I think the communities have to be involved with the 
State in making the decisions of where those dollars are going 
to go because it is when there are not a lot of dollars out 
there when you divide it all up. So we have to make sure we 
spend it wisely. But they have to listen to the people on the 
ground at the local level of what they see their needs are.
    Mr. Rutherford. Well, and, you know, that is why I agree 
with you, Mr. Fugate, completely that, you know, you have to 
plan for what can happen, not what resources you have. I have 
seen that too often as well. Then you have these glaring gaps 
in capability that nobody wants to really address.
    Let me ask this because I thought Mr. Paulison came up with 
a great idea on not just the, you know, forcing the building 
codes by raising or lowering the 75 percent through statute, 
but you could do the same thing if they were not meeting their 
gaps, correct?
    Mr. Paulison. My proposal was if they are not willing to 
put State-wide building codes in effect, if the State is not 
willing to do pre-disaster mitigation where they know they are 
going to have issues, then they shouldn't get that percentage 
on the response side.
    Why should we, like Congressman Thompson just said, you 
know, we are subsidizing the local when they should be doing--
or the States--when they should be doing some of the stuff 
themselves? If we put the incentive out there, we are going to 
give you the X, Y, Z if you do this, so that is the carrot, but 
maybe there should be a little bit of a stick also if you don't 
do it.
    Mr. Rutherford. Yes. Yes. Well, I think it is a carrot 
because they are getting the money from FEMA anyway.
    Mr. Fugate, you want to add anything to that?
    Mr. Fugate. No. As you go through the carrots and the 
sticks some of that is, again, unintended consequences, but I 
think if you drive it toward this idea that we know what the 
science tells us how to build, we incentivise that. We also to 
a certain degree using the THIRA to drive the grants is where 
are the gaps in what we are seeing? I mean at some point, how 
many more bomb robots does a jurisdiction need? But they don't 
have more capabilities.
    Mr. Rutherford. Right.
    Mr. Fugate. So part of this was to get back to the things 
that we know we have to build capacity for, but there hasn't 
been, I think, sometimes always the perfect feedback of if they 
are not doing that and they are prioritizing other things, how 
do we penalize them more than just, you know, you are going to 
get that allocation, this is what the priorities are?
    So as much as we could steer funding, we try to steer it. 
But it wasn't really about if you didn't do something, you 
weren't going to get funding. It was more of we were trying to 
incentivize good behavior.
    Mr. Rutherford. If you do something you get money.
    Mr. Fugate. Yes, sir.
    Mr. Rutherford. Thank you both very much.
    Mr. Chairman, I yield back.
    Mr. Donovan. The gentleman yields.
    The Chair now recognizes the gentlelady from New Jersey, 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Good 
afternoon, gentlemen. I am from New Jersey, and I would like to 
talk to you a little bit about our experience with Sandy in 
2012.
    There are people that I come in contact with who say that 
there are still families who have not been made whole, whose 
properties had been devastated by Sandy, and it is 2017. I was 
wondering if you can just give me some insight into why that 
would be the case.
    Mr. Fugate. Well, I think one of the things that Dave 
Paulison pointed out, and this is one of the things that 
Congressman Thompson will tell you. People think that when they 
get a Presidential disaster declaration from FEMA, that we will 
make people whole.
    Our max grant for individual assistance is around I think 
$34,000 now, and very few people max out. I think in New Jersey 
we are probably averaging about $6,000 to $7,000 plus renter's 
assistance.
    Even the people with flood insurance, and we had a lot of 
challenges there that still need to be addressed, because those 
are capped out at a certain amount and their property was more 
expensive than that, it was still hard to rebuild.
    Then as Dave pointed out, there is a lot of other funding 
that got appropriated, mainly through HUD and other type of 
community block grant dollars. In many cases States have used 
that to try to address the housing issues.
    FEMA doesn't control that. In fact, most of our individual 
assistance was pretty much done with in the first year of our 
assistance and renter's assistance, and then the follow-on was 
going to be other programs.
    So one of Dave's, you know, Director Paulison's comments or 
Administrator Paulison's comments was, you know, it is hard to 
keep visibility on all those dollar streams, and then the State 
and the survivors have now got to navigate various Federal 
agencies to work through the recovery versus we start the 
process. But it has really never been Congress' intention that 
FEMA makes somebody whole. We are basically starting the 
process. But it----
    Mrs. Watson Coleman. So let me ask you a question then 
because I think what I heard is that there are a lot of 
agencies that have a piece of the solution to a various 
problem. Is there any coordinating entity, or is that driven 
down to the State and the State decides how to parcel out? Is 
that what happened in New Jersey that----
    Mr. Fugate. States have, particularly with the HUD dollars, 
the dollars go to the State and then the State will prioritize. 
We have done a better job on the Federal side through the long-
term recovery frameworks that were required by Congress for the 
Post-Katrina Emergency Management Reform Act, but it is still a 
learning process when we are dealing with large disasters to 
areas that haven't dealt with it before to get that translated 
into outcomes. So----
    Mrs. Watson Coleman. So then does it become each department 
that has its dollar in the pot, each department's 
responsibility to monitor how well the State does with its 
particular piece?
    Mr. Fugate. Yes, ma'am, and it also means it comes with 
that department's regulatory requirements and their grants 
process, which tend to be different based upon how they are 
authorized and what the intention of those programs are.
    Mrs. Watson Coleman. Let me just pick your brain for a 
second, and Mr. Paulison, is there a need under circumstances 
like this, like a Katrina, like a Sandy, where there is a 
coordinating agent from the Federal Government that not only 
coordinates what you all do and what each Department does, but 
also has that monitoring, holistic monitoring responsibility 
over the State? Because in my State we had several problems.
    We had problems giving contracts to the wrong people. We 
have problems with that administration giving contracts to 
friends. So we had a lot of wasted money. So I would like to 
know what would your recommendations be in situations like that 
that would help to make it more efficient, easier for people 
who are affected to get some resolution, and to ensure that 
there is uniform accountability? Thank you.
    Mr. Paulison. We had 19 different agencies providing 
disaster relief in New Jersey, in your State. It was confusing 
for the people who were receiving these different things. It 
was like Administrator Fugate said. There are different 
regulations for each department.
    It was inefficient. There are still moneys that have not 
been spent. So I think, yes, there should be an agency that all 
the dollars flow through, or at least coordinate. I think it 
should be FEMA. FEMA has a cost-benefit----
    Mrs. Watson Coleman. I do, too.
    Mr. Paulison [continuing]. Analysis system in place that it 
is very good. Is this project worth rebuilding or is it not? I 
know the other departments aren't going to like what I am 
saying but I don't work here anymore so I can say it.
    [Laughter.]
    Mrs. Watson Coleman. Thank you. That is why we have you 
here.
    Mr. Paulison. Yes. You know, I think it should be if not 
the money flowing through each agency, at least the approval 
and oversight of the projects going through one agency, and 
FEMA is the one to do that. I know the new FEMA administrator 
may not like it whenever they come in, but I think that we have 
to do something. It was too uncoordinated, and you are seeing 
it first-hand. You live there. You know. It needs to be fixed.
    Mrs. Watson Coleman. Thank you. My time is up; I appreciate 
it. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Donovan. The Chair now recognizes the gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want thank our 
witnesses for being here today, and I want to thank you both 
particularly for your many years of public service.
    So I want to touch on a topic that is perhaps easy to 
overlook but growing in importance, and that is dealing with 
cyber. So in my role as co-chair of the Congressional Cyber 
Security Caucus, I have encouraged emergency planners to 
incorporate cybersecurity response into their disaster 
planning.
    For instance, in Rhode Island, I have worked with our 
excellent Emergency Management Director Pete Gaynor to 
incorporate cyber as part of the State's Hazard Identification 
and Risk Assessment.
    So planning is particularly important as NIST has 
emphasized that our response recovery functions of 
cybersecurity risk management are often underdeveloped. So in 
your experience what is the maturity level with respect to 
incorporating cybersecurity incident response into all-hazards 
planning?
    Mr. Fugate. Well, my experience is we deal with the 
consequences of a cyber event, and when you start talking about 
cyber, most people go to electricity and other systems. We deal 
with power outages long-term and have some history there. The 
areas of cyber that from an emergency management perspective 
that I think we don't have a lot, because we don't really 
respond in those areas, is threats to the financial system.
    I was at the Cleveland Federal Reserve and I said what 
happens if there is a run on the ATMs because people lose 
confidence in their bank accounts because of a cyber attack? 
They said we don't have enough cash. Financial systems, loss of 
confidence in those systems and the collateral impacts are one 
of the things that for an emergency manager, that is a lot 
different than planning for a power outage.
    The other things is our total dependence upon the public 
switch network or the internet. We have found that we have 
created single points of failure for our communications 
systems. If you go to most dispatch centers, very few actually 
talk to their radio by RF. It is all going through the phone 
system.
    So the thing that I found for emergency managers is they 
tend to look at disruptions caused by natural hazards. When you 
start asking about cyber, they don't know what they don't know.
    They are not on the fixing side of this. They are on the 
consequence side. But they need to understand the 
vulnerabilities, that this will not be a geographically placed, 
it could be occurring multiple places across the country 
simultaneously. In some cases as a direct impact like power 
going out, but it may be a loss of confidence in critical 
infrastructure and people doing things that now become a crisis 
of itself.
    So I think from the emergency management standpoint, it is 
part of the all-hazards, but I think the cyber community really 
needs to get better information out to emergency managers. Not 
so much on what has got to be fixed but what the 
vulnerabilities are, what kind of systems can be affected, and 
then begin exercising those consequences, because every 
exercise I have been involved in cyber, they were always able 
to fix the problem.
    In my line of work, that is not what we plan for. We plan 
for it didn't get fixed, it went bad, it went worse than 
anybody thought. Now what does that do to our ability to manage 
that crisis with our resources and understand that some of the 
systems we depend upon may be under attack themselves?
    Mr. Paulison. Thank you. I just came back from a cyber 
conference in London. Countries from all over the world came 
and a huge issue, and their thought process is just what 
Administrator Fugate said. This is a critical infrastructure 
issue, and I definitely think it should be part of our purview 
inside of FEMA to help protect that system and put it back in 
place when things go wrong.
    We are definitely not the only country worried about it. It 
is a world-wide issue. So we are talking about banking systems. 
We are talking about security issues. We are talking about 
power grids and our whole communication system. So it is a 
system that can shut down and a problem that can shut down an 
entire country.
    So yes, I definitely think it is we really have to step 
back and take a look at this and how are we going to protect 
and how are we going to respond to it?
    Mr. Langevin. Yes. I think it is important that we make it 
a forethought, not an afterthought. I mean, we can do 
mitigation planning and that can help forestall problems or cut 
them off before they become more serious.
    Let me switch you to another topic before my time expires. 
Mr. Fugate, in our panel 2 weeks ago I asked stakeholders about 
their experience incorporating people with disabilities into 
planning up front. So the panel universally praised your work 
in helping it ensure that the disabled were not an 
afterthought, particularly through your efforts with the 
disability coordinator and the Office of Disability Integration 
and Coordination.
    With that in mind, what recommendations do you have for 
your successor in continuing to make improvements in this 
space, and what role, if any, do you see for Congress in 
promoting inclusive planning?
    Mr. Fugate. Well, the first thing is the Americans with 
Disabilities Act is a law. Some people still don't get that. 
They think there are allowances during a crisis. That you 
cannot meet reasonable expectations. So the first thing is 
everybody has got to understand, the Americans with 
Disabilities Act says that it is an inclusive process, not 
exclusive.
    Second thing is don't try to make your solutions fit your 
population. We had a history of putting people with 
disabilities into categories, going, this is a special needs 
shelter or this is a special this.
    So we started asking a different question. Why are we 
putting barriers up because we may not have the luxury of 
picking out which shelter we get to? We get to a shelter, why 
isn't it accommodating to us? Why am I being told that I have 
to take my stepdaughter to another location? Or I got to take 
my father somewhere else because that shelter isn't inclusive. 
It is an exclusive shelter. People with disabilities should not 
go there.
    Now a lot times people think, well, that is the way to 
concentrate our resources and to provide for people with 
disabilities. What I found and the history is it becomes 
exclusionary. It is violating the law and the spirit of the 
law. But more importantly, we are not prepared for the 
communities we live in.
    So I think the thing is you need to understand the law and 
the requirements, but don't think that providing specialized 
services is doing anybody a favor. Your systems should have 
been inclusive on the front end because a lot people don't 
identify with disabilities, a lot of people are in aging 
communities.
    If we are inclusive to everyone, we have gotten rid of the 
barriers, because in a crisis the more complex our systems are, 
the more likely they are going to fail our most vulnerable at 
their time of need. We need to break this down into being an 
inclusive, not exclusive, in how we deliver our services.
    Mr. Langevin. Thank you. Well said. I know my time is 
expired, but that was really how the world was before ADA, and 
then after ADA, right? Before ADA if something was accessible, 
it was accommodating, you were doing somebody a favor.
    Now we see it as a civil right and that really needs to 
kind-of carry through in disaster planning as a forethought, 
not an afterthought. So thank you for your work in that space 
and other work that you have done. Thank you both for your 
testimony. I yield back.
    Mr. Donovan. The gentleman yields.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman, and thank you, 
gentleman, for being here today. I want to try to ask questions 
and not engage in soliloquy but there are a couple of 
observations that I want to make from life experience having 
survived some incidents that were interesting, a couple of 
which were designated disasters and a couple which weren't.
    That is my observation has been that the vast bulk of 
disasters manifest themselves locally and the vast bulk of 
responders are indeed locals, right? But it is tough to get on 
the ground the number of people you need from a Federal entity 
into an area that might be, in fact oftentimes is, very wide-
spread.
    What are we doing to ensure communications with the bulk of 
those first responders so that essentially they can know the 
roles that they need to play on the ground as the literal first 
folks on the scene?
    I will start with Mr. Fugate.
    Mr. Fugate. I would go further than that. The faster 
response ain't the guys with the lights. It is your neighbor. 
So that is the first reason why we really push preparedness. It 
ain't about just being ready for you and your family, it is 
being able to help your neighbors.
    Second thing is, you know, FEMA gets, and Dave is a local 
guy and then I work local and State, a lot of times think FEMA 
is going to be able to reach down to the locals. We are 
reaching down through the Governors.
    What we are finding is it is the relationship between our 
State and our local partners and how their interoperability and 
how they communicate on a day-to-day basis, because that is 
what is going to happen in a disaster. If there is friction or 
bad communications day-to-day, it does not get better in a 
disaster.
    So part of this is building these relationships and getting 
rid of these definitions of local, State, and Federal because 
when it is really bad, you got to collapse and run as one team. 
But the first ones there should not be the ones that get 
bypassed. It is about building support for the locals through 
the State, and then FEMA's job supporting the State as the 
locals. But my observation has always been if they are not 
talking before a disaster, it don't get better during a 
disaster.
    Mr. Garrett. Mr. Paulison, I am going to sort-of preempt 
you, and I apologize, but so what we need to do then is create 
a circumstance where the first time the sheriff's deputy sees 
somebody from FEMA isn't the day after the hurricane or the 
tornado?
    Mr. Paulison. We have a saying that that is the worst time 
to exchange business cards is in the middle of a disaster. You 
should know these people up front, and it should be coordinated 
together. In every disaster we have, even at the local level, 
there are local people, there are State people, there are FEMA 
people there from all the agencies are at the local command 
post making sure we are sharing information. That is the only 
way it is going to work.
    Mr. Garrett. Is there a metric, and I am not trying to 
interrupt you to be rude.
    Mr. Paulison. I know, sir.
    Mr. Garrett. Is there a metric by which you can measure the 
performance of your people in the field because here is what I 
know from life. There is a guy or a gal out there who knows all 
the sheriffs and fire chiefs and, you know, in their area and 
there is another one who, you know--but that is so important.
    I had the honor of serving on the Virginia Commonwealth 
Preparedness Board. We had great contingency plans that half 
the end-users didn't know about, which meant we had no plans, 
right? Is there a metric to measure the efficacy of individuals 
and sort-of making that face-to-face that will be so valuable 
on the deck, too?
    Mr. Paulison. So that is really the role of the local 
emergency manager is to make sure that all of those agencies 
are talking to each other, exercising together. They all know 
what the plan is.
    We found that in Hurricane Andrew that did not happen at 
the local level or the State level or the Federal level. There 
was really poor communications in place. Our emergency 
management system just totally collapsed during Andrew and it 
fell on the different agencies, particularly the fire 
department at the time, I think I was the fire chief 3 weeks--
--
    Mr. Garrett. Yes.
    Mr. Paulison [continuing]. To take on that task. So it 
shouldn't have fallen on the fire department. It should have 
been at the emergency management level. So that is the key 
first--that is the kingpin for that local disaster response is 
that local emergency manager. Then it is up to the State to 
make sure that we are all these different counties are talking.
    Craig Fugate when he was our State emergency manager did an 
outstanding job of making sure that all 67 counties were 
talking to each other. Even if part of the counties were not 
affected directly, they would be by moving supplies in and out. 
So he made sure that every day, twice a day, all 67 counties 
were on a conference call sharing information.
    Mr. Garrett. So you make an excellent point--I got about 40 
seconds--and that is that if there are 67 counties and 30 are 
impacted, the other 37 are very important because they have 
resources that can be brought to bear and that communication 
matters.
    So then the next question I have, and this might be 
ignorance on my part having been a prosecutor for a long time 
and working closely with law enforcement, is what are we doing 
to ensure coms interoperability across jurisdictional lines?
    We always have a county contract for your 9-1-1 or your 
radio coms or what have you. There were times where we couldn't 
talk to State police from this county from--and is there 
anything being done to sort-of get to a uniform standard where 
everybody can actually literally talk to one another?
    Mr. Paulison. Right now it is up to each individual State. 
There is a program that actually you are funding called 
FirstNet that is just putting together a State-wide--I mean, 
excuse me, a Nation-wide emergency management communication 
system. Now that is in its very infancy right now, but if this 
plays like it should play out, we will have a communication 
where somebody in New Jersey can talk to somebody in California 
directly.
    Mr. Garrett. Then we have just got to have some net 
discipline.
    Mr. Paulison. Yes, that is true. But right now it is just 
like in the State of Florida, we have a State-wide 
communication system that people can tag into to share 
information around the State where law enforcement should be 
talking to the fire department should be talking to EMS should 
be talking to emergency management. I don't know if you want 
to----
    Mr. Garrett. Thank you. Well, I am want to yield back, my 
negative 36 seconds.
    Mr. Donovan. We will take them. Thank you, gentlemen.
    Mr. Garrett. Thank you.
    Mr. Donovan. Before we end, there may have been things that 
you wanted to express to us that weren't in your written 
remarks and that we didn't ask you. As a last thought for the 
next administrator, if that woman or man was sitting here, what 
do you want to tell them?
    Mr. Fugate. You have got a lot of great people that work at 
FEMA, but like all organizations, they will do what will give 
them greatest success for the least amount of risk. FEMA cannot 
be an organization of people who won't take risk because we are 
going to get it wrong from time to time.
    But the problem is if you are not taking risk because you 
can't wait for the all the facts and information to make 
decisions in a crisis, action is your preferable strength, not 
waiting for all the facts. But you will make mistakes.
    The next administrator has to understand that they need to 
empower their team to make quick and bold decisions in the 
opening moments of a crisis when not all the facts are in. And 
be prepared to take the arrows when things don't go well, 
because what I found at FEMA, the more I demanded and pushed my 
staff to do the things they didn't think were possible, the 
better they got.
    But that meant when things went wrong, I had to be prepared 
to come here before you for the hearings and explain why, not 
chuck people under the bus or allow staff to take the fall. 
When we make mistakes for the right reason, you are going to 
have a hearing. When you make mistakes for the wrong reason, 
you fail our citizens and you should be fired.
    Mr. Donovan. Thank you.
    Administrator Paulison.
    Mr. Paulison. You know, I just have to echo that, too. I 
had something else I was going to say. But I think that is so 
important, particularly for the morale inside the organization 
itself. This goes through agency, but just we are talking about 
FEMA, is people are going to do what they think is best based 
on the information they have at the time.
    During Katrina, and probably rightfully so, so I am not 
saying that the media was terrible, but every little thing that 
FEMA did wrong was on the front page of the Washington Post or 
the Miami Herald or wherever you happened to be.
    Sometimes they were decisions that were made for the right 
reasons that may not have been--the outcome may not have come 
out like it should have come out. I will give you an example.
    We did a yeoman's job of housing 100,000 families. It was 
the largest migration in the history of this country, most of 
them in mobile homes and travel trailers. Then we found out we 
had formaldehyde in them. You know, no fault of FEMA for this. 
We were buying them off the lot like you would go buy one. But 
we got thrown under the bus for that.
    I took the heat for that. We surely did not blame the 
people buying the mobile homes. So I think it is a matter of 
letting people make the right decisions that they think at the 
time. Then like Administrator Fugate said, you know, we will 
come here and take the heat for it and not throw our employees 
under the bus.
    Now if they did something intentionally wrong, well, that 
is a different issue. But when they are trying to make the 
right decision based on in the heat of the moment, sometimes 
they make mistakes. But we will handle that part and we will 
take the heat for that and still support that employee because 
that is a good lesson to learn.
    Mr. Donovan. Thank you both for your valuable testimony and 
for my fellow Members of the committee for their questions. The 
Members of the committee may have some additional questions for 
the witnesses, and we ask you to respond to those in writing. 
Pursuant to the committee rule VII(D), the hearing record will 
be held open for 10 days. Without objection, the subcommittee 
stands adjourned. Thank you both.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Harold M. Payne, Jr. for W. Craig Fugate
    Question 1. As you know, ``climate change'' have become dirty words 
in Washington. But as you acknowledge, we are experiencing more 
frequent, more severe, more costly weather events. How can we 
depoliticize the cause so we can proactively address the challenges 
ahead?
    Answer. The conversation must shift from ``climate change'' to a 
discussion about how we, as a Nation, manage risk.
    Current practice has seen too much risk liability--which is 
essentially a stealth tax--placed on the taxpayer. This burden is 
realized through more frequent Stafford Act disaster declarations and 
the associated Federal dollars that flow out of the Disaster Relief 
Fund, as well as disaster-related CDBG dollars that come from HUD. 
Additionally, in events that may not warrant a Stafford declaration, 
there can still be National Flood Insurance Program claims or SBA loans 
for impacted businesses. There are other departments and agencies that 
bear costs for these liabilities, as well. From 2005-2014, the 
Government Accountability Office found $277 billion in disaster 
spending across the Federal Government (GAO 16-797).
    The goal should be to move away from the taxpayer subsidizing the 
risk, to the private insurance markets subsidizing the risks. If the 
private sector cannot--or will not--provide affordable insurance, then 
the Federal Government is effectively incentivizing building in the 
wrong places or to the wrong codes and standards.
    If we, as a Nation, decide to subsidize risk (i.e. 20% of existing 
NFIP policy holders who have grandfathered or subsidized premium 
rates), it should be done in the public interest and not just for the 
benefit of a few.
    Question 2. As I mentioned in my opening statement, I am committed 
to ensuring that addressing the unique needs of children before, 
during, and after a disaster remains a priority at FEMA. Do you support 
legislative efforts to formally authorize the Children's Needs 
Technical Expert at FEMA to help ensure that children's needs are 
accommodated during disaster response and recovery?
    Answer. Yes, I support legislative efforts to authorize the 
Children's Needs Technical Expert at FEMA. But, having led a Federal 
agency for nearly 8 years, I would also caution you that it can be 
difficult to implement Congress' intent when it comes to a specific 
position within a large organization.
    I embraced the requirements for functions that Congress established 
to exist within FEMA when it passed the Post-Katrina Emergency 
Management Reform Act in 2006, and I would encourage you to work 
closely with the agency to ensure that any legislation you are drafting 
provides clear direction on expectations while also giving the agency 
flexibility in managing its personnel.
     Questions From Honorable James R. Langevin for W. Craig Fugate
    Question 1. Cyber attacks can have physical effects that mimic 
conventional disasters. How well-prepared are emergency managers to 
ensure that malicious actors are cleaned off of networks to prevent 
them from causing more chaos?
    Put another way, is FEMA--and emergency managers more broadly--
prepared to treat the underlying cause of cyber incidents (e.g., 
malware) rather than just the symptoms (e.g., a power outage)?
    Answer. Emergency management, in general--and FEMA, more 
specifically--are not in a position to address the root causes of cyber 
attacks. It is not a core competency of emergency managers. That said, 
there is a need to train emergency managers on the potential impacts of 
these threats in order to adjust emergency plans to address any 
outcomes of a cyber attack that may or may not mimic other 
infrastructure disruptions. Historically, emergency management has 
focused on consequence management for all hazards. FEMA has very close 
working relationships with sister organizations at DHS and other 
entities both inside and outside the Federal Government that are 
working at the National level to prevent cyber attacks from happening. 
This ensures that if there is an incident that cannot be prevented, 
Federal emergency management officials have already established needed 
connections with appropriate officials. Further, non-Federal emergency 
managers must have an understanding of the potential threats so that 
they can plan for all consequences and communicate with their chief 
executives about the need for resources to prepare for potential 
consequences.
    Question 2. What process would an emergency manager rely on to 
determine a cyber physical attack had a cyber component at all, 
particularly if manifestation was largely physical?
    Answer. In my opinion, State, local, and Tribal emergency managers 
are left out of the loop in most cyber events. While they may deal with 
the disruptions resulting from a cyber attack, until facts are shared 
with them by those Federal agencies who have the information that the 
event is a cyber attack, State, local, and Tribal partners are more 
likely to read about the fact that it is a cyber attack from open-
source news. Non-Federal emergency managers must have an understanding 
of the potential threats in the cyber realm so that they can 
effectively plan for all consequences and communicate with their chief 
executives about the need for resources to prepare for potential 
consequences.
    Question 3. What role do you see for FEMA as part of the National 
Cyber Incident Response Plan? The recently-released plan makes 
reference to using FEMA infrastructure but does not seem to address 
incorporating FEMA into planning directly.
    Answer. There has been much resistance to clearly defining FEMA's 
role and utilizing existing tools to manage cyber events. Other than 
looking at the Stafford Act to fund cyber attack recovery and 
mitigation costs, FEMA is not seen as part of the response team in the 
cyber/virtual envronment. FEMA already has: (1) Relationships with the 
States that few other Federal agencies have, and (2) a well-developed 
crisis response capability. I proposed that FEMA support those lead 
Federal agencies which have cyber attack roles under the National 
Response Framework so that FEMA can bring to bear the tools and 
capabilities that it already has--given its all-hazards mission--and 
which have already been funded by the taxpayer.
  Question From Ranking Member Donald M. Payne, Jr. for Robert David 
                                Paulison
    Question. As you know, ``climate change'' have become dirty words 
in Washington. But as you acknowledge, we are experiencing more 
frequent, more severe, more costly weather events. How can we 
depoliticize the cause so we can proactively address the challenges 
ahead?
    Answer. Response was not received at the time of publication.
  Questions From Honorable James R. Langevin for Robert David Paulison
    Question 1. Cyber attacks can have physical effects that mimic 
conventional disasters. How well-prepared are emergency managers to 
ensure that malicious actors are cleaned off of networks to prevent 
them from causing more chaos?
    Put another way, is FEMA--and emergency managers more broadly--
prepared to treat the underlying cause of cyber incidents (e.g., 
malware) rather than just the symptoms (e.g., a power outage)?
    Answer. Response was not received at the time of publication.
    Question 2. What process would an emergency manager rely on to 
determine a cyber physical attack had a cyber component at all, 
particularly if manifestation was largely physical?
    Answer. Response was not received at the time of publication.
    Question 3. What role do you see for FEMA as part of the National 
Cyber Incident Response Plan? The recently-released plan makes 
reference to using FEMA infrastructure but does not seem to address 
incorporating FEMA into planning directly.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
